No.

In the Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL, PETITIONER
v.
MING DAI
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
EDWIN S. KNEEDLER
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DONALD E. KEENER
JOHN W. BLAKELEY
DAWN S. CONRAD
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

1. Whether a court of appeals may conclusively presume that an asylum applicant’s testimony is credible
and true whenever an immigration judge or the Board
of Immigration Appeals adjudicates an application
without making an explicit adverse credibility determination.
2. Whether the court of appeals violated the remand
rule as set forth in INS v. Ventura, 537 U.S. 12 (2002)
(per curiam), when it determined in the first instance
that respondent was eligible for asylum and entitled to
withholding of removal.

(I)

RELATED PROCEEDING

United States Court of Appeals (9th Cir.):
Ming Dai v. Barr, No. 15-70776 (Oct. 22, 2019)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory provisions involved ...................................................... 2
Statement:
A. Legal framework ............................................................... 2
B. Facts and procedural history ........................................... 4
Reasons for granting the petition ............................................. 13
A. The court of appeals’ presumption rulings are
wrong ................................................................................ 15
B. The court of appeals’ decision warrants this Court’s
review ............................................................................... 23
C. The court of appeals’ refusal to remand is contrary
to Ventura and warrants review .................................... 28
Conclusion ................................................................................... 32
Appendix A — Court of appeals opinion (Mar. 8, 2018) ....... 1a
Appendix B — Court of appeals order and amended
dissent (Feb. 22, 2019) ............................. 68a
Appendix C — Court of appeals order (Oct. 22, 2019) ...... 110a
Appendix D — Board of Immigration Appeals decision
(Feb. 24, 2015).......................................... 158a
Appendix E — Oral decision of the immigration judge
(Feb. 22, 2013).......................................... 165a
Appendix F — Statutory provisions ................................... 178a
TABLE OF AUTHORITIES

Cases:
Abovian v. INS, 257 F.3d 971 (9th Cir. 2001) ..................... 17
Aguilera-Cota v. U.S. INS, 914 F.2d 1375
(9th Cir. 1990) ...................................................................... 23
Alcaraz-Enriquez v. Sessions, 727 Fed. Appx. 260
(9th Cir. 2018) ...................................................................... 27
Doe v. Holder, 651 F.3d 824 (8th Cir. 2011) ............ 12, 22, 25
(III)

IV
Cases—Continued:

Page

Ernesto Navas v. INS, 217 F.3d 646
(9th Cir. 2000) ............................................................ 8, 17, 20
Gonzales v. Thomas, 547 U.S. 183 (2006).......... 11, 15, 28, 31
Gutierrez-Orozco v. Lynch, 810 F.3d 1243
(10th Cir. 2016) ........................................................ 12, 22, 25
INS v. Elias-Zacarias, 502 U.S. 478 (1992) ........................ 15
INS v. Ventura, 537 U.S. 12 (2002) ......... 11, 15, 28, 29, 30, 31
Kalubi v. Ashcroft, 364 F.3d 1134 (9th Cir. 2004) .......... 8, 17
Kho v. Keisler, 505 F.3d 50 (1st Cir. 2007) ....12, 13, 19, 24, 25
Marynenka v. Holder, 592 F.3d 594 (4th Cir. 2010) .......... 20
Mejilla-Romero v. Holder, 600 F.3d 63 (1st Cir.
2010), vacated on other grounds, 614 F.3d 572
(1st Cir. 2010) ...................................................................... 24
Mubarack v. Holder, 595 Fed. Appx. 54
(2d Cir. 2014) ....................................................................... 20
Toure v. Attorney Gen. of the U.S., 443 F.3d 310
(3d Cir. 2006) ....................................................................... 20
Zaman v. Mukasey, 514 F.3d 233 (2d Cir. 2008) ............... 20
Zeru v. Gonzales, 503 F.3d 59 (1st Cir. 2007) ..................... 24
Treaty, statutes, and regulation:
Convention Against Torture and Other Cruel,
Inhuman or Degrading Treatment or Punishment,
adopted Dec. 10, 1984, S. Treaty Doc. No. 20,
100th Cong., 2d Sess. (1988), 1465 U.N.T.S. 85 ................. 6
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, Div. C,
110 Stat. 3009-546 ............................................................... 15
Immigration and Nationality Act, 8 U.S.C.
1101 et seq. ............................................................................. 2
8 U.S.C. 1101(a)(42)(A) ..................................................... 2
8 U.S.C. 1158(a) ....................................................... 2, 178a

V
Statutes and regulation—Continued:

Page

8 U.S.C. 1158(b)(1)(A) ............................................. 2, 180a
8 U.S.C. 1158(b)(1)(B)(ii) .............................3, 11, 21, 180a
8 U.S.C. 1158(b)(1)(B)(iii) ............................. passim, 181a
8 U.S.C. 1229a .......................................................... 2, 190a
8 U.S.C. 1231(b)(3) .................................................. 3, 214a
8 U.S.C. 1231(b)(3)(A) ............................................. 3, 214a
8 U.S.C. 1231(b)(3)(C) ....................................... 3, 17, 215a
8 U.S.C. 1252(a)(1)................................................... 4, 227a
8 U.S.C. 1252(a)(5)................................................. 18, 230a
8 U.S.C. 1252(b)(2) .................................................. 4, 230a
8 U.S.C. 1252(b)(4)(B) ...................... 4, 15, 16, 19, 22, 232a
REAL ID Act of 2005, Pub. L. No. 109-13, Div. B,
§ 101(a)(3), 119 Stat. 303 ...................................................... 3
8 C.F.R. 1003.1(b) .................................................................... 4
Miscellaneous:
Admin. Office of the U.S. Courts, U.S. Courts of
Appeals—Judicial Business 2018,
https://www.uscourts.gov/statistics-reports/
us-courts-appeals-judicial-business-2018
(last visited Mar. 19, 2020) ................................................. 26
Bureau of Democracy, Human Rights & Labor,
U.S. Dep’t of State, Country Reports on Human
Rights Practices for 2016: China, https://
www.justice.gov/sites/default/files/pages/
attachments/2017/03/06/dos-hrr_2016_china.pdf
(last visited Mar. 19, 2020) ................................................. 31
Executive Office for Immigration Review,
U.S. Dep’t of Justice:
Adjudication Statistics: Total Asylum
Applications (Jan. 23, 2020), https://www.
justice.gov/eoir/page/file/1106366/download ........... 26

VI
Miscellaneous—Continued:

Page

Immigration Court Listing, https://www.justice.
gov/eoir/eoir-immigration-court-listing
(last visited Mar. 19, 2020) ........................................ 26
H.R. Conf. Rep. No. 72, 109th Cong., 1st Sess.
(2005) .............................................................................. 18, 25
The American Heritage Dictionary of the English
Language (3d ed. 1996) ...................................................... 20

In the Supreme Court of the United States
No.
WILLIAM P. BARR, ATTORNEY GENERAL, PETITIONER
v.
MING DAI
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the Attorney General of the United States, respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Ninth Circuit in this
case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a67a) is reported at 884 F.3d 858. The order of the reconstituted panel of the court of appeals adhering to its
prior opinion following Judge Reinhardt’s death, along
with Judge Trott’s amended dissent (App., infra, 68a109a), is reported at 916 F.3d 731. The order of the
court of appeals denying rehearing en banc (App., infra,
110a-157a) is reported at 940 F.3d 1143. The decisions
of the Board of Immigration Appeals (App., infra, 158a164a) and the immigration judge (App., infra, 165a177a) are unreported.
(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
March 8, 2018. A petition for rehearing was denied on
October 22, 2019 (App., infra, 110a-157a). On January
10, 2020, Justice Kagan extended the time within which
to file a petition for a writ of certiorari to and including
February 19, 2020. On February 7, 2020, Justice Kagan
further extended the time to and including March 20,
2020. The jurisdiction of this Court is invoked under
28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Pertinent statutory provisions are reprinted in the
appendix to this petition. App., infra, 178a-240a.
STATEMENT
A. Legal Framework

1. The Immigration and Nationality Act (INA or
Act), 8 U.S.C. 1101 et seq., authorizes the Attorney General or the Secretary of Homeland Security to make a
discretionary grant of asylum to an alien who establishes that he is a “refugee,” which the Act defines as
one who is unwilling or unable to return to or avail himself of the protection of his home country “because of
persecution or a well-founded fear of persecution on account of race, religion, nationality, membership in a particular social group, or political opinion.” 8 U.S.C.
1101(a)(42)(A); 8 U.S.C. 1158(b)(1)(A). An alien may
seek to establish his eligibility for asylum either by filing an affirmative asylum application that will be considered in the first instance by an asylum officer, see
8 U.S.C. 1158(a), or by asserting his eligibility for asylum before an immigration judge (IJ) after removal proceedings have been initiated against him, see 8 U.S.C.
1229a.

3
As amended by the REAL ID Act of 2005 (REAL ID
Act), Pub. L. No. 109-13, Div. B, § 101(a)(3), 119 Stat.
303, the INA provides that the “testimony of the applicant [for asylum] may be sufficient to sustain the applicant’s burden” of proving his refugee status without
corroboration, “but only if the applicant satisfies the
trier of fact that the applicant’s testimony is credible, is
persuasive, and refers to specific facts sufficient to
demonstrate that the applicant is a refugee.” 8 U.S.C.
1158(b)(1)(B)(ii). In making that determination, “the
trier of fact may weigh the credible testimony along
with other evidence of record.” Ibid. The Act further
provides that the trier of fact should consider the “totality of the circumstances” in making a credibility determination, and that “[t]here is no presumption of
credibility,” with one exception: “if no adverse credibility determination is explicitly made, the applicant or
witness shall have a rebuttable presumption of credibility on appeal.” 8 U.S.C. 1158(b)(1)(B)(iii).
2. The INA also authorizes an alien who has been
placed in removal proceedings to apply for withholding
of removal. 8 U.S.C. 1231(b)(3). If the alien demonstrates that, “because of the alien’s race, religion, nationality, membership in a particular social group, or
political opinion,” “the alien’s life or freedom would be
threatened” in the country to which he would otherwise
be removed, then the alien may not be removed to that
country. 8 U.S.C. 1231(b)(3)(A). In assessing whether
an alien has established his entitlement to withholding
of removal, “the trier of fact shall determine whether
the alien has sustained the alien’s burden of proof,
and shall make credibility determinations, in the manner described in clauses (ii) and (iii) of section
1158(b)(1)(B),” described above. 8 U.S.C. 1231(b)(3)(C).

4
3. An alien who has been found ineligible for asylum
or withholding of removal and has been ordered removed by an IJ may appeal to the Board of Immigration
Appeals (Board or BIA). See 8 C.F.R. 1003.1(b). If the
Board affirms the IJ’s decision, the alien may file a “petition for review” in the court of appeals for the judicial
circuit in which the IJ completed the proceedings.
8 U.S.C. 1252(b)(2); see 8 U.S.C. 1252(a)(1). The INA
provides that on petition for review, the court of appeals
must treat “the administrative findings of fact [as] conclusive unless any reasonable adjudicator would be
compelled to conclude to the contrary.” 8 U.S.C.
1252(b)(4)(B).
B. Facts And Procedural History

1. a. Respondent, a native and citizen of China, entered the United States on a tourist visa in 2012. App.,
infra, 5a. Later that year, respondent filed an affirmative application for asylum. Ibid. Respondent claimed
that in 2009, after his wife became pregnant with their
second child, family-planning officials and police officers had come to his home to take his wife to have a
forced abortion. Id. at 2a-3a. According to respondent,
he tried to prevent them from taking her, resulting in a
physical altercation in which respondent’s shoulder was
dislocated and he suffered several broken ribs. Id. at
4a. Respondent asserted that he was subsequently detained in custody for ten days, and was released only
after he confessed to fighting with the police. Id. at 3a4a. Respondent claimed that when he arrived home, he
learned that his wife had been subjected to a forced
abortion and that an intrauterine device had been implanted without her consent. Id. at 4a. According to
respondent, he was subsequently fired from his job, his

5
wife was demoted, and his daughter was denied admission to superior schools, all because of respondent’s resistance to China’s family planning policies. Ibid. Respondent stated in his asylum application that “I eventually found a way to reach the USA,” and asked that
the government “[p]lease grant me asylum so that I can
bring my wife and daughter to safety in the USA.” Administrative Record 207.
Respondent was subsequently interviewed by an
asylum officer. App., infra, 172a. During the interview,
the asylum officer asked respondent whether he had applied with anyone else for his visa to enter the United
States. Id. at 172a-173a. Respondent reported that he
had not. Id. at 173a. And when respondent was asked
whether his wife and daughter had travelled to anywhere other than Taiwan, Hong Kong, and (in the case
of his wife) Australia, respondent likewise answered
that they had not. Id. at 5a, 169a-170a.
Government records indicated, however, that respondent’s wife and daughter had both traveled to the
United States with him in January 2012. App., infra,
5a, 91a-92a. Unlike respondent, though, they had returned to China the following month. Ibid. When the
asylum officer asked respondent to explain why he had
not disclosed that information on his application or in
his responses to interview questions, there was a long
pause before respondent admitted that he was afraid to
say that his wife and daughter had come to the United
States, because he would then be asked why they had
gone back to China. Id. at 92a-93a. After being asked
to tell the “real story,” respondent said that he “wanted
a good environment” for his daughter; that his daughter
returned to China to go to school and his wife returned
to her job; and that respondent did not have a job in

6
China and that was why he had stayed in the United
States. Id. at 93a.
The asylum officer declined to grant respondent’s affirmative application for asylum. App., infra, 6a, 168a169a.
b. The Department of Homeland Security thereafter initiated removal proceedings. App., infra, 6a, 168a169a. During cross-examination before an IJ, respondent “hesitated at some length” when asked about why
he had not disclosed that his wife and daughter had
joined him in the United States, and “appeared nervous
and at a loss for words.” Id. at 170a. He eventually conceded that he had been “afraid to answer why his wife
and daughter had gone back,” and confirmed that the
“real story as to why his family travelled to the United
States and returned to China” was that “it was because
he wanted a good environment for his child and because
his wife had a job and he did not, and that that is why
he stayed here.” Id. at 171a. Respondent further testified that his wife and daughter had returned to China
“because his father-in-law was elderly and needed attention, and because his daughter needed to graduate
from school in China.” Ibid. (emphasis omitted).
The IJ found respondent removable and denied his
applications for asylum and withholding of removal.
App., infra, 176a. 1 The IJ concluded that respondent
“failed to meet his burden of proving eligibility for
asylum.” Id. at 169a. “The principal area of concern
Respondent also sought protection under regulations implementing the Convention Against Torture and Other Cruel, Inhuman
or Degrading Treatment or Punishment, adopted Dec. 10, 1984,
S. Treaty Doc. No. 20, 100th Cong., 2d Sess. (1988), 1465 U.N.T.S.
85. Respondent abandoned that claim in the court of appeals, see
App., infra, 26a n.13, and it is not at issue here.
1

7
with regard to the respondent’s testimony,” the IJ
stated, “arose during the course of [respondent’s]
cross-examination,” when respondent was “asked about
various aspects of his interview with an Asylum Officer.” Ibid.
The IJ explained that both respondent’s testimony
and his answers to the asylum officer “clearly indicate
that the respondent failed to spontaneously disclose
that his wife and daughter came with him and then returned to China.” App., infra, 173a. Respondent had
“paused at length, both before the Court and before the
Asylum Officer, when asked about this topic.” Ibid.
The IJ found that significant, because “respondent’s
claim of persecution is founded on the alleged forced
abortion inflicted upon his wife.” Id. at 174a. The IJ
“[did] not find that the respondent’s explanation for her
return to China while he remained here [is] adequate.”
Id. at 175a. While “respondent has stated that he was
in a bad mood and that he had found a job and had a
friend here,” that “his daughter’s education would be
cheaper in China,” and that “his wife wanted to go to
take care of her father,” the IJ concluded that those reasons would not have been “sufficiently substantial” to
explain why respondent’s wife and daughter—but not
respondent himself—made the “free choice to return to
China after having allegedly fled that country following
his wife’s and his own persecution.” Ibid. “Given that
the respondent has failed to meet his burden of proof
for asylum,” the IJ found that “he has necessarily failed
to meet the higher burden for withholding of removal.”
Ibid.
c. The BIA “adopt[ed] and affirm[ed]” the IJ’s decision, concluding that respondent’s “family voluntarily
returning” and respondent’s “not being truthful about

8
it is detrimental to his claim and is significant to his burden of proof.” App., infra, 163a-164a. The Board held
that the IJ “need not have made an explicit adverse
credibility finding to nevertheless determine that the
respondent did not meet his burden of proving his asylum claim.” Id. at 164a.
2. a. Respondent filed a petition for review in the
Ninth Circuit, which was granted by a divided panel.
App., infra, 1a-67a. In an opinion by Judge Reinhardt,
the court of appeals concluded that neither the IJ nor
the BIA had made an explicit finding that respondent’s
testimony was not credible, and held that “in the absence of an explicit adverse credibility finding by the IJ
or the BIA,” an asylum applicant’s testimony must be
“deemed credible.” Id. at 12a-14a. 2 The court based
that result on circuit precedent pre-dating the amendments made by the REAL ID Act regarding the alien’s
burden of proof and the assessment of credibility. In
that precedent, the court had “held that in the absence
of an explicit adverse credibility finding by the IJ or
the BIA[, the court is] required to treat the [alien’s]
testimony as credible.” Id. at 13a (citing Kalubi v.
Ashcroft, 364 F.3d 1134, 1137 (9th Cir. 2004); Ernesto
Navas v. INS, 217 F.3d 646, 652 n.3 (9th Cir. 2000)).
The court acknowledged (id. at 13a-14a) that Congress,
in the REAL ID Act, provided for a “rebuttable presumption of credibility on appeal” when “no adverse
credibility determination is explicitly made,” 8 U.S.C.

Judge Reinhardt passed away while the government’s petition
for rehearing was pending, and Judge Murguia was selected to replace Judge Reinhardt on the panel. App., infra, 68a n.**. Judge
Murguia and Chief Judge Thomas—who was a member of the original panel—adhered to Judge Reinhardt’s opinion. See ibid.
2

9
1158(b)(1)(B)(iii) (emphasis added). But the court concluded that this rebuttable presumption applies only
“on appeal” to the Board, and does not apply on
petition for review in the court of appeals. App.,
infra, 14a. On that basis, the court concluded that
Section 1158(b)(1)(B)(iii) did not override circuit precedent requiring the court to accept the facts to which respondent had testified. Id. at 16a-17a.
In light of that rule, the court of appeals held that
respondent’s testimony was sufficient to carry his burden, because respondent “testified to sufficient facts to
demonstrate his eligibility for asylum.” App., infra,
24a. Because neither the IJ nor the Board had expressly found that respondent’s testimony was not credible, the court held that the Board’s denial of relief could
only be justified by a finding that his testimony was not
persuasive. Id. at 19a. In the court’s view, the record
could not sustain such a finding. While the Board had
focused on respondent’s “not being truthful,” id. at
164a, the court concluded that this represented an “attempt[] to impermissibly undermine the credibility”
that Ninth Circuit precedent dictated should be assigned to respondent’s testimony, id. at 24a, rather than
a freestanding determination that the testimony was
unpersuasive. See id. at 23a (concluding that it was inappropriate to attach significance to “concealment” by
respondent that might in other circumstances have “undermine[d] [respondent’s] credibility”).
Based on that rationale, the court of appeals held
that respondent is eligible for asylum, and remanded to
the Board for the discretionary determination of whether to grant asylum. App., infra, 25a. The court further
determined that the same analysis that led it to con-

10
clude that respondent was eligible for asylum also established that respondent was entitled to withholding of
removal, and it instructed the agency to grant respondent withholding of removal on remand. Id. at 25a-26a.
b. Judge Trott dissented. 3 App., infra, 68a-109a. He
criticized the majority for employing what he referred
to as a “meritless irrebuttable presumption of credibility” that is inconsistent with the statutory limits on judicial review of removal orders. Id. at 69a. In his view,
“[t]he sole issue should be whether [respondent’s] unedited presentation compels the conclusion that he carried his burden,” such that “no reasonable factfinder
could fail to find his evidence conclusive.” Ibid. Pointing to numerous inconsistencies in respondent’s asylum
application and statements that had been identified by
the IJ and the Board, Judge Trott concluded that no
such conclusion was compelled here, and that the majority’s contrary ruling was “another example of [the
Ninth Circuit’s] intransigence” in immigration cases.
Id. at 76a.
Beyond his disagreement with the majority’s presumption of credibility, Judge Trott also criticized the
majority’s decision to conclusively declare respondent
eligible for asylum and entitled to withholding of removal, rather than remanding to the Board to allow it
to make those determinations in light of the court of appeals’ announced standard. App., infra, 108a-109a.
Judge Trott noted that this Court had twice summarily
reversed the Ninth Circuit for making that same error,
Judge Trott amended his dissent in February 2019, while the
government’s petition for rehearing remained pending and after
Judge Murguia had replaced Judge Reinhardt on the panel. See
App., infra, 68a. This petition refers to Judge Trott’s amended dissent.
3

11
see ibid. (citing Gonzales v. Thomas, 547 U.S. 183 (2006)
(per curiam), and INS v. Ventura, 537 U.S. 12 (2002)
(per curiam)), and wrote that “the majority opinion follows in our tradition of seizing authority that does not
belong to us,” ibid.
c. The court of appeals denied the government’s petition for rehearing en banc, with ten active judges dissenting from, and two senior judges disagreeing with,
that denial. App., infra, 110a-157a.
i. Judge Callahan, joined by Judges Bybee, Bea, M.
Smith, Ikuta, Bennett, R. Nelson, Bade, Collins, and
Lee, wrote that the majority had “take[n] the extraordinary position of holding that, absent an explicit adverse credibility ruling, an IJ must take as true an asylum applicant’s testimony that supports a claim for asylum, even in the face of other testimony from the applicant that would undermine an asylum claim.” App.,
infra, 123a. She wrote that the panel majority’s approach “ignores the realities of factfinding” and revived
the Ninth Circuit’s “prior errant rule” regarding the
presumptive truthfulness of the alien’s testimony, notwithstanding the fact “that Congress abrogated” that
rule in the REAL ID Act. Ibid.
Judge Callahan explained that “[ j]ust because testimony is credible (i.e., believable), it doesn’t mean it
must be wholly accepted as the truth. A factfinder may
resolve factual issues against a party without expressly
finding that party not credible.” App., infra, 124a. That
principle is confirmed here, she wrote, by the statutory
provision allowing the trier of fact to “weigh the credible testimony along with other evidence of record,”
8 U.S.C. 1158(b)(1)(B)(ii). App., infra, 134a. “If credi-

12
ble testimony must be accepted as true,” Judge Callahan noted, “there would be nothing for the trier of fact
to ‘weigh.’ ” Ibid.
Judge Callahan further observed that the panel’s revival of a “deemed true” rule “squarely conflicts with
our own precedent and every other circuit to address
the issue.” App., infra, 135a; see id. at 135a-136a (discussing, inter alia, Gutierrez-Orozco v. Lynch, 810 F.3d
1243 (10th Cir. 2016); Doe v. Holder, 651 F.3d 824 (8th
Cir. 2011); and Kho v. Keisler, 505 F.3d 50 (1st Cir.
2007)). “As we have declined to correct this erroneous
decision ourselves,” Judge Callahan wrote, “hopefully
the Supreme Court will do so.” Id. at 123a.
ii. Judge Collins also issued a dissent from the denial
of rehearing en banc, joined by Judges Bybee, Bea,
Ikuta, Bennett, R. Nelson, and Bade. App., infra, 140a157a. Judge Collins agreed with the criticisms in Judge
Callahan’s dissent, but added that “the problems with
the panel majority’s opinion run even deeper” by requiring that “unless the agency has made an explicit
finding that the applicant’s testimony is not credible,
this court will conclusively presume that testimony to
be credible.” Id. at 141a. In Judge Collins’ view, following the REAL ID Act, any presumption of credibility
can be rebutted (before the Board or the court of appeals) “if a review of the record otherwise makes clear
that (despite the lack of an express credibility determination) the IJ did not believe certain aspects of the applicant’s statements.” Id. at 147a-148a.
Judge Collins was of the view that the “rebuttable
presumption” created by the REAL ID Act should be
applicable in both the courts of appeals and before the
Board. App., infra, 148a-150a. But if that provision did
not apply in the courts of appeals, he continued, that

13
would mean that the courts should not apply any presumption of credibility. Id. at 150a-151a. The panel’s
contrary conclusion, Judge Collins noted, created a conflict with the First Circuit’s decision in Kho, supra,
which “rejected the proposition that aliens are entitled
to a presumption of credibility on review in this court if
there is no express credibility determination made by
an IJ.” App., infra, 151a (quoting Kho, 505 F.3d at 56).
iii. Two senior judges—Judge Trott, in an opinion
that restated some points from his panel dissent, and
Judge O’Scannlain, who noted that he agreed with the
opinions contained in Judge Callahan’s dissent from denial
—also expressed disagreement with the panel’s opinion.
App., infra, 111a-122a, 140a.
REASONS FOR GRANTING THE PETITION

The Ninth Circuit has revived an erroneous and rigid
judge-made rule for review of BIA decisions that Congress expressly abrogated in the REAL ID Act and that
other courts of appeals have repeatedly rejected. That
ruling is of significant practical importance, and this
case presents a suitable vehicle in which to address it.
The Ninth Circuit held that unless an IJ or the Board
expressly states that an alien’s testimony is not credible, the alien’s testimony must be presumed credible
and accepted as true for purposes of determining
whether the alien is eligible for asylum or entitled to
withholding of removal. As this case illustrates, the
court of appeals gives that presumption conclusive effect even where the IJ or the Board finds that inconsistencies or other problems with the alien’s testimony render that testimony insufficiently persuasive to carry the
alien’s burden of proof. Congress, however, amended
the INA to reject the Ninth Circuit’s pre-REAL ID Act
approach adopting such a presumption. The INA now

14
provides that, with only one exception, “[t]here is no
presumption of credibility” in evaluating an application
for asylum. 8 U.S.C. 1158(b)(1)(B)(iii). The Ninth Circuit concluded that the one exception—a “rebuttable
presumption of credibility on appeal” that arises “if no
adverse credibility determination is explicitly made,”
ibid.—applies only before the Board, and not on petition
for review in a court of appeals. That conclusion is correct, but it undermines rather than supports the court
of appeals’ holding, because it means that the general
rule—that “[t]here is no presumption of credibility,”
ibid.—applies on petition for review. The court offered
no basis for disregarding that general rule.
As the ten judges dissenting from denial of rehearing
en banc below recognized, the court of appeals’ approach directly conflicts with the approaches utilized in
other circuits. The First Circuit has correctly held that,
as the REAL ID Act confirmed, courts may not impose
a presumption of credibility to overcome administrative
findings that an alien has failed to establish the requisite elements of his burden of proof. And even in circuits that have treated the exception described in Section 1158(b)(1)(B)(iii) as applicable on petition for review (unlike the First Circuit and the decision below),
the resulting presumption is rebuttable and goes only
to a showing of whether the testimony is capable of being believed, not to the question whether the testimony
is actually truthful and persuasive in light of all available information—let alone whether it necessarily satisfies the alien’s burden of proof on the ultimate question
of his eligibility for relief.
Beyond its erroneous use of an irrebuttable presumption that has been superseded by the REAL ID

15
Act, the court of appeals also plainly erred in its decision to declare respondent eligible for asylum and entitled to withholding of removal, rather than remanding
to the Board to consider those issues anew. This Court
has twice summarily reversed the Ninth Circuit for that
same error. See Gonzales v. Thomas, 547 U.S. 183
(2006) (per curiam); INS v. Ventura, 537 U.S. 12 (2002)
(per curiam). If the Court does not reverse the Ninth
Circuit on the first question presented, it should at least
order a remand to the BIA rather than allow—as Judge
Trott put it—“another example of [the Ninth Circuit’s]
intransigence” to go unchecked. App., infra, 76a.
A. The Court Of Appeals’ Presumption Rulings Are Wrong

The court of appeals erred by invoking a judge-made
evidentiary presumption to override administrative
findings that respondent had not carried his burden of
proving he had a well-founded fear of persecution.
1. In INS v. Elias-Zacarias, 502 U.S. 478 (1992),
this Court held that an asylum applicant who “seeks to
obtain judicial reversal of the BIA’s determination” that
he is ineligible for asylum and not entitled to withholding of removal “must show that the evidence he presented was so compelling that no reasonable factfinder
could fail to find the requisite fear of persecution.” Id.
at 483-484. A few years later, as part of the Illegal Immigration Reform and Immigrant Responsibility Act of
1996, Pub. L. No. 104-208, Div. C, 110 Stat. 3009-546,
Congress codified that rule in the INA, directing that a
court of appeals reviewing an order of removal must accept the Board’s findings of fact as “conclusive unless
any reasonable adjudicator would be compelled to conclude to the contrary.” 8 U.S.C. 1252(b)(4)(B).
Applying that standard here, the petition for review
plainly should have been denied. The Board explained

16
that the facts that respondent’s “family voluntarily return[ed]” to China, and that respondent was “not * * *
truthful about” their doing so, “significant[ly]” undercut respondent’s ability to carry his burden of proving
that his own desire to remain in the United States was
based on a well-founded fear of persecution if he should
return. App., infra, 164a. And the Board “adopt[ed]
and affirm[ed],” id. at 163a, the IJ’s determination that
respondent’s claim of “having allegedly fled [China] following his wife’s and his own persecution” was undermined by “his wife and daughter’s free choice to return
to China,” id. at 175a. Even if another factfinder might
have found that they had returned to China despite a
well-founded fear of persecution because “his daughter’s education would be cheaper in China” and “his wife
wanted to go to take care of her father,” the decision of
the IJ and Board to reject those reasons as “not * * *
sufficiently substantial” to explain their return if they
were actually subject to persecution, ibid., was well
within the range of conclusions that a “reasonable adjudicator” could reach, 8 U.S.C. 1252(b)(4)(B). The court
of appeals accordingly had no warrant to override the
Board’s determination that “respondent did not meet
his burden of proof.” App., infra, 164a.
2. The court of appeals reached a contrary conclusion only through its use of a conclusive presumption of
credibility, which it held arose in the absence of an “explicit adverse credibility finding” by the IJ or the
Board. App., infra, 2a. The court’s imposition of such
a presumption was erroneous in multiple respects.
a. The most straightforward flaw in the court of appeals’ decision is that the use of a presumption of credibility by a court of appeals is inconsistent with the
express terms of the INA. Section 1158(b)(1)(B)(iii)

17
states that, with one exception inapplicable here, see
pp. 18-19, infra, “[t]here is no presumption of credibility” in assessing an alien’s eligibility for asylum. 8 U.S.C.
1158(b)(1)(B)(iii); see 8 U.S.C. 1231(b)(3)(C) (making
same provision applicable to determinations about withholding of removal). That statutory rule forecloses the
Ninth Circuit’s use of a presumption of credibility.
Congress adopted Section 1158(b)(1)(B)(iii) as part
of a broader effort to ensure that courts of appeals—
and the Ninth Circuit in particular—are appropriately
deferential to immigration determinations by agency
adjudicators. Before the REAL ID Act, the Ninth Circuit had developed a body of rules that relieved asylum
applicants of their burden of proof and allowed the court
of appeals to substitute its own views about contested
record evidence for reasonable Board determinations.
See Abovian v. INS, 257 F.3d 971, 979 (9th Cir. 2001)
(Kozinski, J., dissenting from denial of rehearing en
banc) (noting that Ninth Circuit “rules” of judicial review “take the asylum decision from the BIA and put it
in the hands of our court”). One such rule was that—as
the decision below put it—“in the absence of an explicit
adverse credibility finding by the IJ or the BIA,” the
court was “required to treat the petitioner’s testimony
as credible.” App., infra, 13a (citing Kalubi v. Ashcroft,
364 F.3d 1134, 1137 (9th Cir. 2004); Ernesto Navas v.
INS, 217 F.3d 646, 652 n.3 (9th Cir. 2000)). Under that
rule, “[w]here the BIA d[id] not make an explicit adverse credibility finding,” the Ninth Circuit would “assume that the applicant’s factual contentions are true”
in assessing a petition for review. Ernesto Navas,
217 F.3d at 652 n.3; see Kalubi, 364 F.3d at 1137 (“Testimony must be accepted as true in the absence of an
explicit adverse credibility finding.”). The plain text of

18
the “no presumption of credibility” provision added by
the REAL ID Act, however, overrode that precedent—
a fact confirmed by the Conference Report accompanying the amendments, which explains that “the creation
of a uniform standard for credibility is needed to address a conflict on this issue between the Ninth Circuit
on one hand and other circuits and the BIA.” H.R. Conf.
Rep. No. 72, 109th Cong., 1st Sess. 167-168 (2005) (Conference Report).
In the ruling below, however, the Ninth Circuit decided that “[n]either this provision nor anything else in
the REAL ID Act explicitly or implicitly repeals the
rule that in the absence of an adverse credibility finding
by the IJ or the BIA, the petitioner is deemed credible.”
App., infra, 14a. The court based that conclusion on its
understanding that “the rebuttable presumption provision of the REAL ID Act applies only to appeals to the
BIA, not to petitions for review in our court.” Ibid. The
court reasoned that, “[i]n immigration cases, [a court of
appeals] do[es] not exercise appellate jurisdiction.” Id.
at 15a. Rather, “[t]he ‘sole and exclusive means for judicial review of an order of removal’ is by ‘a petition for
review,’ ” which “commences a new action against the
United States.” Ibid. (quoting 8 U.S.C. 1252(a)(5)). “A
provision that applies ‘on appeal’ therefore does not apply to [the court of appeals’] review, but solely to the
BIA’s review on appeal from the IJ’s decision.” Ibid.
The court of appeals was correct that the statutory
“rebuttable presumption” applies only on appeal to the
Board, but it drew the wrong conclusion from that predicate holding. The general rule following enactment of
the REAL ID Act is that “[t]here is no presumption of
credibility” in evaluating an alien’s testimony. 8 U.S.C.
1158(b)(1)(B)(iii) (emphasis added). The “rebuttable

19
presumption,” ibid., represents a limited exception to
that general rule. But where that exception is inapplicable (as the court of appeals correctly held here), it is
the statutory rule of no presumption that governs—not
some extra-statutory, judge-made irrebuttable presumption of credibility. As the First Circuit has recognized, “[i]t is apparent that this ‘rebuttable presumption’ applies to appeals from immigration courts to the
BIA. * * * There is no language in the statute directing
the reviewing courts of appeals to apply any such presumption.” Kho v. Keisler, 505 F.3d 50, 56 (2007) (citations omitted). Accordingly, “[a] reviewing court is not
bound[] * * * to accept a petitioner’s statements as fact
whenever an IJ simply has not made an express adverse
credibility determination.” Ibid.
The Ninth Circuit also suggested that when neither
the IJ nor the Board has made an explicit adverse credibility determination, it would be improper for the court
of appeals to “deny the petition for review based on lack
of credibility * * * because a denial on that ground
would require us to adopt a justification not relied on by
the BIA.” App., infra, 16a. But that, too, is incorrect:
Denying a petition for review in that circumstance does
not require the court to “adopt a justification not relied
on by the BIA,” ibid., but simply requires it to follow
Congress’s specific directive that where the IJ, affirmed by the Board, has found that the alien failed to
carry his burden of proving a well-founded fear of persecution, the court must sustain that finding “unless any
reasonable adjudicator would be compelled to conclude
to the contrary,” 8 U.S.C. 1252(b)(4)(B).
b. Unlike the First and Ninth Circuits, some other
courts of appeals have suggested (without much analysis) that the provision for a “rebuttable presumption of

20
credibility on appeal” applies not only to an appeal to
the Board but also to proceedings on petition for judicial
review of a Board decision denying asylum. See, e.g.,
Mubarack v. Holder, 595 Fed. Appx. 54, 56 (2d Cir.
2014); Zaman v. Mukasey, 514 F.3d 233, 237 n.3 (2d Cir.
2008) (per curiam); Toure v. Attorney Gen. of the U.S.,
443 F.3d 310, 326 & n.9 (3d Cir. 2006); Marynenka v.
Holder, 592 F.3d 594, 600 & n.* (4th Cir. 2010). As
noted above, the Ninth Circuit correctly rejected that
understanding. But even if the “rebuttable presumption of credibility” did apply in assessing a petition for
review, it still could not support the court of appeals’
decision here, for two independent reasons.
i. The court of appeals believed that in the absence
of an express adverse credibility finding by the IJ or the
Board, it must treat respondent’s testimony as truthful
in its entirety. See, e.g., App., infra, 17a, 22a-25a; see
also Ernesto Navas, 217 F.3d at 652 n.3 (holding that
court “must assume that the applicant’s factual contentions are true” in the absence of an express adverse
credibility finding), cited by App., infra, 13a. When the
statutory presumption applies, however, it pertains
only to the “credibility” of an alien’s testimony, not its
underlying truthfulness or ultimate persuasiveness.
8 U.S.C. 1158(b)(1)(B)(iii). As Judge Callahan explained in her dissent from denial of rehearing en banc
(App., infra, 136a-138a), there is a meaningful difference between those concepts. To be “credible” is to be
“[c]apable of being believed.” The American Heritage
Dictionary of the English Language 438 (3d ed. 1996).
A fact-finder can thus conclude that testimony is facially
“credible,” in the sense that it is capable of being believed, but ultimately find that the testimony is not
truthful or persuasive—as when two credible witnesses

21
testify to contradictory things and a factfinder is required to decide which, if either, is telling the truth or
what the ultimate factual circumstances are. App., infra, 136a-137a.
The INA contains several textual indications that
when the statutory “presumption of credibility” applies,
8 U.S.C. 1158(b)(1)(B)(iii), it goes only to whether testimony is capable of being believed, not to whether it is
ultimately truthful or persuasive. For one thing, Section 1158(b)(1)(B)(ii) says that an applicant’s testimony
“may” (not must) “be sufficient to sustain the applicant’s burden without corroboration” only if the applicant satisfies the trier of fact that his testimony not
only “is credible” but also “is persuasive.” 8 U.S.C.
1158(b)(1)(B)(ii). If “credible” meant “true,” then “persuasive” would be largely superfluous in that provision,
for testimony deemed “true” on an issue would be “persuasive” as well. By contrast, understanding “credible”
to mean only “capable of being believed” leads to a sensible reading under which the alien has to show that his
testimony is facially believable, and also that it is more
“persuasive” about the true state of affairs than any
evidence that might seem to conflict with it. Section
1158(b)(1)(B)(ii) also provides that the factfinder
“may weigh the credible testimony along with other
evidence of record.” Ibid. This necessarily allows the
trier of fact to find in a particular case that “other
evidence” outweighs the “credible testimony”—i.e.,
that other evidence is true or more persuasive. Ibid.
Again, that refutes any suggestion that “credible testimony” means only “true testimony.” And finally,
Section 1158(b)(1)(B)(ii) refers to scenarios in which
“the applicant should provide evidence that corroborates otherwise credible testimony.” Ibid. If “credible

22
testimony” referred to testimony that must be accepted
as true and persuasive, there would be no reason for
“corroboration” ever to be required. By contrast, if
“credible” means simply “capable of being believed,”
then it makes sense that the absence of corroboration
could be significant.
Because “credible” just means capable of being believed, rather than true, an IJ or the Board remains
free—as other courts of appeals have recognized—to
“discount[]” an alien’s credible testimony based on
“gap[s]” in his account or other relevant evidence.
Gutierrez-Orozco v. Lynch, 810 F.3d 1243, 1246 (10th
Cir. 2016); see Doe v. Holder, 651 F.3d 824, 830 (8th Cir.
2011) (“Congress thus rejected a rule that ‘credible’ testimony necessarily means that the facts asserted in that
testimony must be accepted as true.”) (citation omitted). It follows that even if a court may properly presume testimony to be credible, the Ninth Circuit was
wrong to hold that the IJ or the Board’s determination
that the testimony is untrue or ultimately unpersuasive
in light of the evidence as a whole (including, in this
case, inconsistencies in respondent’s testimony and government records reflecting the entry and departure of
respondent’s family) cannot be sustained. App., infra,
23a-25a. Instead, so long as there is substantial evidence to support the administrative findings of fact,
such that a “reasonable adjudicator” could have arrived
at the Board’s decision, 8 U.S.C. 1252(b)(4)(B), the court
of appeals must deny the petition for review.
ii. The Ninth Circuit’s approach is inconsistent with
the limited statutory presumption of credibility for the
additional reason that the statutory presumption is “rebuttable,” 8 U.S.C. 1158(b)(1)(B)(iii), whereas the court

23
of appeals’ presumption is not. As Judge Collins explained in his dissent from denial of rehearing en banc
(App., infra, 143a), “under [the Ninth Circuit’s]
deemed-credible rule, no matter how clear it might be
from the overall record that the IJ in fact disbelieved
portions of the petitioner’s testimony, that obvious disbelief must be ignored if the IJ did not explicitly state
that the IJ disbelieved that testimony.” Indeed, the
court acknowledged that under its rule, “[e]ven a ‘statement that a petitioner is “not entirely credible” is not
enough’ to constitute an adverse credibility finding.”
Id. at 12a (majority opinion) (quoting Aguilera-Cota v.
U.S. INS, 914 F.2d 1375, 1383 (9th Cir. 1990)).
This case illustrates well the problems with the
Ninth Circuit’s approach. The IJ devoted extensive attention to his “concern with regard to the respondent’s
testimony,” emphasizing that respondent had repeatedly “paused at length” and “appeared nervous and at a
loss for words” when asked about his “lack of forthrightness” regarding “his wife and daughter’s travel
with him to the United States and their subsequent return to China shortly thereafter.” App., infra, 169a173a. The Board likewise relied on respondent’s “not
being truthful about” those facts as “detrimental to his
claim” and “significant to his burden of proof.” Id. at
163a-164a. Those assessments are more than sufficient
to overcome a “rebuttable presumption of credibility,”
8 U.S.C. 1158(b)(1)(B)(iii).
B. The Court Of Appeals’ Decision Warrants This Court’s
Review

The court of appeals’ decision not only is incorrect,
but also conflicts with the decisions of other courts of
appeals in multiple respects and presents a question of

24
significant practical importance. This Court’s review is
warranted.
1. As explained above, see pp. 18-19, 22, supra, the
court of appeals’ decision conflicts with decisions of
other courts of appeals concerning whether a presumption of credibility applies on petition for review at all
and, if so, what such a presumption entails.
As Judge Trott observed in his panel dissent, the
court of appeals’ decision “creates an intercircuit conflict with Kho,” App., infra, 84a, in which the First Circuit concluded that “[a] reviewing court is not bound[]
* * * to accept a petitioner’s statements as fact whenever an IJ simply has not made an express adverse
credibility determination,” and that “[t]here is no
language in the statute directing the reviewing courts
of appeals to apply any such presumption,” Kho,
505 F.3d at 56. See Mejilla-Romero v. Holder, 600 F.3d
63, 72 n.5 (1st Cir. 2010) (“[T]o the extent Mejilla–
Romero now argues that, in the absence of an explicit
lack-of-credibility finding, we must take the mother’s
and aunt’s testimony * * * as credible, his argument is
flatly contradicted by our caselaw.”), vacated on other
grounds, 614 F.3d 572 (1st Cir. 2010); Zeru v. Gonzales,
503 F.3d 59, 73 (1st Cir. 2007) (“Nor is there an assumption that if the IJ has not made an express finding of
non-credibility, the alien’s testimony must be taken as
credible.”). 4

Kho involved removal proceedings that started before the effective date of the REAL ID Act, and the First Circuit therefore
acknowledged that the “[t]he[] terms of the REAL ID Act literally
do not apply to Kho’s application for relief from removal.” 505 F.3d
at 56 n.5. But Kho construed the REAL ID Act as part of its analysis, expressly holding that neither the REAL ID Act nor anything
4

25
The decision below also conflicts with the Eighth Circuit’s decision in Doe, 651 F.3d at 830, and the Tenth
Circuit’s decision in Gutierrez-Orozco, 810 F.3d at 1246,
as Judge Callahan explained in her dissent from denial
of rehearing en banc, App., infra, 135a-136a. Those circuits recognize that where a rebuttable presumption of
credibility applies, it goes only to whether testimony is
believable—not, as the court of appeals here concluded,
whether it is true. Thus, the Eighth Circuit explained
in Doe: “The statute * * * contemplates that an alien’s
testimony may be ‘credible’ yet not persuasive,” and
even “testimony that is ‘persuasive’ is not necessarily
sufficient to satisfy the alien’s burden of proof.”
651 F.3d at 830 (citation omitted). “Congress thus rejected a rule that ‘credible’ testimony necessarily means
that the facts asserted in that testimony must be
accepted as true.” Ibid. (citation omitted); accord
Gutierrez-Orozco, 810 F.3d at 1246 (“[E]ven credible
testimony may not be ‘persuasive or sufficient in light
of the record as a whole.’ ”) (quoting Doe, 651 F.3d at
830). Accordingly, as Judge Callahan put it, the Ninth
Circuit is “again at a table of one when it comes to interpreting the standards applicable to the agency’s determination of asylum eligibility.” App., infra, 136a.
Especially given that one of Congress’s primary purposes in adopting the relevant provisions of the REAL
ID Act was to “creat[e] * * * a uniform standard for
credibility” by eliminating the “conflict on this issue between the Ninth Circuit on one hand and other circuits
and the BIA” on the other, Conference Report 167, this

else supported the position that the Ninth Circuit had adopted before enactment of the REAL ID Act and adhered to in the decision
here. Id. at 56-57.

26
Court’s review is warranted to resolve the divisions of
authority created by the decision below.
2. If left uncorrected, the decision below would also
have significant practical consequences for the administration of the Nation’s immigration laws. More than
one-quarter of U.S. immigration judges sit within
the Ninth Circuit. See Executive Office for Immigration Review (EOIR), U.S. Dep’t of Justice, Immigration Court Listing, https://www.justice.gov/eoir/eoirimmigration-court-listing.
And because applicants
whose claims fail before an IJ and the Board are disproportionately likely to seek judicial review if their cases
would be heard by the Ninth Circuit, the Ninth Circuit
actually entertains more petitions for review than all
of the other circuits combined. See Admin. Office of the
U.S. Courts, U.S. Courts of Appeals—Judicial Business 2018, https://www.uscourts.gov/statistics-reports/
us-courts-appeals-judicial-business-2018 (reporting
that 56% of petitions for review of Board decisions were
filed in the Ninth Circuit).
As Judge Callahan explained, the court of appeals’
decision here would “tie[] the hands of IJs who are presented with conflicting evidence” in any of the tens of
thousands of asylum cases in which review could potentially be sought in the Ninth Circuit. App., infra,
133a; see EOIR, U.S. Dep’t of Justice, Adjudication
Statistics: Total Asylum Applications (Jan. 23, 2020),
https://www.justice.gov/eoir/page/file/1106366/download
(reporting that EOIR received approximately 212,000
asylum applications in fiscal year 2019).
Where
such “conflicting evidence” exists, the decision “effectively forc[es IJs] to accept an applicant’s favorable
testimony as the whole truth and to disregard unfavorable evidence—even when it is the applicant’s own

27
testimony—unless they affirmatively make an adverse
credibility finding.” App., infra, 133a. Accordingly,
whenever a blanket adverse credibility finding is inappropriate (because, for example, the IJ believes that
some of an alien’s testimony is accurate), the IJ will be
forced to specifically identify each and every piece of
testimony that the IJ determines is not truthful, or else
risk the Ninth Circuit (or the Board, impelled by Ninth
Circuit precedent) taking the assertions in that testimony as given and using them to override the other evidence that the IJ found to be more persuasive. Imposing that sort of detailed magic-words requirement on
IJs who are already extraordinarily burdened would result in unnecessary delays and improper reversals—
quite the opposite of what the REAL ID Act was intended to bring about. 5
The Ninth Circuit’s recent decision in Alcaraz-Enriquez v. Sessions, 727 Fed. Appx. 260 (2018), illustrates the point. In that case,
an IJ determined that one of the alien’s prior convictions qualified
as a “particularly serious crime,” and thus rendered him ineligible
for withholding of removal, after reviewing a probation report containing statements from the victim that described how the alien had
repeatedly beaten her, dragged her back into a residence, thrown
her against a staircase, kicked her in the legs and head, and forced
her to engage in sex acts against her will. See Appl. for an Extension of Time at 9a-10a, Alcaraz-Enriquez, supra (No. 19A891)
(Alcaraz-Enriquez App.). Applying its rule “that ‘where the BIA
does not make an explicit adverse credibility finding, the court must
assume that the petitioner’s factual contentions are true,’ ” the
Ninth Circuit reversed that decision because the Board had “credited the probation report over [the alien’s] testimony without making an explicit adverse credibility finding” as to the alien’s testimony
that the offense had been only a minor domestic squabble. 727 Fed.
Appx. at 261 (citation and brackets omitted). The government filed
a petition for rehearing in Alcaraz-Enriquez, which the court of appeals held in abeyance for its decision on the petition for rehearing
5

28
3. This case presents an appropriate vehicle in
which to address whether the courts of appeals should
apply a presumption of credibility in the absence of an
explicit adverse credibility finding and, if such a presumption applies, what it entails. That issue was squarely
addressed by the panel majority and ten dissenting
judges at the rehearing en banc stage, and it was casedispositive here: There were ample reasons to doubt
the veracity of respondent’s account, and the IJ and
Board both properly discounted his testimony for those
reasons, see pp. 6-8, 15-16, supra, so respondent could
prevail only because of the Ninth Circuit’s artificial and
rigid rule that his testimony must be accepted as true in
the absence of an explicit adverse credibility finding.
The Court should grant the petition for a writ of certiorari in order to resolve this important issue.
C. The Court Of Appeals’ Refusal To Remand Is Contrary
To Ventura And Warrants Review

Beyond the errors below that resulted in circuit conflicts regarding the panel’s application of a presumption
of credibility, the panel also violated the remand rule
that this Court enforced through summary reversals in
Thomas, supra, and Ventura, supra.
This Court has explained that, “[w]ithin broad limits[,] the law entrusts the agency to make the basic asylum eligibility decision.” Ventura, 537 U.S. at 16. Accordingly, when a court of appeals determines that the
findings of the IJ or the Board are insufficient to support the denial of asylum, “the proper course, except in
en banc in this case, and then denied shortly after denying rehearing
en banc in this case. See Alcaraz-Enriquez App. at 5a. The government is filing a petition for a writ of certiorari in Alcaraz-Enriquez
contemporaneously with this petition, suggesting that AlcarazEnriquez be held pending the Court’s consideration of this petition.

29
rare circumstances, is to remand to the agency for additional investigation or explanation.” Ibid. (citation
omitted). Doing so permits “[t]he agency * * * [to]
bring its expertise to bear upon the matter” in light of
any deficiencies identified by the court of appeals, including reevaluating the existing record and providing
“informed discussion and analysis” under a proper
framework, id. at 17, and receipt of additional evidence
if appropriate, id. at 18. A court of appeals that undertakes those tasks itself “seriously disregard[s] the
agency’s legally mandated role.” Id. at 17.
The court of appeals demonstrated just such “serious[] disregard[]” here. Ventura, 537 U.S. at 17. Having concluded (erroneously) that the absence of an explicit adverse credibility finding required the court to
assume that respondent’s testimony was credible, the
court did not simply vacate the Board’s decision and remand to allow for further evaluation and, if appropriate,
the receipt of additional evidence. Instead, the court
went on to deem the testimony actually true and ultimately persuasive, and ordered relief accordingly—
determining in the first instance that respondent had
carried his burden of proving eligibility for asylum and
entitlement to withholding of removal. App., infra, 24a26a.
In doing so, the court of appeals deprived the IJ and
the Board of the opportunity, on remand, to reassess or
expand the record and, if they so determine, state more
explicitly that respondent’s failure to testify in a “truthful” fashion about important aspects of his claim rendered his testimony insufficiently credible and persuasive to carry his burden in light of all the circumstances.
App., infra, 164a. The fact that the IJ and the Board
found that the discrepancies in respondent’s testimony

30
were enough to deny him relief without the need for an
explicit adverse credibility determination does not suggest that no adverse credibility—or persuasiveness—
determination would be warranted even on the present
record. The IJ and the Board should be permitted to
consider those issues in the first instance.
Beyond displacing the agency’s role in assessing
what evidence is credible, moreover, the court of appeals also improperly chose to draw its own inferences
from the evidence it deemed credible, rather than allowing the agency to determine what inferences to draw in
the first instance. The court decided, for example, that
respondent’s wife and daughter had “entirely reasonable” motives for returning to China; that respondent’s
untruthfulness about his family’s travel did not suggest
that respondent was concerned about what that travel
might suggest about the genuineness and persuasiveness of his claims of persecution; and that respondent’s
work-related reasons for remaining in the United
States were merely in addition to his asserted
persecution-related reasons for staying. App., infra,
22a-24a. As this Court explained in Ventura, however,
a court may not conduct a “de novo inquiry” into the factual record and “reach its own conclusions based on
[that] inquiry.” 537 U.S. at 16 (citation omitted). Because the IJ and the Board could have drawn different
inferences even from the evidence that the court of appeals decided must be deemed credible, the court
should have given them an opportunity to do so.
Finally, the court of appeals failed to afford the Board
an opportunity to decide whether remand to the IJ would
be appropriate to address, or to take new evidence on,
the effect of any changes in country conditions. For example, respondent’s alleged persecution all occurred

31
prior to his entry into the United States in 2012. There
is strong evidence that China has since changed its national policy and now permits married couples to have
two children. Bureau of Democracy, Human Rights &
Labor, U.S. Dep’t of State, Country Report on Human
Rights Practices for 2016: China 54, https://www.
justice.gov/sites/default/files/pages/attachments/2017/
03/06/dos-hrr_2016_china.pdf (“On January 1, [2016,]
the government raised the birth limit imposed on its citizens from one to two children per married couple,
thereby ending the ‘one-child policy’ first enacted in
1979.”). Yet the court’s decision precludes the Board
from considering whether remand to the IJ would be
appropriate to address, or take new evidence on, changes
in China’s family-planning policies that might be relevant to respondent’s claim.
The court of appeals’ errors in this regard are not
new. This Court has twice summarily reversed decisions of the Ninth Circuit that purported to conclusively
hold an alien eligible for asylum in just the same fashion. See Thomas, 547 U.S. at 187; Ventura, 537 U.S. at
16-18. As Judge Trott put it in dissent, “the majority
opinion follows in [that] tradition,” “seizing authority
that does not belong to us [and] disregarding DHS’s
statutorily mandated role.” App., infra, 108a-109a.
This issue, too, warrants the Court’s review, because
it is a further example of the Ninth Circuit’s rigid judgemade rules and practices that are contrary to the INA
and established principles governing judicial review of
agency action—as well as decisions of this Court and
other courts of appeals.

32
CONCLUSION

The petition for a writ of certiorari should be
granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
EDWIN S. KNEEDLER
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DONALD E. KEENER
JOHN W. BLAKELEY
DAWN S. CONRAD
Attorneys

MARCH 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 15-70776
Agency No. A205-555-836
MING DAI, PETITIONER
v.
JEFFERSON B. SESSIONS III, ATTORNEY GENERAL,
RESPONDENT

Submitted: Oct. 13, 2017 *
San Francisco, California
Filed: Mar. 8, 2018
On Petition for Review of an Order
of the Board of Immigration Appeals
OPINION

Before: SIDNEY R. THOMAS, Chief Circuit Judge, and
STEPHEN REINHARDT and STEPHEN S. TROTT, Circuit
Judges.
REINHARDT, Circuit Judge:
Ming Dai is a citizen of China. He testified that he
was beaten, arrested, jailed, and denied food, water,
The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App. P. 34(a)(2).
*

(1a)

2a
sleep, and medical care because he tried to stop the police from forcing his wife to have an abortion. The
Board of Immigration Appeals (BIA) nevertheless found
that Dai was not eligible for asylum or withholding of
removal.
There is one clear and simple issue in this case: neither the Immigration Judge (IJ) nor the BIA made a
finding that Dai’s testimony was not credible. Under
our well-established precedent, we are required to treat
a petitioner’s testimony as credible in the absence of
such a finding. We adopted this rule before the REAL
ID Act and reaffirmed it after its passage. The dissent
clearly disapproves of our rule. We are, however,
bound to follow it. We might add, though it does not
affect our holding in this case, that we approve of it.
We think it not too much to ask of IJs and the BIA that
they make an explicit adverse credibility finding before
deporting someone on that basis. In any event, under
our well-established rule, Dai is unquestionably entitled
to relief.
BACKGROUND
I.

Dai’s Persecution in China 1

Dai has been married for twenty years to Li Ping Qin.
Dai and Qin have a daughter, who was born in 2000. In
April 2009, Qin discovered that she was pregnant again.
Dai and Qin were “very happy” about the pregnancy and

This factual summary is drawn primarily from Dai’s testimony
before the IJ. As we discuss in more detail below, we treat Dai’s testimony as credible because neither the IJ nor the BIA made an adverse credibility finding.
1

3a
believed they would be able to keep the child if they paid
a fine, despite China’s One Child policy.
However, the month after Qin found out she was
pregnant, she was visited at work by a “family planning
officer” who told Qin that she was required to have an
abortion. Qin told the officer that she would need to
think about it. Two months later, five family planning
officers came to Dai and Qin’s house early in the morning from “the local family planning office and also the
police station.” The officers were there to take Qin to
the hospital for a forced abortion. Qin told the officers
that she didn’t want to go and Dai attempted to stop the
officers from taking Qin against her will. Dai and the
officers began arguing, with the officers telling Dai that
Qin had to have the forced abortion as a matter of “Chinese policy” and Dai saying “you can’t take my wife
away.”
When Dai continued resisting the officers’ efforts to
take Qin for the forced abortion, two of them pushed him
to the ground. Dai got up and tried again to stop the
officers, so they pushed him to the ground again. This
time, the officers handcuffed Dai and repeatedly beat
him, causing substantial injuries. While Dai was handcuffed and being beaten, the other officers dragged Qin
out of the house.
The police took Dai to the Zha Bei detention center.
There, they ordered Dai to confess to resisting arrest.
Dai initially refused to confess and insisted that he had
the right to protect his family. The officers continued
to interrogate him over the next number of days. At
times he was deprived of sleep because he was interrogated in the middle of the night. During the ten days

4a
he spent in detention, Dai was interrogated approximately seven times. He was fed one meal a day and often denied water. Dai characterized his treatment as
“mental[] torture.” Dai ultimately confessed to resisting arrest and fighting with the officers. He was released about two days after his confession.
Dai’s injuries occurred when the officers beat him at
his home. Despite telling the police about his injuries,
he received no medical attention while in custody. When
he was released he went to the hospital for x-rays, which
showed that his right arm was dislocated and the ribs on
his right side were broken. The doctor put Dai’s arm
back in place and wrapped it to keep it still for six weeks.
Dai did not receive any treatment for his broken ribs.
When Dai returned home he found Qin crying. Qin
told him that she had been taken to the Guang Hua hospital in the Chang Ning district, where a doctor made
her get undressed and then sedated her. When she
woke up, she learned that her pregnancy had been terminated and that an IUD had been implanted, all without her consent.
In addition to Qin’s forced abortion and Dai’s arrest,
detention, and physical and mental abuse, Qin, Dai, and
their daughter each suffered other repercussions arising out of Qin’s unauthorized pregnancy and Dai’s resistance to her forced abortion. Dai was fired from his
job, while Qin was demoted and her salary was reduced
by thirty percent. Their supervisors specifically informed them that they were fired and demoted because
of the above events. Their daughter was also denied
admission to more desirable schools despite good academic performance. Her teacher told Qin that this was

5a
likewise because of the events resulting from the illegal
pregnancy.
On or about January 27, 2012, Dai, Qin, and their
daughter arrived in the United States on tourist visas,
with authorization to remain until July 26, 2012. Qin
and their daughter returned to China in February while
Dai remained in the United States. In the time since
Qin and their daughter have returned to China, the Chinese police have come looking for Dai multiple times.
Dai is afraid that if he returns to China he will be forcibly sterilized.
II.

Asylum Application

Approximately eight months after arriving in the
United States, Dai filed an affirmative asylum application. The next month, he was interviewed by an asylum
officer. The asylum officer took notes during the interview, but did not prepare a verbatim transcript.
During the interview, Dai was not asked whether his
wife and daughter had accompanied him to the United
States. Rather, the asylum officer inquired whether
they ever traveled anywhere outside of China. He told
the asylum officer that both his wife and his daughter
had been to Taiwan and Hong Kong and that his wife
had been to Australia. When asked if they had traveled anywhere else, he said they had not. However,
when told that government records showed that his wife
and daughter had traveled to the United States with
him, he agreed that they had done so. When asked why
he did not initially disclose this, Dai said (through an interpreter and according to the non-verbatim notes of the
interview), “I’m afraid you ask why my wife and daughter go back.” Dai explained that his wife and daughter

6a
went back to China “[s]o that my daughter can go to
school and in the US you have to pay a lot of money.”
Finally, Dai was asked, “Can you tell me the real story
about you and your family’s travel to the US?” Dai responded, “I wanted a good environment for my child.
My wife had a job and I didn’t and that is why I stayed
here. My wife and child go home first.”
The asylum officer denied Dai’s asylum application.
III. Removal Proceedings

The Department of Homeland Security (DHS) then
issued Dai a Notice to Appear. Dai conceded that he
was removable and sought asylum, withholding of removal, and CAT protection. At a hearing before the IJ,
Dai testified about the events in China we have described. When asked why he came to the United States,
he said, “[b]ecause I was persecuted in China and my
wife, my wife was forced to have an abortion and I lost
my baby. I was arrested. I was beaten[]. I lost my
job. America [ ] is a free country and it’s [ ] a democratic country. I want to come here [ ] and have my
very basic human rights. I really, really hate Chinese
dictatorship.”
During cross-examination, the government asked
Dai about his initial failure to disclose his wife and
daughter’s travel to the United States. Dai testified
that “I was very nervous” and “because I was already in
the U.S. and they [ ] came with me to the U.S. . . . I
thought that you were asking me anywhere other than
the U.S.” In response to further questioning by the
government, Dai testified that his wife and daughter returned to China so that his wife could care for his fatherin-law and his daughter could attend school. When

7a
asked why he didn’t keep them in the US to protect them
from forced IUDs or abortions, Dai reminded the government that his wife’s IUD was already inserted before
she left China and that his daughter was only 13.
When the government asked Dai if there were any
other reasons he was afraid to return to China, Dai said,
“if I return to China, it’s impossible for me to get another job. . . . Just the sterilization and that.” Finally, when asked why he remained in the U.S. when his
wife returned to China he responded, “Because at that
time, I was in a bad mood and I couldn’t get a job, so I
want to stay here for a bit longer and another friend of
mine is also here.” At the time in question (when Qin
returned to China in February 2012), Dai did not know
about asylum. He first learned about the existence of
that process in March of that year.
The IJ did not make an adverse credibility finding.
Instead, the IJ found that Dai failed to meet his burden
of proof for asylum, withholding of removal, and CAT
protection.
IV. BIA Decision

The BIA affirmed the IJ’s denial of relief. The BIA
first found that Dai “failed to disclose both to the [DHS]
asylum officer and the [IJ] that his wife and daughter
had traveled with him to the United States and voluntarily returned to China shortly after” 2 and that Dai’s
The record clearly demonstrates that Dai did not conceal this information from the IJ. If he concealed it at all, it was only from the
asylum officer. To the extent the government defends this finding
by the BIA, it simply notes that Dai “did not raise the information
during direct examination before the Immigration Judge.” However, Dai was not asked about his family’s travel to the United States
2

8a
reason for concealing this information was that “he believed that the true reasons for their return . . .
would be perceived as inconsistent with his claims of
past and feared persecution.” 3
The BIA acknowledged that the IJ did not make an
adverse credibility finding and also did not make one itself. Instead, the BIA held that “the [IJ] need not have
made an explicit adverse credibility finding to nevertheless determine that the respondent did not meet his burden of proving his asylum claim.” The BIA found that
Dai’s family returning to China and “his not being truthful about it” were “detrimental to his claim and [ ] significant to his burden of proof.” The BIA concluded
that Dai failed to establish eligibility for asylum, withholding of removal, or CAT protection. Dai filed a
timely petition for review challenging the BIA’s denial
of relief.
SCOPE AND STANDARD OF REVIEW

“[W]e cannot deny a petition for review on a ground
[upon which] the BIA itself did not base its decision.”
Hernandez-Cruz v. Holder, 651 F.3d 1094, 1110 (9th Cir.
2011). We review the agency’s factual findings for substantial evidence. Hamazaspyan v. Holder, 590 F.3d
744, 747 (9th Cir. 2009).

and return to China during direct examination, and when he was
asked during cross examination he answered truthfully.
3
The BIA also found that “the respondent’s contention that his
wife and daughter returned to China before he became aware of the
possibility of asylum is not supported by the record.” In fact, Dai’s
testimony on this point was unchallenged and uncontradicted and
the government does not defend this erroneous finding before this
court.

9a
The scope of review in this case is unclear. While
the BIA stated that it “adopt[ed] and affirm[ed] the Immigration Judge’s decision,” it then went on to discuss
and agree with most of the IJ’s specific reasons while
omitting any discussion of one of them.
On the one hand, we have held that when “the BIA
adopts the decision of the IJ and affirms without opinion, we review the decision of the IJ as the final agency
determination.” Smolniakova v. Gonzales, 422 F.3d
1037, 1044 (9th Cir. 2005); see also Matter of Burbano,
20 I. & N. Dec. 872, 874 (BIA 1994). In this case, however, the BIA did not affirm “without opinion.”
On the other hand, we have also held that when “the
BIA relie[s] upon the IJ’s opinion as a statement of reasons” but “state[s] with sufficient particularity and clarity the reasons for denial of asylum and d[oes] not merely
provide a boilerplate opinion,” we “look to the IJ’s oral
decision [only] as a guide to what lay behind the BIA’s
conclusion.” Tekle v. Mukasey, 533 F.3d 1044, 1051
(9th Cir. 2008) (quotation marks and alterations omitted). “In so doing, we review here the reasons explicitly identified by the BIA, and then examine the reasoning articulated in the IJ’s oral decision in support of
those reasons. . . . Stated differently, we do not review those parts of the IJ’s . . . finding that the BIA
did not identify as ‘most significant’ and did not otherwise mention.” Id.; see also Lai v. Holder, 773 F.3d
966, 970 (9th Cir. 2014). However, in those cases the
BIA did not say that it was adopting the decision of the
IJ.
Finally, this is not a case in which “the BIA adopt[ed]
the immigration judge’s decision and also add[ed] its
own reasons.” Nuru v. Gonzales, 404 F.3d 1207, 1215

10a
(9th Cir. 2005). The BIA did not “add[] its own reasons;” rather, it identified and expressly agreed with
some (but not all) of the IJ’s reasons.
We need not, however, resolve the precise scope of
review in this case because none of the reasons advanced
by the IJ, including the one omitted by the BIA, provides a sufficient basis for the BIA’s decision.
DISCUSSION
I.

Asylum

Asylum is available to refugees—that is, anyone who
is “ ‘unable or unwilling to avail himself or herself of the
protection of [his or her native] country because of persecution or a well-founded fear of persecution on account of race, religion, nationality, membership in a particular social group, or political opinion.’ ” Baghdasaryan v. Holder, 592 F.3d 1018, 1022-23 (9th Cir. 2010)
(quoting 8 U.S.C. § 1101(a)(42)(A)). 4
If a noncitizen establishes past persecution, “a rebuttable presumption of a well-founded fear arises, and the
burden shifts to the government to demonstrate that
there has been a fundamental change in circumstances
such that the applicant no longer has a well-founded
fear.” Tawadrus v. Ashcroft, 364 F.3d 1099, 1103 (9th
Cir. 2004) (quotation marks and citations omitted).
“An applicant alleging past persecution has the burden
of establishing that (1) his treatment rises to the level of
persecution; (2) the persecution was on account of one
By “native country” we mean a person’s country of nationality
“or, in the case of a person having no nationality, . . . [the]
country in which such person last habitually resided.” 8 U.S.C.
§ 1101(a)(42)(A).
4

11a
or more protected grounds; and (3) the persecution was
committed by the government, or by forces that the government was unable or unwilling to control.” Baghdasaryan, 592 F.3d at 1023.
This case is governed by the REAL ID Act of 2005,
Pub. L. No. 109-13, Div. B, 119 Stat. 231, 302-23. Under the standards established by that Act, an applicant’s
testimony alone is sufficient to establish eligibility for
asylum if it satisfies three requirements: the “testimony is credible, is persuasive, and refers to specific
facts sufficient to demonstrate that the applicant is a
refugee.” 8 U.S.C. § 1158(b)(1)(B)(ii). In determining whether the testimony is persuasive, “the trier of
fact may weigh the credible testimony along with other
evidence of record.” Id. If the applicant’s testimony
satisfies all three requirements, then it “alone meets the
applicant’s burden of proof.” Ren v. Holder, 648 F.3d
1079, 1093 (9th Cir. 2011). If, however, the applicant’s
credible testimony alone is not sufficiently persuasive,
“the IJ must give the applicant notice of the corroboration that is required and an opportunity either to produce the requisite corroborative evidence or to explain
why that evidence is not reasonably available.” Id. 5
No notice regarding corroboration was given to Dai.
We will next examine the three requirements under the
Act for meeting the burden of proof, though not in the
order listed in the statute.

The IJ must also provide notice and an opportunity to produce
corroboration or explain its absence if an adverse credibility finding
will be based on a lack of corroborating evidence. Lai, 773 F.3d at
975-76.
5

12a
A.

Credibility

Dai testified at his removal hearing and the IJ made
no adverse credibility finding. When this was called to
the BIA’s attention, it also made no adverse credibility
finding. Although the BIA identified one time that Dai
allegedly failed to disclose a fact and indicated that it did
not believe Dai’s explanation for not doing so, “this sort
of passing statement does not constitute an adverse
credibility finding.” Kaur v. Holder, 561 F.3d 957, 96263 (9th Cir. 2009). The BIA may find that an applicant
lied about one particular fact without making a general
adverse credibility finding. Even a “statement that a
petitioner is ‘not entirely credible’ is not enough” to constitute an adverse credibility finding, Aguilera-Cota v.
I.N.S., 914 F.2d 1375, 1383 (9th Cir. 1990), and the BIA’s
finding that Dai “failed to disclose” a single fact does not
even rise to the level of a finding that a petitioner is “not
entirely credible.” In short, the adverse credibility
finding must be explicit.
Large portions of the dissent are devoted to elaborating on the deference that we owe to credibility findings by the IJ and the BIA. We agree that such findings are entitled to deference, but we cannot defer to a
finding that does not exist. The bulk of our dissenting
colleague’s concerns can therefore be reduced to his objection to the rule that adverse credibility findings must
be explicit. It is difficult to identify, however, a more
well-established rule in the review of immigration
cases. 6 The dissent offers no reason to overturn our
See, e.g., She v. Holder, 629 F.3d 958, 964 (9th Cir. 2010); Tijani
v. Holder, 628 F.3d 1071, 1080 (9th Cir. 2010); Edu v. Holder,
624 F.3d 1137, 1143 n.5 (9th Cir. 2010); Karapetyan v. Mukasey,
543 F.3d 1118, 1123 n.4 (9th Cir. 2008); Meihua Huang v. Mukasey,
6

13a
longstanding requirement that adverse credibility findings be explicit and, in fact, the REAL ID Act codifies
the principle that such findings must be “explicitly
made.” 8 U.S.C. § 1158(b)(1)(B)(iii). Therefore, “[t]he
IJ’s decision not to make an explicit adverse credibility
finding,” Dissent at 30, means that there is no finding to
which we can defer. 7
Given that there is no adverse credibility finding
from the agency, the next question is whether we can
nostra sponte decide that Dai’s testimony is not credible. Prior to the REAL ID Act, we held that in the absence of an explicit adverse credibility finding by the IJ
or the BIA we are required to treat the petitioner’s testimony as credible. Kalubi v. Ashcroft, 364 F.3d 1134,
1137 (9th Cir. 2004); Navas v. I.N.S., 217 F.3d 646, 652
n.3 (9th Cir. 2000). The REAL ID Act enacted a variety of changes to the standards governing credibility determinations, including—as noted by the dissent—a
provision that “if no adverse credibility determination is
explicitly made, the applicant or witness shall have a
520 F.3d 1006, 1007-08 (9th Cir. 2008) (per curiam); Singh v. Gonzales, 491 F.3d 1019, 1025 (9th Cir. 2007); McDonald v. Gonzales,
400 F.3d 684, 686 n.2 (9th Cir. 2005); Mansour v. Ashcroft, 390 F.3d
667, 671-72 (9th Cir. 2004); Zhang v. Ashcroft, 388 F.3d 713, 718 (9th
Cir. 2004) (per curiam); Lopez-Alvarado v. Ashcroft, 381 F.3d 847,
851 (9th Cir. 2004); Kalubi v. Ashcroft, 364 F.3d 1134, 1137-38 (9th
Cir. 2004); Mendoza Manimbao v. Ashcroft, 329 F.3d 655, 658-59
(9th Cir. 2003); Shoafera v. I.N.S., 228 F.3d 1070, 1074 n.3 (9th Cir.
2000); Navas v. I.N.S., 217 F.3d 646, 652 n.3 (9th Cir. 2000); Prasad
v. I.N.S., 101 F.3d 614, 616 (9th Cir. 1996); Hartooni v. I.N.S.,
21 F.3d 336, 342 (9th Cir. 1994).
7
The dissent places great weight on Ling Huang v. Holder,
744 F.3d 1149 (9th Cir. 2014). The distinction between that case
and this could not be clearer: “[T]he IJ found that Huang’s testimony was not credible.” Id. at 1151.

14a
rebuttable presumption of credibility on appeal.”
8 U.S.C. § 1158(b)(1)(B)(iii).
Neither this provision nor anything else in the REAL
ID Act explicitly or implicitly repeals the rule that in the
absence of an adverse credibility finding by the IJ or the
BIA, the petitioner is deemed credible. To the contrary, in a post-REAL ID opinion we stated and applied
that rule. See Zhiqiang Hu v. Holder, 652 F.3d 1011,
1013 n.1 (9th Cir. 2011); see also Kazemzadeh v. U.S. Attorney Gen., 577 F.3d 1341, 1354 (11th Cir. 2009) (W.
Pryor, J.) (post-REAL ID application) (“Where an [Immigration Judge] fails to explicitly find an applicant’s
testimony incredible and cogently explain his or her reasons for doing so, we accept the applicant’s testimony as
credible.”) (quotation marks omitted). Hu controls here,
a fact the dissent entirely fails to acknowledge. However, in Hu we did not explain why our rule was unaffected by the new language in the REAL ID Act. We
take this opportunity to do so now.
Properly understood, the rebuttable presumption
provision of the REAL ID Act applies only to appeals to
the BIA, not to petitions for review in our court. 8 This

The proper application of the rebuttable presumption provision
is apparent in She v. Holder, 629 F.3d 958 (9th Cir. 2010). In that
case, we quoted a different pre-REAL ID rule: that “[a]bsent an
adverse credibility finding, the BIA is required to ‘presume the petitioner’s testimony to be credible.’ ” Id. at 964 (quoting Mendoza
Manimbao v. Ashcroft, 329 F.3d 655, 662 (9th Cir. 2003)). In a footnote, we acknowledged that the REAL ID Act prospectively altered
this rule so that the BIA must only afford “a rebuttable presumption
of credibility” when the IJ does not make an adverse credibility finding. Id. at 964 n.5. Thus, while the dissent is correct that the
REAL ID Act affected our precedent, it did not disturb the distinct
8

15a
is demonstrated by the fact that the statute says there
is “a rebuttable presumption of credibility on appeal.”
8 U.S.C. §§ 1158(b)(1)(B)(iii), 1229a(c)(4)(C) (emphasis
added). In immigration cases, we do not exercise appellate jurisdiction. Rather, decisions by the finder of
fact, the IJ, may be appealed to the BIA. See 8 C.F.R.
§ 1003.1(b). We generally cannot review an order of
removal unless the non-citizen has exhausted his appeal
to the BIA. 8 U.S.C. § 1252(d)(1); see Ren, 648 F.3d at
1083-84. The “sole and exclusive means for judicial review of an order of removal” is by “a petition for review,”
not a further appeal. 8 U.S.C. § 1252(a)(5) (emphasis
added). Moreover, unlike an appeal, which shifts an
existing action to a new court, a petition for review
commences a new action against the United States.
28 U.S.C. § 2344; see also 8 U.S.C. § 1252(a)(1). Thus,
Dai is the petitioner, not the appellant, and the Attorney
General is the respondent, not the appellee. A provision that applies “on appeal” therefore does not apply to
our review, but solely to the BIA’s review on appeal
from the IJ’s decision. 9
The inapplicability of the rebuttable presumption
provision to review in this court is further confirmed by
a fundamental distinction between appellate review and
review of administrative decisions that the dissent ignores. When we review a decision of a district court,
we may “affirm on any ground supported by the record
rule upon which we rely in this case: that in the absence of an adverse credibility finding by either the IJ or the BIA, we are required
to treat the petitioner’s testimony as credible.
9
The fact that appeals and petitions for review are treated the
same for purposes of the Federal Rules of Appellate Procedure, see
Fed. R. App. P. 20; Dissent at 38-39, is irrelevant. The provision in
question, 8 U.S.C. § 1158(b)(1)(B)(iii), is not part of the those rules.

16a
even if the district court did not consider the issue.”
Perfect 10, Inc. v. Visa Int’l Serv. Ass’n, 494 F.3d 788,
794 (9th Cir. 2007). When we review an administrative
decision, however, “we cannot deny a petition for review
on a ground [on which] the BIA itself did not base its
decision.” Hernandez-Cruz, 651 F.3d at 1110; see also
Nw. Envtl. Def. Ctr. v. Bonneville Power Admin.,
477 F.3d 668, 688 (9th Cir. 2007).
The dissent is therefore incorrect to say that “[w]hen
it comes to our task of reviewing the credibility of witnesses in a trial court or whether a witness’ testimony
suffices to carry his burden of proof [ ] there is no material difference between an appeal and a petition for review.” Dissent at 38. In an appeal we may, in appropriate circumstances and after affording appropriate
deference, reject a district court’s credibility finding
(whether favorable or adverse) in order to affirm the district court on an alternative ground. However, when the
BIA has on appeal neither affirmed an adverse credibility finding made by the IJ nor made its own finding after
deeming the presumption of credibility rebutted, we
may not deny the petition for review based on lack of
credibility, not only because under our well-established
case law we must deem the petitioner’s testimony credible but also because a denial on that ground would require us to adopt a justification not relied on by the BIA.
The plain text and context of the statute dictate the
conclusion that the REAL ID Act’s rebuttable presumption of credibility applies only on appeal to the BIA. In
the absence of any other provision in the Act affecting

17a
the procedures governing credibility findings,10 our rule
that we are required to treat a petitioner’s testimony as
credible when the agency does not make an adverse
credibility finding remains applicable. Because neither the IJ nor the BIA made an adverse credibility determination in Dai’s case, we must treat his testimony
as credible.
B.

Sufficiency

Because Dai’s testimony must be deemed credible,
we must next consider whether he testified to facts sufficient to establish eligibility for asylum. By statute, “a
person . . . who has been persecuted for failure or
refusal to [abort a pregnancy or to undergo involuntary
sterilization] or for other resistance to a coercive population control program, shall be deemed to have been
persecuted on account of political opinion.” 8 U.S.C.
§ 1101(a)(42). The harm Dai suffered was on account
of his resistance to China’s coercive population control
program and thus was on the basis of a protected ground.
In addition, “[p]olice officers are the prototypical state
actor for asylum purposes.” Boer-Sedano v. Gonzales,
418 F.3d 1082, 1088 (9th Cir. 2005). Therefore, the only
question as to the sufficiency of Dai’s testimony is whether
the harm rose to the level of persecution.
Dai testified that he was beaten, arrested, detained,
and deprived of food and sleep because of his attempt to

The only other significant change regarding credibility adopted
by the REAL ID Act is the rule that an adverse credibility finding
may now be based on “an inconsistency, inaccuracy, or falsehood
[that does not go] to the heart of the applicant’s claim.” 8 U.S.C.
§§ 1158(b)(1)(B)(iii), 1229a(c)(4)(C). That rule is irrelevant to this
case, as the IJ and BIA did not make an adverse credibility finding.
10

18a
oppose his wife’s involuntary abortion. “It is well established that physical violence is persecution.” Li v.
Holder, 559 F.3d 1096, 1107 (9th Cir. 2009). In Guo v.
Ashcroft, 361 F.3d 1194 (9th Cir. 2004), this court held
that facts similar to—but less serious than—the facts in
this case compelled a finding of persecution. The applicant in Guo was arrested, detained for a day and a
half, punched in the face, and kicked in the stomach.
Id. at 1202-03. In contrast, Dai was forcibly pushed to
the ground twice, repeatedly punched in the stomach
while handcuffed, jailed for ten days, fed very little food
and water, deprived of sleep through interrogation, and
denied medical care. An applicant may establish persecution through physical abuse even if he does not seek
medical treatment, see Lopez v. Ashcroft, 366 F.3d 799,
803 (9th Cir. 2004), but Dai did seek and receive such
treatment for an injured shoulder and broken ribs.
In addition to the physical harm he suffered, Dai lost
his job as a result of this occurrence. Such economic
harm can contribute to a finding of persecution. See
Vitug v. Holder, 723 F.3d 1056, 1065 (9th Cir. 2013).
For these reasons, the harm Dai suffered rose to—
and indeed, well surpassed—the established level of
persecution. The record therefore compels the conclusion that Dai’s testimony sets forth sufficient specific
facts to constitute past persecution.
C.

Persuasiveness

The BIA did not make an adverse credibility finding,
but instead found that Dai had failed to “meet[] his burden of proving his asylum claim.” As we have explained, see pages 13-14, supra, an applicant’s testimony
carries the burden of proof if it is credible, persuasive,

19a
and sufficient. Two of those requirements have been
satisfied: we must treat Dai’s testimony as credible and
his testimony clearly set out sufficient facts to establish
past persecution. We therefore treat the BIA’s general statement about Dai’s burden of proof as relating to
the only remaining requirement for testimony to carry
that burden: persuasiveness. However, taking into
account the record as a whole, nothing undermines the
persuasiveness of Dai’s credible testimony—that is, the
BIA’s determination that Dai’s testimony was unpersuasive is not supported by substantial evidence.
In evaluating persuasiveness the BIA is required to
“weigh the credible testimony along with other evidence
of record.” 8 U.S.C. § 1158(b)(1)(B)(ii). The BIA found
that Dai’s testimony was not persuasive for two reasons.
First, the record revealed that Dai’s wife Qin and their
daughter had traveled to the United States with Dai,
and then voluntarily returned to China. Second, Dai
initially tried to conceal this fact from the asylum interviewer until he was confronted with it. According to
the BIA, “[t]he respondent’s family voluntarily returning and his not being truthful about it is detrimental to
his claim and is significant to his burden of proof.” The
IJ identified a third reason for not finding Dai’s testimony persuasive: the fact that when asked for “the
real story about you and your family’s travel to the
U.S.,” Dai responded, “I wanted a good environment for
my child. My wife had a job and I didn’t, and that is
why I stayed here. My wife and child go home first.”
However, none of these reasons supports the BIA’s conclusion that Dai’s testimony was not persuasive in light
of the record as a whole.

20a
We have held that a noncitizen’s “history of willingly
returning to his or her home country militates against a
finding of past persecution or a well-founded fear of future persecution.” Loho v. Mukasey, 531 F.3d 1016,
1017-18 (9th Cir. 2008). The BIA relied heavily on
Loho to justify its decision. However, unlike in Loho,
Dai never returned to China—only his wife and daughter did.
We have also recognized that a family member’s voluntary return—or demonstrated ability to remain in the
country without further injury—can be relevant in certain narrow circumstances: when the applicant’s “fear
of future persecution rests solely upon threats received
by his family,” Tamang v. Holder, 598 F.3d 1083, 1094
(9th Cir. 2010) (emphasis added), or when the family
member and the applicant are “similarly situated,”
Sinha v. Holder, 564 F.3d 1015, 1022 (9th Cir. 2009).
The IJ found that “the fundamental thrust of [Dai’s]
claim is that his wife was forced to have an abortion,”
and Qin “therefore clearly has an equal, or stronger,
claim to asylum than [Dai] himself.” The IJ also found
that Qin was “the primary object of the persecution in
China.” The BIA adopted this reasoning. However,
the findings are contrary to the reasoning of our case
law.
It is true that Dai and Qin’s persecution arose out of
the same general event, but that is not the test that Tamang and Sinha establish. Dai’s fear of persecution
does not “rest solely” on Qin’s treatment, and Dai and
Qin are not “similarly situated.” As the harms suffered
by Dai and Qin in the past are qualitatively different and
give rise to different fears about future persecution, we
need not decide who has the “stronger” claim. Neither

21a
the statutes nor our case law endorses the IJ and BIA’s
approach of ranking distinct harms. To the contrary,
Dai’s claim is independently established by statute and
is not dependent on any comparison with Qin’s. 11
Qin’s hypothetical asylum claim arises out of the invasive medical procedure imposed on her against her
will—she was “forced to abort a pregnancy [and] to undergo involuntary sterilization.” 8 U.S.C. § 1101(a)(42).
We certainly agree with the BIA and the government
that interference with a person’s reproductive freedom
is a severe form of persecution and in no way do we suggest that Qin would not have a strong case for asylum
had she applied for it.
Dai, however, was “persecuted . . . for [ ] resistance to a coercive population control program.” Id.
He was subjected to beatings, prolonged detention, and
deprivation of food and sleep—none of which was experienced by Qin. After the incident, Dai was fired from
his job while Qin was only demoted. In addition, Qin
had already been subjected to the involuntary insertion
of an IUD, whereas Dai fears future involuntary sterilization. Since Qin returned to China she has apparently
not faced further persecution, but the police have come
looking for Dai several times. Dai and Qin’s past experiences, as well as their fears about the future, are therefore not so similar as to support the BIA’s finding that
Qin’s voluntary return to China undermines Dai’s claim
for asylum.

“For purposes of determinations under this chapter, a person
. . . who has been persecuted for . . . resistance to a coercive
population control program, shall be deemed to have been persecuted on account of political opinion.” 8 U.S.C. § 1101(a)(42).
11

22a
Moreover, Dai’s and Qin’s respective decisions make
sense in context. Qin still had a job in China, and their
daughter had a place in school—albeit not in as good a
school as she deserved. In this context, it was entirely
reasonable to think that the family would be best off if
Qin returned to China to keep her job while Dai attempted to establish himself in the United States—
hoping that, once he did so, his family would be able to
join him. The BIA improperly substituted its own view
of what the members of the family should have done for
Dai and Qin’s own reasoned judgment in a manner that
is not supported by substantial evidence in the record.
The BIA’s second reason for finding Dai’s testimony
unpersuasive fares no better. The BIA held that even
in the absence of an adverse credibility finding, Dai “not
being truthful” about his family’s travel to the United
States and voluntary return to China “is detrimental to
his claim and is significant to his burden of proof.”
The BIA’s framing of the issue suggests that it is relevant because it casts doubt on Dai’s credibility. However, the exercise in which we engage when evaluating
persuasiveness requires that in this case we treat Dai’s
testimony before the IJ as credible. Other evidence is
relevant only to the extent that it affects the persuasiveness of the applicant’s testimony for reasons other than
challenging his credibility. Otherwise, the statutory
command to “weigh the credible testimony along with
other evidence of record,” 8 U.S.C. § 1158(b)(1)(B)(ii)
(emphasis added), would not make sense. Once credibility is decided—here, as we have explained, by the failure of the IJ or the BIA to make an adverse credibility
finding—the issue is settled. Credibility concerns that
do not justify an adverse credibility finding cannot be

23a
smuggled into the persuasiveness inquiry so as to undermine the finding of credibility we are required to afford Dai’s testimony. 12 Indeed, despite pointing out
that Dai was “not [ ] truthful” about a tangential point,
the BIA never questioned the facts regarding Dai’s persecution in China.
Neither the IJ nor the BIA explained how Dai’s concealment of his family’s travel to the United States and
return to China was relevant in any way other than to
undermine Dai’s credibility. The government likewise
offered no such explanation before this court, and in any
event we independently discern no relevance beyond
Dai’s credibility. Therefore, neither the family’s return nor Dai’s alleged concealment of that fact can support the BIA’s finding that Dai’s credible testimony was
unpersuasive.
Finally, contrary to the portion of the IJ’s opinion not
mentioned by the BIA, Dai’s statement that “My wife
had a job and I didn’t, and that is why I stayed here,”
does not render his testimony about his past persecution
unpersuasive. A valid asylum claim is not undermined
by the fact that the applicant had additional reasons (beyond escaping persecution) for coming to or remaining

According to the dissent, “there is barley a dime’s worth of substantive difference between ‘credible’ and ‘persuasive.’ ” Dissent at
45. This assertion is flatly contradicted by the text of the REAL
ID Act, which requires that testimony be both “credible” and “persuasive.” 8 U.S.C. § 1158(b)(1)(B)(ii). “It is a well-established
rule of statutory construction that courts should not interpret statutes in a way that renders a provision superfluous.” Chubb Custom
Ins. Co. v. Space Systems/Loral, Inc., 710 F.3d 946, 966 (9th Cir.
2013).
12

24a
in the United States, including seeking economic opportunity. See Li, 559 F.3d at 1105 (reversing an adverse
credibility determination that was based on an applicant’s testimony that economic opportunity was an additional reason for coming to the United States). That
is especially true when, as in this case, the loss of economic opportunity in the home country is part of the
overall persecution. Dai testified about his reasons for
coming to the United States: “I was persecuted in
China. . . . I was arrested. I was beaten[]. I lost
my job. . . . I want to come here [ ] and have my very
basic human rights.” Although Dai acknowledged that
he had additional reasons for coming to the United
States, he never recanted or contradicted his assertion
that he feared persecution if he returned to China, which
is the only subjective requirement for an asylum claim.
* * *
The BIA did not enter an adverse credibility finding,
so we are required to treat Dai’s testimony as credible.
The record compels the conclusion that he testified to
sufficient facts to demonstrate his eligibility for asylum:
he was subjected to harm rising to the level of persecution, that persecution was on account of a protected
ground, and the persecution was committed by the government. Nothing in the BIA’s burden of proof analysis raises questions about whether Dai established either of those elements. Treating that analysis instead
as going to the question of persuasiveness, the BIA’s
concerns are either unsupported by our case law or
serve only as attempts to impermissibly undermine the
credibility determination. The record therefore compels the conclusion that Dai’s testimony satisfies his
burden of proof because it meets the three requirements

25a
of the statute: it is credible, persuasive, and sets forth
sufficient facts. 8 U.S.C. § 1158(b)(1)(B)(ii).
Because Dai has established that he suffered past
persecution, he is entitled to a presumption of a wellfounded fear of future persecution. During the administrative proceedings, DHS
made no arguments concerning changed country conditions to the IJ or the BIA, and presented no documentary evidence for that purpose. “In these circumstances, to provide [DHS] with another opportunity to present evidence of changed country conditions, when it twice had the chance but failed to do so,
would be exceptionally unfair.”
Ndom v. Ashcroft, 384 F.3d 743, 756 (9th Cir. 2004)
(quoting Baballah v. Ashcroft, 367 F.3d 1067, 1078 n.11
(9th Cir. 2004)); see also Quan v. Gonzales, 428 F.3d 883,
889 (9th Cir. 2005). “In this situation, we are not required to remand for a determination of whether [Dai]
is eligible for asylum. We hold that he is eligible for
asylum. Because the decision to grant asylum is discretionary, however, we remand for a determination
of whether [Dai] should be granted asylum.” Ndom,
384 F.3d at 756 (citations omitted).
II.

Withholding of Removal

Withholding of removal is governed by the same
standards as asylum for demonstrating credibility,
sufficiency, and persuasiveness. Compare 8 U.S.C.
§ 1158(b)(1)(B)(ii), (iii), with § 1229a(c)(4)(B), (C). The
primary difference is that, in order to be eligible for
withholding, Dai must demonstrate that “it is more
likely than not that he would be subjected to persecution” based on a protected ground if removed to China,

26a
a higher standard than the well-founded fear required
for asylum. Zhang v. Ashcroft, 388 F.3d 713, 718 (9th
Cir. 2004) (quotation marks omitted). However, as
with asylum, past persecution gives rise to a presumption of a sufficient likelihood of future persecution.
Mutuku v. Holder, 600 F.3d 1210, 1213 (9th Cir. 2010);
Tamang, 598 F.3d at 1091; Mousa v. Mukasey, 530 F.3d
1025, 1030 (9th Cir. 2008); Hanna v. Keisler, 506 F.3d
933, 940 (9th Cir. 2007); 8 C.F.R. § 1208.16(b)(1)(i).
The record compels the conclusion that Dai has established past persecution for his withholding claim for
the same reasons as for his asylum claim. The government presented no evidence of changed country conditions, nor did it argue that the resulting presumption
has been rebutted or that Dai is barred from withholding of removal for any reason. We therefore remand
with instructions to grant Dai withholding of removal.
See Ndom, 384 F.3d at 756. 13
CONCLUSION

The dissent is correct that our “role in an immigration case is typically one of review, not of first view.”
Gonzales v. Thomas, 547 U.S. 183, 185 (2006) (quotation
marks omitted). It is the dissent, however, that violates this cardinal rule. We do not doubt that our dissenting colleague could have written a more persuasive
opinion on behalf of the BIA denying relief to Dai, but
that is not the role of this court. We are limited to reviewing the reasoning actually advanced by the agency
and we cannot substitute our own rationales for those it
relied on. Here, neither the IJ nor the BIA made an
Dai does not challenge the BIA’s denial of CAT relief here, so
we do not consider it.
13

27a
adverse credibility finding, no matter how much the dissent wishes that they had. 14
Dai’s petition for review is GRANTED and this case
is REMANDED to the BIA for the exercise of its statutory discretion and to grant withholding of removal.

With all respect, Judge Trott’s lengthy laments regarding the
need for the IJ and the BIA to state explicitly that they find a petitioner’s testimony not credible are wholly unwarranted. Such has
been the law for at least two decades. It is not difficult for an IJ or
the BIA to follow that rule: the agency need only include a few words
in its decision. When it fails to do so, we can only assume that the
failure is deliberate. In any event, the agency’s failure in a particular case to make a required finding would hardly warrant Judge
Trott’s extraordinary discourse regarding our circuit’s immigration
law in general. In short, the problem which so greatly disturbs
Judge Trott is of little moment. At most, he has shown that on occasion the agency has failed to do its job properly. If he’s right,
then surely it will do better in the future.
14

28a
TROTT, Circuit Judge, dissenting:
The significance of my colleagues’ opinion is not that
it remands this case to the Bureau of Immigration Appeals (“BIA”) with orders favorable to Ming Dai. In
the abstract, this result would be unremarkable. However, the serious legal consequences of their opinion as
a circuit precedent are that it (1) demolishes both the
purpose and the substance of the REAL ID Act of 2005
(“Act”) 1, (2) disregards the appropriate standard of review, and (3) perpetuates our idiosyncratic approach to
an Immigration Judge’s (“IJ”) determination that the
testimony of an asylum seeker lacks sufficient credibility or persuasiveness to prove his case. The majority’s
opinion accomplishes these untoward results by contaminating the issue before us with irrelevancies, the most
pernicious of which is a meritless irrebuttable presumption of credibility. The sole issue should be whether
Dai’s unedited presentation compels the conclusion that
he carried his burden of proving he is a refugee and thus
eligible for a discretionary grant of asylum. Only if we
can conclude that no reasonable factfinder could fail to
find his evidence conclusive can we grant his petition.
The IJ’s decision not to make an explicit adverse
credibility finding is a classic red herring that throws
our analysis off the scent and preordains a result that is
incompatible with the evidentiary record. By omitting
from their opinion the IJ’s fact-based explanation of his
decision, the majority elides and obscures eight material
findings of fact the IJ did make, each of which is entitled
to substantial deference. The majority’s artificial assertion that “there is no finding to which we can defer”
1

Pub. L. No. 109-13, 119 Stat. 231.

29a
is false. For this reason, I quote in full the IJ’s findings
and conclusions about the persuasiveness of Dai’s presentation in Part IV of my dissent. The eight findings are
as follows.
First, the IJ specifically found that the information
reported by the asylum officer about his conversation
with Dai was accurate. The IJ said,
As to the contents of [the asylum officer’s notes], I
give the notes full weight, insofar as the respondent
has confirmed the contents of the questions and answers given during the course of that interview.
Furthermore, I note that in the sections in which the
respondent equivocated, stating that he was nervous
and not sure that he gave those precise answers, I
nevertheless give the Asylum Officer’s notes some
substantial weight, in that they are consistent with
the respondent’s testimony in court.
Accordingly, the IJ accepted as a fact that Dai admitted that he did not disclose the consequential truth about
his wife’s and daughter’s travels because he was nervous
about how this would be perceived by the asylum officer
in connection with his claim.
Second, the IJ accepted Dai’s admission as a fact that
he concealed the truth because he was afraid of giving
straight answers regarding his wife’s and daughter’s
trip to the United States.
Third, the IJ determined that Dai had deliberately
omitted for asylum, information that he also tried to conceal from the asylum officer.

30a
Fourth, the IJ found that Dai’s omission of his information “is consistent with his lack of forthrightness before the asylum office[r] as to his wife and daughter’s
travel with him. . . . ”
Fifth, the IJ credited Dai’s admission that when
asked by the asylum officer to “tell the real story” about
his family’s travels, Dai said he “wanted a good environment for his child, and his wife had a job, but he did not,
and that is why he stayed here [after his wife and daughter went back to China].
Sixth, the IJ found that Dai admitted he stayed here
after they returned “because he was in a bad mood and
he wanted to get a job and ‘a friend of mine is here.’”
Seventh, the IJ said “I do not find that [Dai’s] explanations for [his wife’s] return to China while he remained here are adequate.” (Emphasis added).
Finally, the IJ also credited Dai’s concessions that
his wife and daughter returned to China because “his
daughter’s education would be cheaper in China,” and
that “his wife wanted to go to take care of her father.”
When Dai’s subterfuge got to the BIA, the BIA said
in its decision that “the record reflects that [Dai] failed
to disclose to both the asylum officer and the IJ” the
true facts about his family’s travels. The BIA noted
that Dai had conceded he was not forthcoming about this
material information because he believed that the truth
about their travels “would be perceived as inconsistent
with his claims of past and feared persecution.”
The IJ’s specific factual findings in connection with
Dai’s failure to satisfy his burden of proof were not the
product of inferences drawn from circumstantial evi-

31a
dence. These findings were directly based upon revealing answers Dai admitted he gave to the asylum officer during his interview. These facts are beyond debate, and they undercut Dai’s case. To quote the BIA,
these facts were “detrimental to his claim” and “significant to his burden of proof.” Nevertheless, the majority
cavalierly brushes them aside, claiming that an immaterial presumption of credibility overrides all of them.
In this connection, I note a peculiarity in the majority’s approach to Dai’s case: Nowhere does Dai assert
that he is entitled to a conclusive presumption of credibility. His brief does not contain any mention of the
presumption argument the majority conjures up on his
behalf. The closest Dai comes to invoking the majority’s inapt postulate is with a statement that we “should”
treat as credible his testimony regarding persecution in
China. He does not take issue with the IJ’s foundational adverse factual findings, choosing instead to argue that they were not sufficient in the light of the record as a whole to support the IJ’s ultimate determination.
For example, Dai acknowledges in his brief that the
“IJ’s or BIA’s factual findings are reviewed for substantial evidence” and that the “REAL ID Act’s new standards governing adverse credibility determinations applies to applications for asylum, withholding of removal,
and CAT relief made on or after May 11, 2005.” Blue
Br. 10 (emphasis added) (quotation marks omitted).
Next, he notes that “an IJ cannot selectively examine
evidence in determining credibility, but rather must
present a reasoned analysis of the evidence as a whole
and cite specific instances in the record that form the

32a
basis of the adverse credibility finding.” Id. (emphasis added) (quotation marks omitted). Moreover, Dai
notes that “[t]o support an adverse credibility determination, inconsistencies must be considered in light of
the totality of the circumstances, and all relevant factors” adding that “trivial inconsistencies . . . should
not form the basis of an adverse credibility determination.” Id. at 10-11 (emphasis added) (quotation marks
omitted). He contends that he “has provided adequate
explanation” for his inconsistencies, i.e., the failure to
disclose his family’s travels. Id. at 14. Finally, after
attempting to pick apart the IJ’s adverse findings, Dai’s
bottom line is that “his wife’s departure from the United
States does not adversely affect his credibility at all,” an
assertion that ignores his failed coverup of it. See id.
at 16.
In summary, the majority choose to ignore a material
part of the evidentiary record even though Dai implores
us to “examine it as a whole,” as he did in his brief to the
BIA. Dai accepts that the viability of his entire presentation is on the line, but the majority ignores his concession. In this connection, the Attorney General has responded only to the claims and arguments Dai included
in his brief. The Attorney General has not been given
an opportunity to respond to the majority’s inventive
analysis, nor to the theory concocted by the majority
on Dai’s behalf. Both sides will be surprised by my colleagues’ artful opinion—Dai pleasantly, the Attorney
General not so much.
I will have more to say in Part V about our Circuit’s
misinformed treatment of the role, responsibility, and
product of an asylum officer.
For these reasons, I respectfully dissent.

33a
I
Backdrop

Over the years, our Circuit has manufactured a plethora of misguided rules regarding the credibility of political asylum seekers. I begin with this issue because the
majority’s mishandling of it infects the remainder of
their opinion with error. These result-oriented ad hoc
hurdles for the government stem from humanitarian intentions, but our court has pursued these intentions with
untenable methods that violate the institutional differences between a reviewing appellate court, on one hand,
and a trial court on the other, usurping the role of the
Department of Homeland Security (“DHS”) and the
BIA in the process. Referring to our approach to witness credibility as an “idiosyncratic analytical framework,” a previous panel of our court described this inappropriate situation as follows:
The Supreme Court has repeatedly instructed us on
the proper standard to apply when reviewing an immigration judge’s adverse credibility determination.
Time and again, however, we have promulgated rules
that tend to obscure that clear standard and to flummox immigration judges, who must contort what
should be a simple factual finding to satisfy our often
irreconcilable precedents. The result of this sly insubordination is that a panel that takes Congress at
its word and accepts that findings of fact are “conclusive unless any reasonable adjudicator would be compelled to conclude the contrary,” . . . or follows
the Supreme Court’s admonition that “[t]o reverse
the BIA finding we must find that the evidence not
only supports that conclusion, but compels it,” . . .

34a
runs a serious risk of flouting one of our eclectic, and
sometimes contradictory, opinions.
Jibril v. Gonzales, 423 F.3d 1129, 1138 (9th Cir. 2005)
(alteration in original) (citations omitted).
Many of our Circuit’s contrived rules on this subject
and my colleagues’ decision are irreconcilable with the
structural principle set forth in Federal Rule of Civil Procedure 52(a)(6) that “[f]indings of fact, whether based on
oral or other evidence, must not be set aside unless clearly
erroneous, and the reviewing court must give due regard to the trial court’s opportunity to judge the witnesses’ credibility.” Accordingly, we are expected to
apply a highly deferential standard to a trial court’s determination regarding the credibility of a witness. Anderson v. City of Bessemer City, 470 U.S. 564, 573-76
(1985). In discussing this rule, the Supreme Court said
that “[w]hen findings are based on determinations regarding the credibility of witnesses, Rule 52(a) demands
even greater deference to the trial court’s findings; for
only the trial judge can be aware of the variations in demeanor and tone of voice that bear so heavily on the listener’s understanding of and belief in what is said.” Id.
at 575. The Court added that the applicable “clearly
erroneous” standard of review “plainly does not entitle
a reviewing court to reverse the finding of a trier of fact
simply because it is convinced that it would have decided
the case differently. The reviewing court oversteps
the bounds of its duty under Rule 52(a) if it undertakes
to duplicate the role of the lower court.” Id. at 573 (emphasis added).
The Supreme Court sharpened this point about our
limited role in Gonzales v. Thomas, 547 U.S. 183 (2006)
(per curiam), vacating 409 F.3d 1177 (9th Cir. 2005) (en

35a
banc). In summarily vacating our obdurate en banc
opinion, the Court held that we had exceeded our authority and made a determination that belonged to the
BIA. 547 U.S. at 185-86. The Court agreed with the
Solicitor General that “a court’s role in an immigration
case is typically one of review, not of first view.” Id. at
185 (emphasis added) (quotation marks omitted). To
support its conclusion, the Court cited INS v. Orlando
Ventura, 537 U.S. 12 (2002): a “ ‘judicial judgment cannot be made to do service for an administrative judgment.’ ” 547 U.S. at 186 (quoting Ventura, 537 U.S. at
16). More about Ventura later.
The majority’s opinion’s use of an incongruous irrebuttable presumption of credibility to erase the IJ’s
findings of fact and the BIA’s decision and thus to make
us a court of “first view” is another example of our continuing intransigence. If, as they say, we are bound by
precedent to do it their way, then its time to change our
precedent.
II
A False Premise
A.

The majority opinion’s assertion that “we must treat
[Dai’s] testimony as credible” rests on a fallacious premise. Judge Reinhardt writes, “Properly understood,
the rebuttable presumption provision of the REAL ID
Act applies only to appeals to the BIA, not to petitions
for review in our court.” From this defective premise,
he concludes that we must ignore the IJ’s detailed analysis and findings of fact about Dai’s presentation. When
it comes to our task of reviewing the credibility of witnesses in a trial court or whether a witness’ testimony

36a
suffices to carry his burden of proof, however, there is
no material difference between an appeal and a petition
for review, none. Federal Rule of Civil Procedure 52(a)
makes no such distinction. As Anderson said, Rule
52(a) applies to a “reviewing court,” which is what we
are in this capacity. 470 U.S. at 573-74 (emphasis added);
see Thomas, 547 U.S. at 185. Neither the Court nor
Rule 52(a) differentiate between appeals and petitions
for review. Nor would such a distinction make any
sense. As Anderson and Thomas illustrate, the issue
is one of function, not of form or labels. The Act’s use
of the word “appeal” does not dictate how we must go
about our process of review. Using the standards provided by Congress, we are not in a position to weigh a
witness’s credibility or persuasiveness.
Federal Rule of Appellate Procedure 20, “Applicability of Rules to the Review or Enforcement of an Agency
Order,” illustrates the soundness of treating appeals
and petitions for review with a uniform approach. Rule
20 reads, “All provisions of these rules . . . apply to
the review or enforcement of an agency order. In
these rules, ‘appellant’ includes a petitioner or applicant, and ‘appellee’ includes a respondent.”
Moreover, and directly to the point, the Act itself
does not require an IJ to make a specific credibility finding in those precise terms. As the BIA correctly said
with respect to the Act, “[c]ontrary to the respondent’s
argument on appeal, the Immigration Judge need not
have made an explicit adverse credibility finding to nevertheless determine that the respondent did not meet
his burden of proving his asylum claim.” See discussion infra Section VI. If the IJ does not make such an
explicit finding, all the respondent is entitled to is a

37a
“rebuttable presumption of credibility on appeal.”
8 U.S.C. § 1158(b)(1)(B)(iii) (emphasis added). By attempting to restrict this language to an appeal to the
BIA, the majority opinion conveniently frees itself to apply derelict Ninth Circuit precedent to Dai’s testimony
and automatically to deem it credible. 2
Over and over the majority incant an inappropriate
and counterintuitive rule that in the absence of a formal
adverse credibility finding, “we are required [blindly] to
treat the petitioner’s testimony as credible.” The practical effect of the majority’s rule is breathtaking: The
lack of a formal adverse credibility finding becomes a
selective positive credibility finding and dooms a factbased determination by an IJ and the BIA that an applicant’s case is not sufficiently persuasive to carry his burden of proof. The majority’s bizarre cherry-picking
approach violates all the rules that control our review of
a witness’s testimony before a factfinder.
B.

But even if we were to assume for the sake of argument that the Act’s rebuttable presumption applies only
to the BIA, by what logic, reason, or principle does it
follow that we as a reviewing court are free to clothe an
applicant’s testimony with a protective presumption of
credibility? Are we free to turn a blind eye to conspicuous problems with his testimony identified by an IJ?
By the BIA? Free to brush off Rule 52(a) and the Supreme Court’s explanation of what the Rule requires?
The majority cites She v. Holder, 629 F.3d 958, 964 & n.5 (9th
Cir. 2010) in support of this ipse dixit claim. However, She’s footnote 5 says that because the “rebuttable presumption” provision
does not apply retroactively, it had no applicability in She’s case.
2

38a
A conclusive presumption of credibility has no valid
place in our task of reviewing the persuasiveness of a
witness’s testimony. Such an artifice vacuously eliminates relevant factual evidence from consideration and
violates Rule 52(a)(6). The deployment of a conclusive
presumption becomes a misguided way not only of putting a heavy thumb on one tray of the traditional scales
of justice, but also of removing relevant evidence from
the other. This approach allows us to evade our responsibilities to examine and to evaluate the entire record before an IJ, permitting us instead to disregard
facts that would otherwise discredit our final determination.
Judge Reinhardt’s opinion writes the REAL ID Act
and its reference to a rebuttable presumption of credibility out of existence. However, Congress specifically
intended the Act to govern us, the Ninth Circuit Court
of Appeals, as demonstrated in Section III of this dissent. The evidentiary record in this case devours any
such presumption.
Judge Reinhardt’s claim that a petition for review is
“a new action against the United States” is irrelevant.
No matter what he calls it, we are reviewing a decision
made by an administrative agency involving the persuasiveness of his case.
III
The REAL ID Act

Congress enacted the REAL ID Act of 2005 because
of our Circuit’s outlier precedents on this issue and our
intransigent refusal to follow the rules. The House

39a
Conference Committee Report (“House Report”) 3 explained that “the creation of a uniform standard for
credibility is needed to address a conflict . . . between the Ninth Circuit on one hand and other circuits
and the BIA.” H.R. Rep. No. 109-72 at 167. The
House Report also said that the Act “resolves conflicts
between administrative and judicial tribunals with respect to standards to be followed in assessing asylum
claims.” Id. at 162. Nevertheless, my colleagues hold
that a key part of the Act does not apply to us, only to
the BIA.
As the Act pertains to this case, it established a number of key principles, all of which the majority fails to
follow, perpetuating the conflicts Congress attempted to
resolve.
First, “[t]he burden of proof is on the applicant to establish that the applicant is a refugee. . . . ” 4
Second, “[t]he testimony of the applicant may be sufficient to sustain the applicant’s burden without corroboration, but only if the applicant satisfies the trier of fact
that the applicant’s testimony is credible, is persuasive,
and refers to specific facts sufficient to demonstrate that
the applicant is a refugee.” 5
Third,
Considering the totality of the circumstances, and all
relevant factors, a trier of fact may base a credibility

H.R. Rep. No. 109-72 (2005) (Conf. Rep.), reprinted in 2005
U.S.C.C.A.N. 240.
4
8 U.S.C. § 1158(b)(1)(B)(i).
5
8 U.S.C. § 1158(b)(1)(B)(ii) (emphasis added).
3

40a
determination on the demeanor, candor, or responsiveness of the applicant or witness, the inherent
plausibility of the applicant’s or witness’s account,
the consistency between the applicant’s or witness’s
written and oral statements (whenever made and
whether or not under oath, and considering the circumstances under which the statements were made),
the internal consistency of each such statement, the
consistency of such statements with other evidence of
record (including the reports of the Department of
State on country conditions), and any inaccuracies or
falsehoods in such statements, without regard to
whether an inconsistency, inaccuracy, or falsehood
goes to the heart of the applicant’s claim, or any other
relevant factor. There is no presumption of credibility, however, if no adverse credibility determination is explicitly made, the applicant or witness shall
have a rebuttable presumption of credibility on appeal. 6
We have attempted in a number of panel opinions after the Act to calibrate our approach to applicant credibility and persuasiveness issues, but as the majority
opinion illustrates, “old ways die hard.” Huang v.
Holder, 744 F.3d 1149 (9th Cir. 2014) captures where we
should be on this issue:
[W]e have concluded that “the REAL ID Act requires a healthy measure of deference to agency
credibility determinations.” This deference “makes
sense because IJs are in the best position to assess
demeanor and other credibility cues that we cannot
readily access on review.” “[A]n immigration judge
6

8 U.S.C. § 1158(b)(1)(B)(iii).

41a
alone is in a position to observe an alien’s tone and
demeanor, to explore inconsistencies in testimony,
and to apply workable and consistent standards in
the evaluation of testimonial evidence.” By virtue of
their expertise, IJs are “uniquely qualified to decide
whether an alien’s testimony has about it the ring of
truth.”
The need for deference is particularly strong in the
context of demeanor assessments. Such determinations will often be based on nonverbal cues, and
“[f]ew, if any, of these ephemeral indicia of credibility
can be conveyed by a paper record of the proceedings
and it would be extraordinary for a reviewing court
to substitute its second-hand impression of the petitioner’s demeanor, candor, or responsiveness for that
of the IJ.” Indeed, even before the enactment of the
REAL ID Act, we recognized the need to give “special deference to a credibility determination that is
based on demeanor,” because the important elements
of a witness’s demeanor that “may convince the observing trial judge that the witness is testifying
truthfully or falsely” are “entirely unavailable to a
reader of the transcript, such as the Board or the
Court of Appeals.” The same principles underlie
the deference we accord to the credibility determinations of juries and trial judges.
Id. at 1153-54 (alterations in original) (citations omitted). This “healthy measure of deference” should also
apply to the agency’s determination with respect to
whether an applicant has satisfied the agency’s “trier of
fact”—not us—that his evidence is persuasive, an issue
that is in the wheelhouse of a jury or a judge or an IJ
hearing a case as a factfinder.

42a
IV
The IJ’s Decision

The IJ in this case concluded that Ming Dai had not
satisfied his statutory burden of establishing that he is
a refugee pursuant to § 1158(b)(1)(B)(i). The IJ gave
as his “principle area of concern” Dai’s implausible unpersuasive testimony, another way of saying it wasn’t
credible. As Dai’s brief correctly demonstrates, there
is barely a dime’s worth of substantive difference between “credible” and “persuasive.” Here is how the IJ
explained his decision in terms of § 1158(b)(1)(B)(i) and
(ii):
I have carefully considered the respondent’s testimony and evidence and for the following reasons, I
find that the respondent has failed to meet his burden
of proving eligibility for asylum.
The principal area of concern with regard to the respondent’s testimony arose during the course of his
cross-examination. On cross-examination, the respondent was asked about various aspects of his interview with an Asylum Officer. The Department of
Homeland Security also submitted the notes of that
interview as Exhibit 5. The respondent was asked
specific questions regarding several aspects of his
testimony before the Asylum Officer. In the course
of cross-examination, the respondent was asked regarding his questions and answers as to whether his
wife and daughter travelled with him to the United
States. The respondent’s responses included the
question of whether the asylum officer had asked him
if his wife and daughter travelled anywhere other
than to Taiwan and Hong Kong. The respondent

43a
conceded that he was asked this question and that he
replied yes, they had travelled to Taiwan and Hong
Kong. The respondent was asked whether the Asylum Officer inquired whether his wife and daughter
had travelled elsewhere. The respondent then testified before the Court that he was asked this question, “but I was nervous.” In this regard, I note that
the respondent did not directly answer the question;
instead leapt directly to an explanation for what his
answer may have been, namely that he was nervous.
The respondent was then asked specifically whether
the Asylum Officer asked him if his wife had travelled
to Australia in 2007. The respondent confirmed
that he had been asked this question, and he confirmed that the answer was in the affirmative. The
respondent also confirmed that the Asylum Officer
had asked him whether she had travelled anywhere
else. He confirmed that he had been so asked.
The respondent was then asked whether he answered
“no,” that she had not travelled anywhere else. The
respondent answered that he believed so, that he had
so answered. The respondent was then asked, during the course of cross-examination, why he had not
said to the Asylum Officer that yes, she had travelled
to the United States. The respondent replied that
he had not thought of it. He stated that they did
come with him (meaning his wife and daughter) and
that he thought the Asylum Officer was asking him if
they had travelled anywhere other than the United
States. He explained that he did so because he assumed the U.S. Government had the records of their
travel to the United States. On further questioning,
the respondent eventually hesitated at some length
when asked to further explain why he did not disclose

44a
spontaneously to the Asylum Officer that his wife and
daughter had come with him.
The respondent
paused at some length and I observed that the respondent appeared nervous and at a loss for words.
However, after a fairly lengthy pause, the respondent testified that he is afraid to say that his wife and
daughter came here and why they went back. The
respondent was asked whether he told the Asylum
Officer that he was afraid to answer directly. The
respondent initially testified that he forgot and did
not remember whether he said that. He again reiterated that he was very nervous. He was then
asked the question again as to whether he told the
Asylum Officer that he was afraid to answer why his
wife and daughter had gone back. He then conceded that maybe, yes, he had answered in that fashion. The respondent was asked whether the Asylum
Officer inquired why his wife and daughter went
back, and the respondent conceded that he had been
so asked, and he further conceded that he replied because school in the United States cost a lot of money
(referring to the schooling for his daughter). The
respondent was then asked to confirm that the Asylum Officer eventually asked him to tell him the real
story as to why his family travelled to the United
States and returned to China. The respondent confirmed that he was asked this question and when
asked, whether he replied that it was because he
wanted a good environment for his child and because
his wife had a job and he did not and that that is why
he stayed here. He confirmed that he did, in fact,
say that. The respondent was further asked, during
the course of testimony in court, why his wife and

45a
daughter returned to China. In this regard, the respondent testified that they came with him, but returned to China several weeks after arrival. He testified that they did so because his father-in-law was
elderly and needed attention, and because his daughter needed to graduate school in China.
The respondent further claimed that his wife had, in
fact, suffered past persecution in the form of a forced
abortion and the respondent confirmed that he
feared his wife and daughter would suffer future persecution. In this regard, the respondent qualified
his answer by saying that his wife was now on an
IUD, apparently thereby suggesting that the risk of
persecution is reduced. However, the respondent
did concede that the risk of future persecution also
pertains to his daughter. Indeed, in this regard, the
respondent testified that this is, at least in part, why
he applied for asylum.
As to the contents of Exhibit 5, I give the notes full
weight, insofar as the respondent has confirmed the
contents of the questions and answers given during
the course of that interview. Furthermore, I note
that in the sections in which the respondent equivocated, stating that he was nervous and not sure that
he gave those precise answers, I nevertheless give the
Asylum Officer’s notes some substantial weight, in
that they are consistent with the respondent’s testimony in court. Specifically, I note that the Asylum
Officer’s notes state that the respondent ultimately
indicated that he was afraid of giving straight answers regarding his daughter and wife’s trip to the
United States and return to China. And while the
respondent did not confirm this in court, he did give

46a
a similar answer as to why he was testifying in this
regard. In other words, the respondent appears to
have stated, both before the Asylum Officer and in
court that he did not spontaneously disclose the
travel of his wife and daughter with him to the United
States and their return because he was nervous
about how this would be perceived by the Asylum Officer in connection with his claim. I further note
that the Asylum Officer’s notes are internally consistent with regard to references to earlier questions,
such as whether the respondent had stated that he
applied for a visa with anyone else. At page 2 of the
notes contained in Exhibit 5, the respondent was
asked whether he applied for his visa with anyone
else and the notes indicated that he stated that, “no,
I applied by myself.” Similarly, I note that the testimony before the Asylum Officer and the Court is
consistent with the omission in the respondent’s
Form I-589 application for asylum, of an answer to
the question of the date of the previous arrival of his
wife, if she had previously been in the United States.
See Exhibit 2, page 2, part A.II, question 23. When
asked about this omission, the respondent expressed
surprise, stating that he told the preparer about their
trip and indicated that he thought it had been filled
out. Notwithstanding the respondent’s statement
in this regard, I do observe that the omission is consistent with his lack of forthrightness before the asylum office as to his wife and daughter’s travel with
him to the United States and their subsequent return
to China shortly thereafter.
In sum, the respondent’s testimony before the Court
and his testimony regarding the Asylum Officer

47a
notes, as well as the notes themselves, clearly indicate that the respondent failed to spontaneously disclose that his wife and daughter came with him and
then returned to China. His testimony and the notes
also consistently demonstrate that the respondent
paused at length, both before the Court and before
the Asylum Officer, when asked about this topic.
His testimony and the Asylum Officer notes are also
consistent in indicating that he ultimately testified
that he was afraid to say that his wife came here and
was afraid of being asked about why she went back.
Furthermore, the respondent has conceded that he
was asked to “tell the real story” about his family’s
travel to the United States by the Asylum Officer,
and that he replied that he wanted a good environment for his child and his wife had a job, but he did
not, and that is why he stayed here.
In Loho v. Mukasey, 531 F.3d 1016, 1018-19 (9th Cir.
2008), the Ninth Circuit addressed the situation in
which an asylum applicant has found safety in the
United States and then returns to the country
claimed of persecution before eventually finding asylum in the United States. The Ninth Circuit held
that the applicant’s voluntary return to the country
of claimed persecution may be considered in assessing both credibility and whether the respondent
has a well-founded fear of persecution in that country. Here, while the respondent himself has not returned to China, his wife and daughter did. Indeed
they did so shortly after arriving in the United
States, and the respondent confirmed that they did
so because the schooling is cheaper for his daughter
in China, as well as because his father-in-law is elderly and needed to be cared for. The respondent

48a
also told the Asylum Officer that the “real story”
about whey [sic] his family returned was that his wife
had a job and he did not, and that is why he stayed
here. This is consistent with respondent’s testimony before the Court that he did not have a job at
the time he came to the United States. Furthermore, I note that the respondent’s claim of persecution is founded on the alleged forced abortion inflicted upon his wife. That is the central element of
his claim. The respondent claims that he himself
was persecuted through his resistance to that abortion. Nevertheless, the fact remains that the fundamental thrust of the respondent’s claim is that his
wife was forced to have an abortion. In this regard,
the respondent’s wife therefore clearly has an equal,
or stronger, claim to asylum than the respondent
himself, assuming the facts which he claims are true.
The respondent was asked why his wife did not stay
and apply for asylum and he replied that he did not
know they could apply for asylum at the time they
departed. The respondent was then asked why he
stayed here after they returned; he said because he
was in a bad mood and he wanted to get a job and a
friend of mine is here.
While Loho v. Mukasey applies to the applicant himself returning to China, I find that the reasoning of
the Ninth Circuit in that case is fully applicable to the
respondent’s situation in that his wife, who is the primary object of the persecution in China, freely chose
to return to China. I do not find that the respondent’s explanations for her return to China while he
remained here are adequate. The respondent has
stated that he was in a bad mood and that he had
found a job and had a friend here. The respondent

49a
has also indicated that his daughter’s education
would be cheaper in China than here, and he has also
indicated that his wife wanted to go to take care of
her father. I do not find that these reasons are sufficiently substantial so as to outweigh the concerns
raised by his wife and daughter’s free choice to return to China after having allegedly fled that country
following his wife’s and his own persecution.
In view of the for[e]going, I find that the respondent
has failed to meet his burden of proving eligibility for
asylum under Section 208(a) of the Act.
(Emphasis added).
To erase any doubts about Dai’s problematic testimony, the following is an excerpt from it.
MS. HANNETT TO MR. DAI
Q. And isn’t it also true that the [asylum] officer
asked why did they go back and you replied,
so that my daughter can go to school and in
the U.S., you have to pay a lot of money?
A. Yes, that’s what I said.
Q. Okay. And isn’t it also true that the officer
asked you, can you tell me the real story about
you and your family’s travel to the U.S., and
you replied I wanted a good environment for
my child. My wife had a job and I didn’t, and
that is why I stayed here. My wife and child
go home first.
A. I believe I said that.
* * *

50a
Q. So, once you got to the United States, why
didn’t your wife apply for asylum?
A. My wife just returned to China.
Q. Right, and my question is why didn’t she stay
here and apply for asylum?
A. At that time, we didn’t know the apply, we
didn’t know that we can apply for asylum.
Q. Well, if you didn’t know that you could apply
for asylum, why did you stay here after they
returned?
A. Because at that time, I was in a bad mood and
I couldn’t get a job, so I want to stay here for
a bit longer and another friend of mine is also
here.
The asylum officer’s interview notes discussed by the
IJ (and found to be consistent with Dai’s testimony before the IJ) read as follows:
Earlier you said your wife has only traveled to Australia, Taiwan and HK. You also said that you traveled to the US alone. Government records indicate
that your wife traveled with you to the United States.
Can you explain?
[long pause] the reason is I’m afraid to say that my
wife came here, then why did she go back.
Your wife went back?

Yes

When did she go back to China?
Why did she go back?

February

Because my child go to school

51a
Earlier you said you applied for your visa alone.
Our records indicate that your child also obtained a
visa to the US with you. Can you explain?
[long pause]
Daughter came with wife and you in January?
Yes
Can you explain?

I’m afraid

Please tell me what you are afraid of. That is what
your interview today is for. To understand your
fears?
I’m afraid you ask why my wife and daughter go
back
Why did they go back?
So that my daughter can go to school and in the
US you have to pay a lot of money.
Can you tell me the real story about you and you family’s travel to the US?
I wanted a good environment for my child. My
wife had a job and I didn’t and that is why I stayed
here. My wife and child go home first.
(Bracketed notations in original).
V
The Role of an Asylum Officer

The majority’s opinion perpetuates another acute error our Circuit has made in its effort to control the
DHS’s administrative process. In footnote 2, the majority say that if Dai concealed relevant information “it

52a
was only from the asylum officer.” Only from the asylum officer? So Dai’s admitted concealment under
oath of germane information during a critical part of the
evaluation process is of no moment?
The majority’s demotion of the role of an asylum officer represents a sub silentio application of another
faulty proposition on the books in our circuit: Singh v.
Gonzales, 403 F.3d 1081 (9th Cir. 2005).
Certain features of an asylum interview make it a potentially unreliable point of comparison to a petitioner’s testimony for purposes of a credibility determination. Barahona-Gomez v. Reno, 236 F.3d 1115
(9th Cir. 2001), explained the significant procedural
distinctions between the initial quasi-prosecutorial
“informal conferences conducted by asylum officers”
after the filing of an asylum application, and the
“quasi-judicial functions” exercised by IJs. . . .
Id. at 1087 (emphasis added).
First of all, we may not have in this case a verbatim
transcript of Dai’s testimony, but we have the asylum
officer’s notes, which the IJ explicitly found to be accurate. Moreover, when appropriately confronted under
oath with the notes, Dai admitted they correctly captured what he said. Under these circumstances, any concern that the asylum interview might be a “potentially
unreliable point of comparison” to Dai’s testimony is irrelevant. The record (thanks to Dai himself) eliminates any potential for unreliability.
Second, the pronouncement in Singh v. Gonzales that
an asylum officer’s interview in an affirmative asylum case
is “quasi-prosecutorial” in nature is flat wrong and reveals

53a
our fundamental misunderstanding of the process. 7 An
asylum officer in an affirmative asylum case does not
“prosecute” anyone during the exercise of his responsibilities, and the process is not “quasi-prosecutorial” in nature. In fact, unlike a prosecutor, an asylum officer has
the primary authority and discretion to grant asylum to
an applicant should the applicant present a convincing
case. The asylum officer’s role is essentially judicial,
not prosecutorial. We miss the mark here because we
see only those cases where an affirmative asylum applicant did not present a sufficiently credible persuasive
case to an asylum officer to prevail, and we mistakenly
conclude from that unrepresentative sample that asylum officers tend to decide against such applicants.
The true facts emerge from DHS’s June 20, 2016 report to Congress, Affirmative Asylum Application Statistics and Decisions Annual Report, covering “FY
2015 adjudications of affirmative asylum applications by
USCIS [U.S. Citizenship & Immigration Services] asylum officers for the stated period.” 8 By way of background, the Report points out that asylum officers have
a central determinative role in the process. Asylum
determinations “are made by an asylum officer after an
An affirmative asylum case differs from a defensive asylum case
involving someone already in removal proceedings. See Obtaining
Asylum in the United States, DEP’T OF HOMELAND SEC., https://
www.uscis.gov/humanitarian/refugees-asylum/asylum/obtainingasylum-united-states (last updated Oct. 19, 2015).
8
2016 DHS Congressional Appropriations Reports, DEP’T
OF HOMELAND SEC., https://www.dhs.gov/publication/2016-dhscongressional-appropriations-reports (last published Feb. 12, 2018)
(follow “United States Citizenship and Immigration Services
(USCIS)—Affirmative Asylum Application Statistics & Decisions
FY16 Report” hyperlink).
7

54a
applicant files an affirmative asylum application, is interviewed, and clears required security and background
checks.” Id. at 2.
The Report contains statistics about the activity of
asylum officers. According to the FY2015 statistics,
asylum officers completed 40,062 affirmative asylum
cases. They approved 15,999 applications for an approval rate of 47% for interviewed cases. Id. at 3.
USCIS has a Policy Manual. Chapter 1 of Volume 1
establishes its “Guiding Principles.” 9 A “Core Principal” reads as follows:
The performance of agency duties inevitably means
that some customers will be disappointed if their cases
are denied. Good customer service means that everyone USCIS affects will be treated with dignity and
courtesy regardless of the outcome of the decision.
* * *
USCIS will approach each case objectively and adjudicate each case in a thorough and fair manner.
USCIS will carefully administer every aspect of its
immigration mission so that its customers can hold in
high regard the privileges and advantages of U.S. immigration.
Id.
Finally, we look at the training given to asylum officers in connection with their interviews of affirmative
asylum applicants. In USCIS’s Adjudicator’s Field
Policy Manual, U.S. CITIZENSHIP & IMMIGRATION SERVS.,
https://www.uscis.gov/policymanual/HTML/PolicyManual-Volume1PartA-Chapter1.html (Aug. 23, 2017).
9

55a
Manual, we find in Appendix 15-2, “Non-Adversarial Interview Techniques,” the following guidance. 10
I.

OVERVIEW

An immigration officer will conduct an interview for
each applicant, petitioner or beneficiary where required by law or regulation, or if it is determined that
such interviewed [sic] is appropriate. The interview
will be conducted in a non-adversarial manner, separate and apart from the general public. The officer
must always keep in mind his or her responsibility to
uphold the integrity of the adjudication process. As
representatives of the United States Government, officers must conduct the interview in a professional
manner.
* * *
Due to the potential consequences of incorrect determinations, it is incumbent upon officers to conduct organized, focused, and wellplanned, non-adversarial
interviews. . . .
* * *

Adjudicator’s Field Manual - Redacted Public Version, U.S.
CITIZENSHIP & IMMIGRATION SERVS., https://www.uscis.gov/ilink/
docView/AFM/HTML/AFM/0-0-0-1.html (follow “Appendices” hyperlink; then follow “15-2 Non-Adversarial Interview Techniques”
hyperlink) (last visited Feb. 15, 2018) (emphasis added).
10

56a
III. NON-ADVERSARIAL NATURE OF THE INTERVIEW
A.

Concept of the Non-adversarial Interview

A non-adversarial proceeding is one in which the parties are not in opposition to each other. This is in
contrast to adversarial proceedings, such as civil and
criminal court proceedings, where two sides oppose
each other by advocating their mutually exclusive positions before a neutral arbiter until one side prevails
and the other side loses. A removal proceeding before an immigration judge is an example of an adversarial proceeding, where the Service trial attorney is seeking to remove a person from the United
States, while the alien is seeking to remain.
The interview is part of a non-adversarial proceeding. The principal intent of the Service is not to oppose the interviewee’s goal of obtaining a benefit, but
to determine whether he or she qualifies for such
benefit. If the interviewee qualifies for the benefit,
it is in the Service’s interest to accommodate that
goal.
* * *
B. Points to Keep in Mind When Conducting a Nonadversarial Interview

The officer’s role in the non-adversarial interview is
to ask questions formulated to elicit and clarify the
information needed to make a determination on the
petitioner or applicant’s request. This questioning
must be done in a professional manner that is nonthreatening and non-accusatory.

57a
1.

The officer must:

a. Treat the interviewee with respect. Even if
someone is not eligible for the benefit sought based
on the facts of the claim, the officer must treat him or
her with respect. The officer may hear similar claims
from many interviewees, but must not show impatience towards any individual. Even the most nonconfrontational officer may begin to feel annoyance
or frustration if he or she believes that the interviewee is lying; however, it is important that the officer keep these emotions from being expressed during the interview.
b. Be non-judgmental and non-moralistic. Interviewees may have reacted to situations differently
than the officer might have reacted. The interviewee may have left family members behind to fend
for themselves, or may be a member of a group or
organization for which the officer has little respect.
Although officers may feel personally offended by
some interviewee’s actions or beliefs, officers must
set their personal feelings aside in their work, and
avoid passing moral judgments in order to make neutral determinations.
c. Create an atmosphere in which the interviewee can freely express his or her claim. The officer must make an attempt to put the interviewee at
ease at the beginning of the interview and continue to
do so throughout the interview. If the interviewee
is a survivor of severe trauma (such as a battered
spouse), he or she may feel especially threatened during the interview. As it is not always easy to determine who is a survivor, officers should be sensitive to

58a
the fact that every interviewee is potentially a survivor of trauma.
Treating the interviewee with respect and being
non-judgmental and non-moralistic can help put him
or her at ease. There are a number of other ways an
officer can help put an interviewee at ease, such as:
•

Greet him or her (and others) pleasantly;

• Introduce himself or herself by name and explain the officer’s role;
• Explain the process of the interview to the interviewee so he or she will know what to expect
during the interview;
• Avoid speech that appears to be evaluative or
that indicates that the officer thinks he or she
knows the answer to the question;
•

Be patient with the interviewee; and

•

Keep language as simple as possible.

d. Treat each interviewee as an individual. Although
many claims may be similar, each claim must be
treated on a case-by-case basis and each interviewee
must be treated as an individual. Officers must be
open to each interviewee as a potential approval.
e. Set aside personal biases. Everyone has individual preferences, biases, and prejudices formed
during life experiences that may cause them to view
others either positively or negatively. Officers should
be aware of their personal biases and recognize that
they can potentially interfere with the interview process. Officers must strive to prevent such biases

59a
from interfering with their ability to conduct interviews in a non-adversarial and neutral manner.
f. Probe into all material elements of the interviewee’s claim. The officer must elicit all relevant
and useful information bearing on the applicant or
beneficiary’s eligibility. The officer must ask questions to expand upon and clarify the interviewee’s
statements and information contained on the form.
The response to one question may lead to additional
questions about a particular topic or event that is material to the claim.
g. Provide the interviewee an opportunity to clarify
inconsistencies. The officer must provide the interviewee with an opportunity during the interview to
explain any discrepancy or inconsistency that is material to the determination of eligibility. He or she
may have a legitimate reason for having related testimony that outwardly appears to contain an inconsistency, or there may have been a misunderstanding
between the officer and the interviewee. Similarly,
there may be a legitimate explanation for a discrepancy or inconsistency between information on the
form and the interviewee’s testimony.
On the other hand, the interviewee may be fabricating a claim. If the officer believes that an interviewee is fabricating a claim, he or she must be able
to clearly articulate why he or she believes that the
interviewee is not credible.
h. Maintain a neutral tone throughout the interview.
Interviews can be frustrating at times for the officer.
The interviewee may be long-winded, may discuss is-

60a
sues that are not relevant to the claim, may be confused by the questioning, may appear to be or may be
fabricating a claim, etc. It is important that the officer maintain a neutral tone even when frustrated.
2. The officer must not:
• Argue in opposition to the applicant or petitioner’s claim (if the officer engages in argument, he
or she has lost control of the interview);
• Question the applicant in a hostile or abusive
manner;
• Take sides in the applicant or petitioner’s claim;
interviewee; or
• Attempt to be overly friendly with the interviewee; or
• Allow personal biases to influence him or her during the interview, either in favor of or against the interviewee.
I hope that by exposing the particulars of the affirmative application process we will cease demeaning unspecified “certain features” of the applicant’s interview,
and that we will correct our uninformed characterization
of it as “quasi-prosecutorial.”
While under oath, Dai intentionally concealed material information from the asylum officer during a critical
aspect of the process. To diminish the import of this
potential crime 11 because the government official was
“only” an asylum officer is a serious mistake.
18 U.S.C. § 1001 makes it a crime knowingly and willfully to
make a material false statement in any matter within the jurisdiction
of the executive branch of Government.
11

61a
VI
The BIA’s Decision

Dai unsuccessfully appealed the IJ’s decision denying his application for asylum, withholding of removal,
and protection under the Convention Against Torture.
The BIA’s decision follows.
We review for clear error the findings of fact, including determinations of credibility, made by the Immigration Judge. We review de novo all other issues,
including whether the parties have met the relevant
burden of proof, and issues of discretion. The respondent filed his application for asylum after May
11, 2005, and thus review is governed by the REAL
ID Act of 2005.
We adopt and affirm the Immigration Judge’s decision in this case. The Immigration Judge correctly
denied the respondent’s applications for failure to
meet his burden of proof. The record reflects that
the respondent failed to disclose to both the [DHS]
asylum officer and the Immigration Judge that his
wife and daughter had traveled with him to the
United States and voluntarily returned to China
shortly after. The respondent further conceded that
he was not forthcoming about this information
because he believed that the true reasons for their
return—that his wife had a job in China and needed
to care for her elderly father, and that their daughter
could attend school in China for less money than in
the United States—would be perceived as inconsistent with his claims of past and feared future persecution.

62a
The Immigration Judge correctly decided that the
voluntary return of the respondent’s wife and daughter to China, after allegedly fleeing following the persecution of the respondent and his wife, prevents the
respondent from meeting his burden of proving his
asylum claim. Contrary to the respondent’s argument on appeal, the Immigration Judge need not
have made an explicit adverse credibility finding to
nevertheless determine that the respondent did not
meet his burden of proving his asylum claim. The
respondent’s family voluntarily returning and his not
being truthful about it is detrimental to his claim
and is significant to his burden of proof.
(Emphasis added) (footnote and citations omitted).
VII
The IJ Becomes a Potted Plant

My colleagues’ opinion boils down to this faulty proposition: Simply because the IJ did not say “I find Dai
not credible” but opted instead to expose the glaring factual deficiencies in Dai’s presentation and to explain in
specific detail and at length why Dai had not persuasively carried his burden of proving his case, my colleagues disregard the IJ’s decision altogether and claim
we must selectively embrace as persuasive Dai’s problematic presentation regarding the core of his claim. 12
Out of the blue, unpersuasive becomes persuasive. I
invite the reader to review once again the IJ’s decision
and to decide on the merits whether Dai’s case is persuasive. It is anything but.

And if an IJ does make an adverse credibility finding, we have
manufactured a multitude of ways to disregard it.
12

63a
My colleagues brush off the conspicuous blatant
flaws in Dai’s performance involving demeanor, candor,
and responsiveness, claiming that “taking into account
the record as a whole, nothing undermines the persuasiveness of Dai’s credible testimony. . . . ” Nothing? They disregard inaccuracies, inconsistencies, and
implausibilities in his story, and his barefaced attempt
to cover up the truth about his wife’s and daughter’s
travels and situation. They even sweep aside Dai’s admission to the asylum officer that the “real story” is that
(1) he wanted a good environment for his child, (2) his
wife left him behind because she had a job in China and
he did not, and (3) he was in a “bad mood,” couldn’t get
a job, and wanted to stay here “for a bit longer.” In
their opinion, there is not a single word regarding the
factors cited by the IJ to explain his observations, findings, and decision, including the fact that Dai’s wife, allegedly the initial subject of persecution in China, made
a free choice to return. The effect of the presumption
is to wipe the record clean of everything identified by
the IJ and the BIA as problematic.
The glaring irony in my colleagues’ analysis is that
once they proclaim that Dai’s testimony is credible, they
pick and choose only those parts of his favorable testimony that support his case—not the parts that undercut
it. If we must accept Dai’s presentation as credible,
then why not also his “real story” when confronted with
the facts that he came to the United States because he
wanted a good environment for his daughter, and that
he did not return to China with his wife because she had
a job and he did not? What becomes of his attempted
cover up of the travels of his wife and daughter?

64a
Furthermore, my colleagues’ backhanded treatment
of the IJ’s opinion is irreconcilable with the BIA’s wholesale acceptance of it. In words as clear as the English
language can be, the BIA said, “We adopt and affirm the
Immigration Judge’s decision.” To compound their error, the majority then seizes upon and pick apart the
BIA’s summary explanation of why it concluded on de
novo review that the IJ’s decision was correct. What
the BIA did say was that Dai’s failure to be truthful
about his family’s voluntary return to China was “detrimental to his claim” and “significant to his burden of
proof.”
VIII
Analysis

And so we come at last to the statutory requirement
of persuasiveness, an issue uniquely suited to be determined by the “trier of fact,” as the Act and 8 U.S.C.
§ 1158(b)(1)(B)(ii) dictate. The majority opinion rigs
this inquiry by freighting it with an incomplete record.
The opinion inappropriately sweeps demeanor, candor,
and plausibility considerations—as well as the IJ’s extensive findings of fact—off the board as though this
were a parlor game. Once again, the opinion ignores
Huang, a post-Act case.
The need for deference is particularly strong in the
context of demeanor assessments. Such determinations will often be based on nonverbal cues, and “[f]ew,
if any, of these ephemeral indicia of credibility can be
conveyed by a paper record of the proceedings and it
would be extraordinary for a reviewing court to substitute its second-hand impression of the petitioner’s

65a
demeanor, candor, or responsiveness for that of the
IJ.”
744 F.3d at 1153 (alteration in original) (quoting Jibril,
423 F.3d at 1137).
Here, the IJ determined that Dai’s testimony was not
persuasive based on demeanor, non-verbal cues, and
other germane material factors that went to the heart of
his case. The IJ explained his decision in exquisite detail, and our approach and analysis should be simple.
In order to reverse the BIA’s conclusion that Dai did not
carry his burden of proof, “we must determine ‘that the
evidence not only supports [a contrary] conclusion, but
compels it—and also compels the further conclusion’
that the petitioner meets the requisite standard for obtaining relief.” Garcia-Milian v. Holder, 755 F.3d
1026, 1031 (9th Cir. 2014) (alteration in original) (quoting INS v. Elias-Zacarias, 502 U.S. 478, 481 n.1 (1992)).
If anything, this record compels the conclusion that the
IJ and the BIA were correct, not mistaken. Are my colleagues seriously going to hold that an IJ cannot take
universally accepted demeanor, candor, responsiveness,
plausibility, and forthrightness factors into consideration in assessing persuasiveness, as the IJ did here?
And that this detailed record, which is full of Dai’s admissions of an attempted coverup, compels the conclusion that Dai was so persuasive as to carry his burden?
Dai accurately understood the damaging implications of
his wife’s return to China. So did the IJ and the BIA.
So would anybody not willfully blinded by an inappropriate conclusive presumption. As the BIA stated, the
truth is “inconsistent with his claims of past and feared
future persecution.”

66a
IX
The More Things Change, The More
They Stay The Same

In Elias-Zacarias, 921 F.2d 844 (9th Cir. 1990), rev’d,
502 U.S. 478 (1992), our court substituted the panel’s interpretation of the evidence for the BIA’s. The Supreme Court reversed our decision, calling the first of
the panel’s two-part reasoning “untrue,” and the second
“irrelevant.” 502 U.S. at 481. The Court warned us
that we could not reverse the BIA unless the asylum applicant demonstrates that “the evidence he presented
was so compelling that no reasonable factfinder could
fail to find the requisite fear of persecution.” Id. at
483-84 (emphasis added). In our case, we again fail to
follow this instruction.
In INS v. Orlando Ventura, 537 U.S. 12, 13 (2002)
(per curiam), the Court noted that both sides, petitioner
and respondent, had asked us to remand the case to the
BIA so that it might determine in the first instance
whether changed conditions in Guatemala eliminated
any realistic threat of persecution of the petitioner.
Our panel did not remand the case, evaluating instead
the government’s claim of changed conditions by itself
and deciding the issue in favor of the petitioner. Id. at
13-14. The Supreme Court summarily reversed our decision, saying “[T]he Court of Appeals committed clear
error here. It seriously disregarded the agency’s legally mandated role.” Id. at 17.
Did we learn our lesson? Hardly. A mere two years
after Ventura’s per curiam opinion, we knowingly made
the same mistake in Thomas v. Gonzales, 409 F.3d 1177
(9th Cir. 2005) (en banc), vacated, 547 U.S. 183 (2006).

67a
We disregarded four dissenters to that flawed opinion,
who argued in vain that our court’s decision was irreconcilable with Ventura. In short order, the Supreme
Court vacated our en banc opinion, saying that our “error is obvious in light of Ventura, itself a summary reversal” and that the same remedy was once again appropriate. 547 U.S. at 185.
With all respect, the majority opinion follows in our
stubborn tradition of seizing authority that does not belong to us, disregarding DHS’s statutorily mandated
role. Even the REAL ID Act has failed to correct our
errors.
Thus, I dissent.

68a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 15-70776
Agency No. A205-555-836
MING DAI, PETITIONER
v.
WILLIAM BARR, ATTORNEY GENERAL, RESPONDENT
Submitted: Oct. 13, 2017 *
San Francisco, California
Filed: Mar. 8, 2018
Amended: Feb. 22, 2019
On Petition for Review of an Order
of the Board of Immigration Appeals
ORDER AND AMENDED DISSENT

Before: SIDNEY R. THOMAS, Chief Judge, and STE**
PHEN S. TROTT and MARY H. MURGUIA , Circuit Judges.
The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App. P. 34(a)(2).
**
Prior to his death, Judge Reinhardt fully participated in this case
and authorized the majority opinion. Following Judge Reinhardt’s
death, Judge Murguia was drawn by lot to replace him. Ninth Circuit General Order 3.2h. Judge Murguia has reviewed all case materials.
*

69a
ORDER

The dissent filed March 8, 2018, is amended, with the
following amended dissent to be substituted in lieu of
the original. The petitions for rehearing and rehearing
en banc remain pending, and no further action is required of the parties until further order of the court.
TROTT, Circuit Judge, dissenting:
The serious legal consequences of my colleagues’
opinion are that it (1) disregards both the purpose and
the substance of the REAL ID Act of 2005 (“Act”) 1, (2)
ignores the appropriate standard of review, and (3) perpetuates our idiosyncratic approach to an Immigration
Judge’s (“IJ”) determination that the testimony of an
asylum seeker lacks sufficient credibility or persuasiveness to prove his case.
The majority’s opinion accomplishes these results by
contaminating the issue before us with irrelevancies, the
most troublesome of which is a meritless irrebuttable
presumption of credibility. The sole issue should be
whether Dai’s unedited presentation compels the conclusion that he carried his burden of proving he is a refugee and thus eligible for a discretionary grant of asylum. Only if we can conclude that no reasonable factfinder could fail to find his evidence conclusive can we
grant his petition.
The IJ’s decision not to make an explicit adverse
credibility finding is a red herring that throws our analysis off the scent and preordains a result that is incompatible with the evidentiary record. By omitting from

1

Pub. L. No. 109-13, 119 Stat. 231.

70a
their opinion the IJ’s fact-based explanation of his decision, the majority elides eight material findings of fact
the IJ did make, each of which is entitled to substantial
deference. The majority’s assertion that “there is no
finding to which we can defer” is false. For this reason,
I quote in full the IJ’s findings and conclusions about the
persuasiveness of Dai’s presentation in Part IV of my
dissent. The eight findings are as follows.
First, the IJ specifically found that the information
reported by the asylum officer about his conversation
with Dai was accurate. The IJ said,
As to the contents of [the asylum officer’s notes], I
give the notes full weight, insofar as the respondent
has confirmed the contents of the questions and answers given during the course of that interview.
Furthermore, I note that in the sections in which the
respondent equivocated, stating that he was nervous
and not sure that he gave those precise answers, I
nevertheless give the Asylum Officer’s notes some
substantial weight, in that they are consistent with
the respondent’s testimony in court.
Accordingly, the IJ accepted as a fact that Dai admitted that he did not disclose the consequential truth
about his wife’s and daughter’s travels because he was
nervous about how this would be perceived by the asylum officer in connection with his claim.
Second, the IJ accepted Dai’s admission as a fact that
he concealed the truth because he was afraid of giving
straight answers regarding his wife’s and daughter’s
trip to the United States.
Third, the IJ determined that Dai had deliberately
omitted highly relevant information from his Form

71a
I-589 application for asylum, information that he also
tried to conceal from the asylum officer.
Fourth, the IJ found that Dai’s omission of his information “is consistent with his lack of forthrightness before the asylum office[r] as to his wife and daughter’s
travel with him. . . . ”
Fifth, the IJ credited Dai’s admission that when
asked by the asylum officer to “tell the real story” about
his family’s travels, Dai said he “wanted a good environment for his child, and his wife had a job, but he did not,
and that is why he stayed here [after his wife and daughter went back to China].
Sixth, the IJ found that Dai admitted he stayed here
after they returned “because he was in a bad mood and
he wanted to get a job and ‘a friend of mine is here.’ ”
Seventh, the IJ said “I do not find that [Dai’s] explanations for [his wife’s] return to China while he remained here are adequate.” (Emphasis added).
Finally, the IJ also credited Dai’s concessions that
his wife and daughter returned to China because “his
daughter’s education would be cheaper in China,” and
that “his wife wanted to go to take care of her father.”
When Dai’s subterfuge got to the BIA, the BIA said
in its decision that “the record reflects that [Dai] failed
to disclose to both the asylum officer and the IJ” the
true facts about his family’s travels. The BIA noted
that Dai had conceded he was not forthcoming about
this material information because he believed that the
truth about their travels “would be perceived as inconsistent with his claims of past and feared persecution.”

72a
The IJ’s specific factual findings in connection with
Dai’s failure to satisfy his burden of proof were not the
product of inferences drawn from circumstantial evidence. These findings were directly based upon revealing answers Dai admitted he gave to the asylum officer during his interview. These facts are beyond debate, and they undercut Dai’s case. To quote the BIA,
these facts were “detrimental to his claim” and “significant to his burden of proof.” Nevertheless, the majority brushes them aside, claiming that an immaterial presumption of credibility overrides all of them.
In this connection, I note a peculiarity in the majority’s approach to Dai’s case: Nowhere does Dai assert
that he is entitled to a conclusive presumption of credibility. His brief does not contain any mention of the
presumption argument the majority conjures up on his
behalf. The closest Dai comes to invoking the majority’s inapt postulate is with a statement that we “should”
treat as credible his testimony regarding persecution in
China. He does not take issue with the IJ’s foundational adverse factual findings, choosing instead to argue that they were not sufficient in the light of the record as a whole to support the IJ’s ultimate determination.
For example, Dai acknowledges in his brief that the
“IJ’s or BIA’s factual findings are reviewed for substantial evidence” and that the “REAL ID Act’s new standards governing adverse credibility determinations applies to applications for asylum, withholding of removal,
and CAT relief made on or after May 11, 2005.” Blue Br.
10 (emphasis added) (quotation marks omitted). Next,
he notes that “an IJ cannot selectively examine evidence
in determining credibility, but rather must present a

73a
reasoned analysis of the evidence as a whole and cite
specific instances in the record that form the basis of the
adverse credibility finding.” Id. (emphasis added)
(quotation marks omitted). Moreover, Dai notes that
“[t]o support an adverse credibility determination, inconsistencies must be considered in light of the totality
of the circumstances, and all relevant factors” adding
that “trivial inconsistencies . . . should not form the
basis of an adverse credibility determination.” Id. at
10-11 (emphasis added) (quotation marks omitted).
He contends that he “has provided adequate explanation” for his inconsistencies, i.e., the failure to disclose
his family’s travels. Id. at 14. Finally, after attempting to pick apart the IJ’s adverse findings, Dai’s bottom
line is that “his wife’s departure from the United States
does not adversely affect his credibility at all,” an assertion that ignores his failed coverup of it. See id. at 16.
In summary, the majority blue pencils a material part
of the evidentiary record even though Dai implores us to
“examine it as a whole,” as he did in his brief to the BIA.
Dai accepts that the viability of his entire presentation is
on the line, but the majority ignores his concession. In
this connection, the Attorney General has responded only
to the claims and arguments Dai included in his brief.
The Attorney General has not been given an opportunity
to respond to the majority’s inventive analysis, nor to the
theory concocted by the majority on Dai’s behalf. Both
sides will be surprised by my colleagues’ artful opinion—
Dai pleasantly, the Attorney General not so much.
I will have more to say in Part V about our Circuit’s
treatment of the role, responsibility, and product of an
asylum officer.
For these reasons, I respectfully dissent.

74a
I
Backdrop

Over the years, our Circuit has manufactured misguided rules regarding the credibility of political asylum seekers. I begin with this issue because the majority’s mishandling of it infects the remainder of their
opinion with error. These result-oriented ad hoc hurdles for the government stem from humanitarian intentions, but our court has pursued these intentions with
methods that violate the institutional differences between a reviewing appellate court, on one hand, and a
trial court on the other, usurping the role of the Department of Homeland Security (“DHS”) and the BIA in the
process. Referring to our approach to witness credibility as an “idiosyncratic analytical framework,” a previous panel of our court described this inappropriate situation as follows:
The Supreme Court has repeatedly instructed us on
the proper standard to apply when reviewing an immigration judge’s adverse credibility determination.
Time and again, however, we have promulgated rules
that tend to obscure that clear standard and to flummox immigration judges, who must contort what
should be a simple factual finding to satisfy our often
irreconcilable precedents. The result of this sly insubordination is that a panel that takes Congress at
its word and accepts that findings of fact are “conclusive unless any reasonable adjudicator would be
compelled to conclude the contrary,” . . . or follows the Supreme Court’s admonition that “[t]o reverse the BIA finding we must find that the evidence
not only supports that conclusion, but compels it,”

75a
. . . runs a serious risk of flouting one of our eclectic, and sometimes contradictory, opinions.
Jibril v. Gonzales, 423 F.3d 1129, 1138 (9th Cir. 2005)
(alteration in original) (citations omitted).
Many of our Circuit’s rules on this subject and my
colleagues’ decision are irreconcilable with the structural principle set forth in Federal Rule of Civil Procedure 52(a)(6) that “[f]indings of fact, whether based on
oral or other evidence, must not be set aside unless
clearly erroneous, and the reviewing court must give
due regard to the trial court’s opportunity to judge the
witnesses’ credibility.” Accordingly, we are expected
to apply a highly deferential standard to a trial court’s
determination regarding the credibility of a witness.
Anderson v. City of Bessemer City, 470 U.S. 564, 573-76
(1985). In discussing this rule, the Supreme Court
said that “[w]hen findings are based on determinations
regarding the credibility of witnesses, Rule 52(a) demands even greater deference to the trial court’s findings; for only the trial judge can be aware of the variations in demeanor and tone of voice that bear so heavily
on the listener’s understanding of and belief in what is
said.” Id. at 575. The Court added that the applicable “clearly erroneous” standard of review “plainly does
not entitle a reviewing court to reverse the finding of a
trier of fact simply because it is convinced that it would
have decided the case differently. The reviewing court
oversteps the bounds of its duty under Rule 52(a) if it
undertakes to duplicate the role of the lower court.”
Id. at 573 (emphasis added).
The Supreme Court sharpened this point about our
limited role in Gonzales v. Thomas, 547 U.S. 183 (2006)
(per curiam), vacating 409 F.3d 1177 (9th Cir. 2005)

76a
(en banc). In summarily vacating our en banc opinion,
the Court held that we had exceeded our authority
and made a determination that belonged to the BIA.
547 U.S. at 185-86. The Court agreed with the Solicitor General that “a court’s role in an immigration case
is typically one of review, not of first view.” Id. at 185
(emphasis added) (quotation marks omitted). To support its conclusion, the Court cited INS v. Orlando Ventura, 537 U.S. 12 (2002): a “ ‘judicial judgment cannot
be made to do service for an administrative judgment.’ ”
547 U.S. at 186 (quoting Ventura, 537 U.S. at 16).
More about Ventura later.
The majority’s opinion’s use of an incongruous irrebuttable presumption of credibility to erase the IJ’s
findings of fact and the BIA’s decision and thus to make
us a court of “first view” is another example of our intransigence. If, as they say, we are bound by precedent to do it their way, then its time to change our precedent.
II
A False Premise

The majority opinion’s assertion that “we must treat
[Dai’s] testimony as credible” rests on a fallacious
premise. Judge Reinhardt writes, “Properly understood, the rebuttable presumption provision of the
REAL ID Act applies only to appeals to the BIA, not to
petitions for review in our court.” From this inapt
premise, he concludes that we must ignore the IJ’s detailed analysis and findings of fact about Dai’s presentation. When it comes to our task of reviewing the
credibility of witnesses in a trial court or whether a witness’ testimony suffices to carry his burden of proof,

77a
however, there is no material difference between an appeal and a petition for review, none. Federal Rule of
Civil Procedure 52(a) makes no such distinction. As
Anderson said, Rule 52(a) applies to a “reviewing
court,” which is what we are in this capacity. 470 U.S.
at 573-74 (emphasis added); see Thomas, 547 U.S. at
185. Neither the Court nor Rule 52(a) differentiate between appeals and petitions for review. Nor would
such a distinction make any sense. As Anderson and
Thomas illustrate, the issue is one of function, not of
form or labels. The Act’s use of the word “appeal”
does not dictate how we must go about our process of
review. Using the standards provided by Congress,
we are not in a position to weigh a witness’s credibility
or persuasiveness.
Federal Rule of Appellate Procedure 20, “Applicability of Rules to the Review or Enforcement of an Agency
Order,” illustrates the soundness of treating appeals
and petitions for review with a uniform approach.
Rule 20 reads, “All provisions of these rules . . . apply to the review or enforcement of an agency order.
In these rules, ‘appellant’ includes a petitioner or applicant, and ‘appellee’ includes a respondent.”
Moreover, and directly to the point, the Act itself
does not require an IJ to make a specific credibility finding in those precise terms. As the BIA correctly said
with respect to the Act, “[c]ontrary to the respondent’s
argument on appeal, the Immigration Judge need not
have made an explicit adverse credibility finding to nevertheless determine that the respondent did not meet
his burden of proving his asylum claim.” See discussion infra Section VI. If the IJ does not make such an
explicit finding, all the respondent is entitled to is a

78a
“rebuttable presumption of credibility on appeal.”
8 U.S.C. § 1158(b)(1)(B)(iii) (emphasis added). By attempting to restrict this language to an appeal to the
BIA, the majority opinion frees itself to apply derelict
Ninth Circuit precedent to Dai’s testimony and automatically to deem it credible. 2
My colleagues claim that in the absence of a formal
adverse credibility finding, “we are required to treat the
petitioner’s testimony as credible.” The practical effect of the majority’s rule is breathtaking: The lack of
a formal adverse credibility finding becomes a selective
positive credibility finding and dooms a fact-based determination by an IJ and the BIA that an applicant’s
case is not sufficiently persuasive to carry his burden of
proof. The majority’s approach violates all the rules
that control our review of a witness’s testimony before
a factfinder.
A conclusive presumption of credibility has no valid
place in our task of reviewing the persuasiveness of a
witness’s testimony. Such an artifice eliminates relevant factual evidence from consideration and violates
Rule 52(a)(6). The deployment of a conclusive presumption becomes a misguided way not only of putting
a heavy thumb on one tray of the traditional scales of
justice, but also of removing relevant evidence from the
other. This approach allows us to evade our responsibilities to examine and to evaluate the entire record before an IJ, permitting us instead to disregard facts that
would otherwise discredit our final determination.
The majority cites She v. Holder, 629 F.3d 958, 964 & n.5 (9th
Cir. 2010) in support of this ipse dixit claim. However, She’s footnote 5 says that because the “rebuttable presumption” provision
does not apply retroactively, it had no applicability in She’s case.
2

79a
The evidentiary record in this case devours any such
presumption. Judge Reinhardt’s opinion writes the
REAL ID Act and its reference to a rebuttable presumption of credibility out of existence, even though
Congress specifically intended the Act to govern us, the
Ninth Circuit Court of Appeals.
Although the case focuses on corroboration of an
applicant’s testimony, our opinion in Aden v. Holder,
589 F.3d 1040 (9th Cir. 2009) correctly explained the effect of the REAL ID Act on our pre-Act jurisprudence.
We have a line of circuit authority for the proposition
that corroboration cannot be required from an applicant who testifies credibly.
In Ladha v. INS,
[215 F.3d 889, 901 (9th Cir. 2000)] we ‘reaffirmed that
an alien’s testimony, if unrefuted and credible, direct
and specific, is sufficient to establish the facts testified without the need for any corroboration.’ Kataria v. INS [232 F.3d 1107, 1113 (9th Cir. 2000)] relied on Ladha in stating that ‘the BIA may not require independent corroborative evidence from an
asylum applicant who testifies credibly in support of
his application.’ Kataria stated that ‘we must accept an applicant’s testimony as true in the absence
of an explicit adverse credibility finding.’ . . .
Congress abrogated these holdings in the REAL ID
Act of 2005. . . .
The statute additionally restricts the effect of apparently credible testimony by specifying that the IJ
need not accept such testimony as true. . . .
Congress has thus swept away our doctrine that
‘when an alien credibly testifies to certain facts,
those facts are deemed true.’

80a
Aden, 589 F.3d at 1044-45.
section.

More on the Act in the next
III

The REAL ID Act

Congress enacted the REAL ID Act of 2005 because
of our Circuit’s outlier precedents on this issue and our
refusal to follow the rules. The House Conference
Committee Report (“House Report”) 3 explained that
“the creation of a uniform standard for credibility is
needed to address a conflict . . . between the Ninth
Circuit on one hand and other circuits and the BIA.”
H.R. Rep. No. 109-72 at 167. The House Report also
said that the Act “resolves conflicts between administrative and judicial tribunals with respect to standards
to be followed in assessing asylum claims.” Id. at 162.
Nevertheless, my colleagues hold that a key part of the
Act does not apply to us, only to the BIA.
As the Act pertains to this case, it established a number of key principles, all of which the majority fails to
follow, perpetuating the conflicts Congress attempted
to resolve.
First, “[t]he burden of proof is on the applicant to establish that the applicant is a refugee. . . . ” 4
Second, “[t]he testimony of the applicant may be sufficient to sustain the applicant’s burden without corroboration, but only if the applicant satisfies the trier of fact
that the applicant’s testimony is credible, is persuasive,

3
H.R. Rep. No. 109-72 (2005) (Conf. Rep.), reprinted in 2005
U.S.C.C.A.N. 240.
4
8 U.S.C. § 1158(b)(1)(B)(i).

81a
and refers to specific facts sufficient to demonstrate
that the applicant is a refugee.” 5
Third,
Considering the totality of the circumstances, and all
relevant factors, a trier of fact may base a credibility
determination on the demeanor, candor, or responsiveness of the applicant or witness, the inherent
plausibility of the applicant’s or witness’s account,
the consistency between the applicant’s or witness’s
written and oral statements (whenever made and
whether or not under oath, and considering the circumstances under which the statements were made),
the internal consistency of each such statement, the
consistency of such statements with other evidence
of record (including the reports of the Department of
State on country conditions), and any inaccuracies or
falsehoods in such statements, without regard to
whether an inconsistency, inaccuracy, or falsehood
goes to the heart of the applicant’s claim, or any
other relevant factor. There is no presumption of
credibility, however, if no adverse credibility determination is explicitly made, the applicant or witness
shall have a rebuttable presumption of credibility on
appeal. 6
We have attempted in a number of panel opinions after the Act to adjust our approach to applicant credibility and persuasiveness issues, but as the majority opinion illustrates, “old ways die hard.” Huang v. Holder,

5
6

8 U.S.C. § 1158(b)(1)(B)(ii) (emphasis added).
8 U.S.C. § 1158(b)(1)(B)(iii).

82a
744 F.3d 1149 (9th Cir. 2014) captures where we should
be on this issue:
[W]e have concluded that “the REAL ID Act requires a healthy measure of deference to agency credibility determinations.” This deference “makes sense
because IJs are in the best position to assess demeanor and other credibility cues that we cannot
readily access on review.” “[A]n immigration judge
alone is in a position to observe an alien’s tone and
demeanor, to explore inconsistencies in testimony,
and to apply workable and consistent standards in
the evaluation of testimonial evidence.” By virtue
of their expertise, IJs are “uniquely qualified to decide whether an alien’s testimony has about it the
ring of truth.”
The need for deference is particularly strong in the
context of demeanor assessments. Such determinations will often be based on nonverbal cues, and
“[f]ew, if any, of these ephemeral indicia of credibility can be conveyed by a paper record of the proceedings and it would be extraordinary for a reviewing
court to substitute its second-hand impression of the
petitioner’s demeanor, candor, or responsiveness for
that of the IJ.” Indeed, even before the enactment
of the REAL ID Act, we recognized the need to give
“special deference to a credibility determination that
is based on demeanor,” because the important elements of a witness’s demeanor that “may convince
the observing trial judge that the witness is testifying truthfully or falsely” are “entirely unavailable to
a reader of the transcript, such as the Board or the
Court of Appeals.” The same principles underlie

83a
the deference we accord to the credibility determinations of juries and trial judges.
Id. at 1153-54 (alterations in original) (citations omitted). This “healthy measure of deference” should also
apply to the agency’s determination with respect to
whether an applicant has satisfied the agency’s “trier of
fact”—not us—that his evidence is persuasive, an issue
that is in the wheelhouse of a jury or a judge or an IJ
hearing a case as a factfinder.
In Kho v. Keisler, 505 F.3d 50 (1st Cir. 2007), the
First Circuit understood the Act’s effect on the issue of
an applicant’s credibility. Not only did our sister circuit correctly comprehend the Act’s impact, but it considered and rejected our approach to this important
subject.
Kho supplements his ‘disfavored group’ approach
with an argument that because the IJ did not make
an explicit finding concerning Kho’s credibility, his
testimony ‘must be accepted as true’ by this court.
Kho bases this proposed rule as well on a series of
Ninth Circuit cases. . . .
We have already rejected the proposition that aliens
are entitled to a presumption of credibility on review
in this court if there is no express credibility determination made by an IJ. . . .
The REAL ID Act also provides no support for Kho’s
argument. . . .
Kho, 505 F.3d at 56-57.

84a
The court further explained that the Act’s reference
to a “rebuttable presumption” applies only to an applicant’s appeal to the BIA, not to “reviewing courts of appeal.” Id. at 56.
Thus, not only does my colleagues’ opinion violate
the directions of the Act, but it creates an intercircuit
conflict with Kho, and an intra-circuit conflict with
Aden.
IV
The IJ’s Decision

The IJ in this case concluded that Ming Dai had not
satisfied his statutory burden of establishing that he is
a refugee pursuant to § 1158(b)(1)(B)(i). The IJ gave
as his “principle area of concern” Dai’s implausible unpersuasive testimony, another way of saying it wasn’t
credible. As Dai’s brief correctly demonstrates, there
is barely a dime’s worth of substantive difference between “credible” and “persuasive.” Here is how the IJ
explained his decision in terms of § 1158(b)(1)(B)(i) and
(ii):
I have carefully considered the respondent’s testimony and evidence and for the following reasons, I
find that the respondent has failed to meet his burden of proving eligibility for asylum.
The principal area of concern with regard to the respondent’s testimony arose during the course of his
cross-examination. On cross-examination, the respondent was asked about various aspects of his interview with an Asylum Officer. The Department
of Homeland Security also submitted the notes of
that interview as Exhibit 5. The respondent was
asked specific questions regarding several aspects of

85a
his testimony before the Asylum Officer. In the
course of cross-examination, the respondent was
asked regarding his questions and answers as to
whether his wife and daughter travelled with him to
the United States. The respondent’s responses included the question of whether the asylum officer
had asked him if his wife and daughter travelled anywhere other than to Taiwan and Hong Kong. The
respondent conceded that he was asked this question
and that he replied yes, they had travelled to Taiwan
and Hong Kong. The respondent was asked whether
the Asylum Officer inquired whether his wife and
daughter had travelled elsewhere. The respondent
then testified before the Court that he was asked this
question, “but I was nervous.” In this regard, I
note that the respondent did not directly answer the
question; instead leapt directly to an explanation for
what his answer may have been, namely that he was
nervous. The respondent was then asked specifically whether the Asylum Officer asked him if his
wife had travelled to Australia in 2007. The respondent confirmed that he had been asked this
question, and he confirmed that the answer was in
the affirmative. The respondent also confirmed
that the Asylum Officer had asked him whether she
had travelled anywhere else. He confirmed that he
had been so asked. The respondent was then asked
whether he answered “no,” that she had not travelled
anywhere else. The respondent answered that he
believed so, that he had so answered. The respondent was then asked, during the course of cross-examination, why he had not said to the Asylum Officer
that yes, she had travelled to the United States.
The respondent replied that he had not thought of it.

86a
He stated that they did come with him (meaning his
wife and daughter) and that he thought the Asylum
Officer was asking him if they had travelled anywhere other than the United States. He explained
that he did so because he assumed the U.S. Government had the records of their travel to the United
States. On further questioning, the respondent
eventually hesitated at some length when asked to
further explain why he did not disclose spontaneously to the Asylum Officer that his wife and daughter had come with him. The respondent paused at
some length and I observed that the respondent appeared nervous and at a loss for words. However,
after a fairly lengthy pause, the respondent testified
that he is afraid to say that his wife and daughter
came here and why they went back. The respondent was asked whether he told the Asylum Officer
that he was afraid to answer directly. The respondent initially testified that he forgot and did not remember whether he said that. He again reiterated
that he was very nervous. He was then asked the
question again as to whether he told the Asylum Officer that he was afraid to answer why his wife and
daughter had gone back. He then conceded that
maybe, yes, he had answered in that fashion. The
respondent was asked whether the Asylum Officer
inquired why his wife and daughter went back, and
the respondent conceded that he had been so asked,
and he further conceded that he replied because
school in the United States cost a lot of money (referring to the schooling for his daughter). The respondent was then asked to confirm that the Asylum
Officer eventually asked him to tell him the real story
as to why his family travelled to the United States

87a
and returned to China. The respondent confirmed
that he was asked this question and when asked,
whether he replied that it was because he wanted a
good environment for his child and because his wife
had a job and he did not and that that is why he
stayed here. He confirmed that he did, in fact, say
that. The respondent was further asked, during the
course of testimony in court, why his wife and daughter returned to China. In this regard, the respondent testified that they came with him, but returned
to China several weeks after arrival. He testified
that they did so because his father-in-law was elderly
and needed attention, and because his daughter
needed to graduate school in China.
The respondent further claimed that his wife had, in
fact, suffered past persecution in the form of a forced
abortion and the respondent confirmed that he
feared his wife and daughter would suffer future persecution. In this regard, the respondent qualified
his answer by saying that his wife was now on an
IUD, apparently thereby suggesting that the risk of
persecution is reduced. However, the respondent
did concede that the risk of future persecution also
pertains to his daughter. Indeed, in this regard, the
respondent testified that this is, at least in part, why
he applied for asylum.
As to the contents of Exhibit 5, I give the notes full
weight, insofar as the respondent has confirmed the
contents of the questions and answers given during
the course of that interview. Furthermore, I note
that in the sections in which the respondent equivocated, stating that he was nervous and not sure that
he gave those precise answers, I nevertheless give the

88a
Asylum Officer’s notes some substantial weight, in
that they are consistent with the respondent’s testimony in court. Specifically, I note that the Asylum
Officer’s notes state that the respondent ultimately
indicated that he was afraid of giving straight answers regarding his daughter and wife’s trip to the
United States and return to China. And while the
respondent did not confirm this in court, he did give
a similar answer as to why he was testifying in this
regard. In other words, the respondent appears to
have stated, both before the Asylum Officer and in
court that he did not spontaneously disclose the
travel of his wife and daughter with him to the
United States and their return because he was nervous about how this would be perceived by the Asylum
Officer in connection with his claim. I further note
that the Asylum Officer’s notes are internally consistent with regard to references to earlier questions, such as whether the respondent had stated
that he applied for a visa with anyone else. At page
2 of the notes contained in Exhibit 5, the respondent
was asked whether he applied for his visa with anyone else and the notes indicated that he stated that,
“no, I applied by myself.” Similarly, I note that the
testimony before the Asylum Officer and the Court
is consistent with the omission in the respondent’s
Form I-589 application for asylum, of an answer to
the question of the date of the previous arrival of his
wife, if she had previously been in the United States.
See Exhibit 2, page 2, part A.II, question 23. When
asked about this omission, the respondent expressed
surprise, stating that he told the preparer about
their trip and indicated that he thought it had been

89a
filled out. Notwithstanding the respondent’s statement in this regard, I do observe that the omission is
consistent with his lack of forthrightness before the
asylum office as to his wife and daughter’s travel
with him to the United States and their subsequent
return to China shortly thereafter.
In sum, the respondent’s testimony before the Court
and his testimony regarding the Asylum Officer
notes, as well as the notes themselves, clearly indicate that the respondent failed to spontaneously disclose that his wife and daughter came with him and
then returned to China. His testimony and the
notes also consistently demonstrate that the respondent paused at length, both before the Court
and before the Asylum Officer, when asked about
this topic. His testimony and the Asylum Officer
notes are also consistent in indicating that he ultimately testified that he was afraid to say that his wife
came here and was afraid of being asked about why
she went back. Furthermore, the respondent has
conceded that he was asked to “tell the real story”
about his family’s travel to the United States by the
Asylum Officer, and that he replied that he wanted
a good environment for his child and his wife had a
job, but he did not, and that is why he stayed here.
In Loho v. Mukasey, 531 F.3d 1016, 1018-19 (9th Cir.
2008), the Ninth Circuit addressed the situation in
which an asylum applicant has found safety in the
United States and then returns to the country
claimed of persecution before eventually finding asylum in the United States. The Ninth Circuit held
that the applicant’s voluntary return to the country

90a
of claimed persecution may be considered in assessing both credibility and whether the respondent
has a well-founded fear of persecution in that country. Here, while the respondent himself has not returned to China, his wife and daughter did. Indeed
they did so shortly after arriving in the United
States, and the respondent confirmed that they did
so because the schooling is cheaper for his daughter
in China, as well as because his father-in-law is elderly and needed to be cared for. The respondent
also told the Asylum Officer that the “real story”
about whey [sic] his family returned was that his wife
had a job and he did not, and that is why he stayed
here. This is consistent with respondent’s testimony before the Court that he did not have a job at
the time he came to the United States. Furthermore, I note that the respondent’s claim of persecution is founded on the alleged forced abortion inflicted upon his wife. That is the central element of
his claim. The respondent claims that he himself
was persecuted through his resistance to that abortion. Nevertheless, the fact remains that the fundamental thrust of the respondent’s claim is that his
wife was forced to have an abortion. In this regard,
the respondent’s wife therefore clearly has an equal,
or stronger, claim to asylum than the respondent
himself, assuming the facts which he claims are true.
The respondent was asked why his wife did not stay
and apply for asylum and he replied that he did not
know they could apply for asylum at the time they
departed. The respondent was then asked why he
stayed here after they returned; he said because he
was in a bad mood and he wanted to get a job and a
friend of mine is here.

91a
While Loho v. Mukasey applies to the applicant himself returning to China, I find that the reasoning of
the Ninth Circuit in that case is fully applicable to
the respondent’s situation in that his wife, who is the
primary object of the persecution in China, freely
chose to return to China. I do not find that the respondent’s explanations for her return to China
while he remained here are adequate. The respondent has stated that he was in a bad mood and
that he had found a job and had a friend here. The
respondent has also indicated that his daughter’s education would be cheaper in China than here, and he
has also indicated that his wife wanted to go to take
care of her father. I do not find that these reasons
are sufficiently substantial so as to outweigh the concerns raised by his wife and daughter’s free choice to
return to China after having allegedly fled that country following his wife’s and his own persecution.
In view of the for[e]going, I find that the respondent
has failed to meet his burden of proving eligibility for
asylum under Section 208(a) of the Act.
(Emphasis added).
To erase any doubts about Dai’s problematic testimony, the following is an excerpt from it.
MS. HANNETT TO MR. DAI
Q. And isn’t it also true that the [asylum] officer
asked why did they go back and you replied,
so that my daughter can go to school and in
the U.S., you have to pay a lot of money?
A. Yes, that’s what I said.

92a
Q. Okay. And isn’t it also true that the officer
asked you, can you tell me the real story
about you and your family’s travel to the U.S.,
and you replied I wanted a good environment
for my child. My wife had a job and I didn’t,
and that is why I stayed here. My wife and
child go home first.
A. I believe I said that.
* * *
Q. So, once you got to the United States, why
didn’t your wife apply for asylum?
A. My wife just returned to China.
Q. Right, and my question is why didn’t she stay
here and apply for asylum?
A. At that time, we didn’t know the apply, we
didn’t know that we can apply for asylum.
Q. Well, if you didn’t know that you could apply
for asylum, why did you stay here after they
returned?
A. Because at that time, I was in a bad mood and
I couldn’t get a job, so I want to stay here for
a bit longer and another friend of mine is also
here.
The asylum officer’s interview notes discussed by the
IJ (and found to be consistent with Dai’s testimony before the IJ) read as follows:
Earlier you said your wife has only traveled to Australia, Taiwan and HK. You also said that you traveled to the US alone. Government records indicate

93a
that your wife traveled with you to the United States.
Can you explain?
[long pause] the reason is I’m afraid to say that
my wife came here, then why did she go back.
Your wife went back?

Yes

When did she go back to China?
Why did she go back?

February

Because my child go to
school

Earlier you said you applied for your visa alone.
Our records indicate that your child also obtained
a visa to the US with you. Can you explain?
[long pause]
Daughter came with wife and you in January?
Yes
Can you explain?

I’m afraid

Please tell me what you are afraid of. That is
what your interview today is for. To understand
your fears?
I’m afraid you ask why my wife and daughter
go back
Why did they go back?
So that my daughter can go to school and in the
US you have to pay a lot of money.
Can you tell me the real story about you and your
family’s travel to the US?
I wanted a good environment for my child.
My wife had a job and I didn’t and that is why

94a
I stayed here.
first.

My wife and child go home

(bracketed notations in original).
V
The Role of an Asylum Officer

The majority’s opinion perpetuates another acute error our Circuit has made in its effort to control the DHS’s
administrative process. In footnote 2, the majority say
that if Dai concealed relevant information “it was only
from the asylum officer.” Only from the asylum officer? So Dai’s admitted concealment under oath of
germane information during a critical part of the evaluation process is of no moment?
The majority’s misunderstanding of the role of an
asylum officer represents a sub silentio application of
another faulty proposition on the books in our circuit:
Singh v. Gonzales, 403 F.3d 1081 (9th Cir. 2005).
Certain features of an asylum interview make it a potentially unreliable point of comparison to a petitioner’s testimony for purposes of a credibility determination. Barahona-Gomez v. Reno, 236 F.3d 1115
(9th Cir. 2001), explained the significant procedural
distinctions between the initial quasi-prosecutorial
“informal conferences conducted by asylum officers”
after the filing of an asylum application, and the
“quasi-judicial functions” exercised by IJs. . . .
Id. at 1087 (emphasis added).
First of all, we may not have in this case a verbatim
transcript of Dai’s testimony, but we have the asylum
officer’s notes, which the IJ explicitly found to be accurate. Moreover, when appropriately confronted under

95a
oath with the notes, Dai admitted they correctly captured what he said. Under these circumstances, any
concern that the asylum interview might be a “potentially unreliable point of comparison” to Dai’s testimony
is irrelevant. The record (thanks to Dai himself) eliminates any potential for unreliability.
Second, the pronouncement in Singh v. Gonzales
that an asylum officer’s interview in an affirmative
asylum case is “quasi-prosecutorial” in nature is flat
wrong and reveals our fundamental misunderstanding
of the process. 7 An asylum officer in an affirmative
asylum case does not “prosecute” anyone during the exercise of his responsibilities, and the process is not
“quasi-prosecutorial” in nature. In fact, unlike a prosecutor, an asylum officer has the primary authority and
discretion to grant asylum to an applicant should the applicant present a convincing case. The asylum officer’s
role is essentially judicial, not prosecutorial. We miss
the mark here because we see only those cases where
an affirmative asylum applicant did not present a sufficiently credible persuasive case to an asylum officer to
prevail, and we mistakenly conclude from that unrepresentative sample that asylum officers tend to decide
against such applicants.
The true facts emerge from DHS’s June 20, 2016 report to Congress, Affirmative Asylum Application Statistics and Decisions Annual Report, covering “FY
2015 adjudications of affirmative asylum applications by
An affirmative asylum case differs from a defensive asylum case
involving someone already in removal proceedings. See Obtaining
Asylum in the United States, DEP’T OF HOMELAND SEC., https://
www.uscis.gov/humanitarian/refugees-asylum/asylum/obtainingasylum-united-states (last updated Oct. 19, 2015).
7

96a
USCIS [U.S. Citizenship & Immigration Services] asylum officers for the stated period.” 8 By way of background, the Report points out that asylum officers have
a central determinative role in the process. Asylum
determinations “are made by an asylum officer after an
applicant files an affirmative asylum application, is interviewed, and clears required security and background
checks.” Id. at 2.
The Report contains statistics about the activity of
asylum officers. According to the FY2015 statistics,
asylum officers completed 40,062 affirmative asylum
cases. They approved 15,999 applications for an approval rate of 47% for interviewed cases. Id. at 3.
USCIS has a Policy Manual. Chapter 1 of Volume
1 establishes its “Guiding Principles.” 9 A “Core Principal” reads as follows:
The performance of agency duties inevitably means
that some customers will be disappointed if their
cases are denied. Good customer service means
that everyone USCIS affects will be treated with dignity and courtesy regardless of the outcome of the
decision.
* * *
2016 DHS Congressional Appropriations Reports, DEP’T
HOMELAND SEC., https://www.dhs.gov/publication/2016-dhscongressional-appropriations-reports (last published Feb. 12, 2018)
(follow “United States Citizenship and Immigration Services
(USCIS)—Affirmative Asylum Application Statistics & Decisions
FY16 Report” hyperlink).
9
Policy Manual, U.S. CITIZENSHIP & IMMIGRATION SERVS.,
https://www.uscis.gov/policymanual/HTML/PolicyManual-Volume1PartA-Chapter1.html (Aug. 23, 2017).
8

OF

97a
USCIS will approach each case objectively and adjudicate each case in a thorough and fair manner.
USCIS will carefully administer every aspect of its
immigration mission so that its customers can hold
in high regard the privileges and advantages of U.S.
immigration.
Id.
Finally, we look at the training given to asylum officers in connection with their interviews of affirmative
asylum applicants. In USCIS’s Adjudicator’s Field
Manual, we find in Appendix 15-2, “Non-Adversarial Interview Techniques,” the following guidance. 10
I.

OVERVIEW

An immigration officer will conduct an interview for
each applicant, petitioner or beneficiary where required by law or regulation, or if it is determined that
such interviewed [sic] is appropriate. The interview
will be conducted in a non-adversarial manner, separate and apart from the general public. The officer
must always keep in mind his or her responsibility to
uphold the integrity of the adjudication process. As
representatives of the United States Government, officers must conduct the interview in a professional
manner.
* * *

Adjudicator’s Field Manual—Redacted Public Version, U.S.
CITIZENSHIP & IMMIGRATION SERVS., https://www.uscis.gov/ilink/
docView/AFM/HTML/AFM/0-0-0-1.html (follow “Appendicies” hyperlink; then follow “15-2 Non-Adversarial Interview Techniques”
hyperlink) (last visited Feb. 15, 2018) (emphasis added).
10

98a
Due to the potential consequences of incorrect determinations, it is incumbent upon officers to conduct organized, focused, and well-planned, non-adversarial
interviews. . . .
* * *
III.

NON-ADVERSARIAL NATURE OF THE INTERVIEW

A.

Concept of the Non-adversarial Interview

A non-adversarial proceeding is one in which the parties are not in opposition to each other. This is in
contrast to adversarial proceedings, such as civil and
criminal court proceedings, where two sides oppose
each other by advocating their mutually exclusive positions before a neutral arbiter until one side prevails
and the other side loses. A removal proceeding before an immigration judge is an example of an adversarial proceeding, where the Service trial attorney is seeking to remove a person from the United
States, while the alien is seeking to remain.
The interview is part of a non-adversarial proceeding. The principal intent of the Service is not to oppose the interviewee’s goal of obtaining a benefit, but
to determine whether he or she qualifies for such
benefit. If the interviewee qualifies for the benefit,
it is in the Service’s interest to accommodate that
goal.
* * *
B.

Points to Keep in Mind When Conducting a Nonadversarial Interview

The officer’s role in the non-adversarial interview is
to ask questions formulated to elicit and clarify the

99a
information needed to make a determination on the
petitioner or applicant’s request. This questioning
must be done in a professional manner that is nonthreatening and non-accusatory.
1.

The officer must:

a. Treat the interviewee with respect. Even if
someone is not eligible for the benefit sought based
on the facts of the claim, the officer must treat him or
her with respect. The officer may hear similar claims
from many interviewees, but must not show impatience towards any individual. Even the most nonconfrontational officer may begin to feel annoyance
or frustration if he or she believes that the interviewee is lying; however, it is important that the officer keep these emotions from being expressed during the interview.
b. Be non-judgmental and non-moralistic. Interviewees may have reacted to situations differently
than the officer might have reacted. The interviewee
may have left family members behind to fend for
themselves, or may be a member of a group or organization for which the officer has little respect.
Although officers may feel personally offended by
some interviewee’s actions or beliefs, officers must
set their personal feelings aside in their work, and
avoid passing moral judgments in order to make neutral determinations.
c. Create an atmosphere in which the interviewee
can freely express his or her claim. The officer must
make an attempt to put the interviewee at ease at the
beginning of the interview and continue to do so

100a
throughout the interview. If the interviewee is a survivor of severe trauma (such as a battered spouse), he
or she may feel especially threatened during the interview. As it is not always easy to determine who
is a survivor, officers should be sensitive to the fact
that every interviewee is potentially a survivor of
trauma.
Treating the interviewee with respect and being
non-judgmental and non-moralistic can help put him
or her at ease. There are a number of other ways an
officer can help put an interviewee at ease, such as:
• Greet him or her (and others) pleasantly;
• Introduce himself or herself by name and explain the officer’s role;
• Explain the process of the interview to the interviewee so he or she will know what to expect
during the interview;
• Avoid speech that appears to be evaluative or
that indicates that the officer thinks he or she
knows the answer to the question;
• Be patient with the interviewee; and
• Keep language as simple as possible.
d. Treat each interviewee as an individual.
Although many claims may be similar, each claim
must be treated on a case-by-case basis and each interviewee must be treated as an individual. Officers
must be open to each interviewee as a potential approval.
e. Set aside personal biases. Everyone has individual preferences, biases, and prejudices formed

101a
during life experiences that may cause them to view
others either positively or negatively. Officers should
be aware of their personal biases and recognize that
they can potentially interfere with the interview process. Officers must strive to prevent such biases
from interfering with their ability to conduct interviews in a non-adversarial and neutral manner.
f. Probe into all material elements of the interviewee’s claim. The officer must elicit all relevant
and useful information bearing on the applicant or
beneficiary’s eligibility. The officer must ask questions to expand upon and clarify the interviewee’s
statements and information contained on the form.
The response to one question may lead to additional
questions about a particular topic or event that is material to the claim.
g. Provide the interviewee an opportunity to clarify
inconsistencies. The officer must provide the interviewee with an opportunity during the interview to
explain any discrepancy or inconsistency that is material to the determination of eligibility. He or she
may have a legitimate reason for having related testimony that outwardly appears to contain an inconsistency, or there may have been a misunderstanding
between the officer and the interviewee. Similarly,
there may be a legitimate explanation for a discrepancy or inconsistency between information on the
form and the interviewee’s testimony.
On the other hand, the interviewee may be fabricating a claim. If the officer believes that an interviewee is fabricating a claim, he or she must be able
to clearly articulate why he or she believes that the
interviewee is not credible.

102a
h. Maintain a neutral tone throughout the interview. Interviews can be frustrating at times for the
officer. The interviewee may be long-winded, may
discuss issues that are not relevant to the claim, may
be confused by the questioning, may appear to be or
may be fabricating a claim, etc. It is important that
the officer maintain a neutral tone even when frustrated.
2.

The officer must not:

• Argue in opposition to the applicant or petitioner’s claim (if the officer engages in argument, he
or she has lost control of the interview);
• Question the applicant in a hostile or abusive
manner;
•

Take sides in the applicant or petitioner’s claim;

• Attempt to be overly friendly with the interviewee; or
• Allow personal biases to influence him or her
during the interview, either in favor of or against the
interviewee.
I hope that by exposing the particulars of the affirmative application process we will correct our understanding of the applicant interview process, and that we
will drop our uninformed characterization of it as “quasiprosecutorial.” While under oath, Dai intentionally
concealed material information from the asylum officer
during a critical aspect of the process. To diminish the

103a
import of this potential crime 11 because the government official was “only” an asylum officer is a serious
mistake.
VI
The BIA’s Decision

Dai unsuccessfully appealed the IJ’s decision denying his application for asylum, withholding of removal,
and protection under the Convention Against Torture.
The BIA’s decision follows.
We review for clear error the findings of fact, including determinations of credibility, made by the Immigration Judge. We review de novo all other issues,
including whether the parties have met the relevant
burden of proof, and issues of discretion. The respondent filed his application for asylum after May
11, 2005, and thus review is governed by the REAL
ID Act of 2005.
We adopt and affirm the Immigration Judge’s decision in this case. The Immigration Judge correctly denied the respondent’s applications for failure to meet his burden of proof. The record reflects
that the respondent failed to disclose to both the
[DHS] asylum officer and the Immigration Judge
that his wife and daughter had traveled with him to
the United States and voluntarily returned to China
shortly after. The respondent further conceded
that he was not forthcoming about this information
because he believed that the true reasons for their
18 U.S.C. § 1001 makes it a crime knowingly and willfully to
make a material false statement in any matter within the jurisdiction
of the executive branch of Government.
11

104a
return—that his wife had a job in China and needed
to care for her elderly father, and that their daughter
could attend school in China for less money than in
the United States—would be perceived as inconsistent with his claims of past and feared future persecution.
The Immigration Judge correctly decided that the
voluntary return of the respondent’s wife and daughter to China, after allegedly fleeing following the persecution of the respondent and his wife, prevents the
respondent from meeting his burden of proving his
asylum claim. Contrary to the respondent’s argument on appeal, the Immigration Judge need not
have made an explicit adverse credibility finding to
nevertheless determine that the respondent did not
meet his burden of proving his asylum claim. The
respondent’s family voluntarily returning and his
not being truthful about it is detrimental to his
claim and is significant to his burden of proof.
(Emphasis added) (footnote and citations omitted).
VII
The IJ Becomes a Potted Plant

My colleagues’ opinion boils down to this faulty proposition: Simply because the IJ did not say “I find Dai
not credible” but opted instead to expose the glaring
factual deficiencies in Dai’s presentation and to explain
in specific detail and at length why Dai had not persuasively carried his burden of proving his case, we must
selectively embrace as persuasive Dai’s problematic

105a
presentation regarding the core of his claim. 12 I invite
the reader to review once again the IJ’s decision and to
decide on the merits whether Dai’s case is persuasive.
It is anything but.
My colleagues expunge from the record the blatant
flaws in Dai’s performance involving demeanor, candor,
and responsiveness, claiming that “taking into account
the record as a whole, nothing undermines the persuasiveness of Dai’s credible testimony. . . . ” Nothing? They disregard inaccuracies, inconsistencies, and
implausibilities in his story, and his barefaced attempt
to cover up the truth about his wife’s and daughter’s
travels and situation. They even sweep aside Dai’s admission to the asylum officer that the “real story” is that
(1) he wanted a good environment for his child, (2) his
wife left him behind because she had a job in China and
he did not, and (3) he was in a “bad mood,” couldn’t get
a job, and wanted to stay here “for a bit longer.” In
their opinion, there is not a single word regarding the
factors cited by the IJ to explain his observations, findings, and decision, including the fact that Dai’s wife, allegedly the initial subject of persecution in China, made
a free choice to return. The effect of the presumption
is to wipe the record clean of everything identified by
the IJ and the BIA as problematic.
The irony in my colleagues’ analysis is that once they
proclaim that Dai’s testimony is credible, they pick and
choose only those parts of his favorable testimony that
support his case—not the parts that undercut it. If we
must accept Dai’s presentation as credible, then why
And if an IJ does make an adverse credibility finding, we have
manufactured a multitude of ways to disregard it.
12

106a
not also his “real story” when confronted with the facts
that he came to the United States because he wanted a
good environment for his daughter, and that he did not
return to China with his wife because she had a job and
he did not? What becomes of his attempted cover up
of the travels of his wife and daughter?
Furthermore, my colleagues’ treatment of the IJ’s
opinion is irreconcilable with the BIA’s wholesale acceptance of it. In words as clear as the English language can be, the BIA said, “We adopt and affirm the
Immigration Judge’s decision.” To compound their error, the majority then seizes upon and pick apart the
BIA’s summary explanation of why it concluded on de
novo review that the IJ’s decision was correct. What
the BIA did say was that Dai’s failure to be truthful
about his family’s voluntary return to China was “detrimental to his claim” and “significant to his burden of
proof.”
VIII
Analysis

And so we come at last to the statutory requirement
of persuasiveness, an issue uniquely suited to be determined by the “trier of fact,” as the Act and 8 U.S.C.
§ 1158(b)(1)(B)(ii) dictate. The majority opinion freights
this inquiry with an incomplete record. The opinion
sweeps demeanor, candor, and plausibility considerations
—as well as the IJ’s extensive findings of fact—off the
board. Once again, the opinion ignores Huang, a postAct case.
The need for deference is particularly strong in the
context of demeanor assessments. Such determinations will often be based on nonverbal cues, and “[f]ew,

107a
if any, of these ephemeral indicia of credibility can be
conveyed by a paper record of the proceedings and it
would be extraordinary for a reviewing court to substitute its second-hand impression of the petitioner’s
demeanor, candor, or responsiveness for that of the
IJ.”
744 F.3d at 1153 (alteration in original) (quoting Jibril,
423 F.3d at 1137).
Here, the IJ determined that Dai’s testimony was
not persuasive based on demeanor, non-verbal cues, and
other germane material factors that went to the heart
of his case. The IJ explained his decision in exquisite
detail, and our approach and analysis should be simple.
In order to reverse the BIA’s conclusion that Dai did
not carry his burden of proof, “we must determine ‘that
the evidence not only supports [a contrary] conclusion,
but compels it—and also compels the further conclusion’ that the petitioner meets the requisite standard for
obtaining relief.” Garcia-Milian v. Holder, 755 F.3d
1026, 1031 (9th Cir. 2014) (alteration in original) (quoting INS v. Elias-Zacarias, 502 U.S. 478, 481 n.1 (1992)).
If anything, this record compels the conclusion that the
IJ and the BIA were correct, not mistaken. Are my
colleagues seriously going to hold that an IJ cannot take
universally accepted demeanor, candor, responsiveness,
plausibility, and forthrightness factors into consideration in assessing persuasiveness, as the IJ did here?
And that this detailed record, which is full of Dai’s admissions of an attempted coverup, compels the conclusion that Dai was so persuasive as to carry his burden?
Dai accurately understood the damaging implications of
his wife’s return to China. So did the IJ and the BIA.

108a
As the BIA stated, the truth is “inconsistent with his
claims of past and feared future persecution.”
IX
The More Things Change,
The More They Stay The Same

In Elias-Zacarias, 921 F.2d 844 (9th Cir. 1990),
rev’d, 502 U.S. 478 (1992), our court substituted the
panel’s interpretation of the evidence for the BIA’s.
The Supreme Court reversed our decision, calling the
first of the panel’s two-part reasoning “untrue,” and the
second “irrelevant.” 502 U.S. at 481. The Court warned
us that we could not reverse the BIA unless the asylum
applicant demonstrates that “the evidence he presented
was so compelling that no reasonable factfinder could
fail to find the requisite fear of persecution.” Id. at
483-84 (emphasis added). In our case, we again fail to
follow this instruction.
In INS v. Orlando Ventura, 537 U.S. 12, 13 (2002)
(per curiam), the Court noted that both sides, petitioner
and respondent, had asked us to remand the case to the
BIA so that it might determine in the first instance
whether changed conditions in Guatemala eliminated
any realistic threat of persecution of the petitioner.
Our panel did not remand the case, evaluating instead
the government’s claim of changed conditions by itself
and deciding the issue in favor of the petitioner. Id. at
13-14. The Supreme Court summarily reversed our
decision, saying “[T]he Court of Appeals committed
clear error here. It seriously disregarded the agency’s
legally mandated role.” Id. at 17.
A mere two years after Ventura’s per curiam opinion, we knowingly made the same mistake in Thomas v.

109a
Gonzales, 409 F.3d 1177 (9th Cir. 2005) (en banc), vacated, 547 U.S. 183 (2006). We disregarded four dissenters to that flawed opinion, who argued in vain that
our court’s decision was irreconcilable with Ventura.
In short order, the Supreme Court vacated our en banc
opinion, saying that our “error is obvious in light of Ventura, itself a summary reversal” and that the same remedy was once again appropriate. 547 U.S. at 185.
With all respect, the majority opinion follows in our
tradition of seizing authority that does not belong to us,
disregarding DHS’s statutorily mandated role. Even
the REAL ID Act has failed to correct our errors.
Thus, I dissent.

110a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 15-70776
Agency No. A205-555-836
MING DAI, PETITIONER
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
RESPONDENT

Filed:

Oct. 22, 2019
ORDER

Before: SIDNEY R. T HOMAS, Chief Circuit Judge, and
STEPHEN S. TROTT and MARY H. MURGUIA, Circuit
Judges.
The full court has been advised of the petition for rehearing en banc. A judge requested a vote on whether
to rehear the matter en banc. The matter failed to receive a majority of the votes of the nonrecused active
judges in favor of en banc consideration. Fed. R. App.
P. 35. Judge Miller was recused and did not participate in the vote.
The petition for rehearing en banc is denied. Attached are dissents from and statements in respecting
the denial of rehearing en banc.

111a
TROTT, Circuit Judge,** with whom R. NELSON, Circuit
Judge, joins, respecting the denial of rehearing en banc:
Instead of following the REAL ID Act (“Act”), our
court has perpetuated a contrived rule that in the absence of an adverse credibility finding, a petitioner must
be deemed credible. We then use that conclusion to
override an Immigration Judge’s (“IJ”) and the Board
of Immigration Appeals’ (“Board”) well-supported determination that this petitioner’s case was not “persuasive.” In so doing, we have rewritten the Act. We
have a long history of ignoring Congress and the Supreme Court, and here we have done it again. See Dai
v. Sessions, 916 F.3d 731, 875-93 (9th Cir. 2019) (Trott,
J., dissenting). Moreover, the panel majority opinion
creates an intercircuit conflict. I will address that
problem later in Part IV.
I

As explained in his thorough and convincing decision,
Immigration Judge Stephen Griswold, determined that
Dai had not met his statutory burden of persuasion on
the central issue of whether he was eligible as a refugee
for asylum. The documented fatal flaws in Dai’s case
were (1) his glaring attempt to deceive the asylum officer by concealing highly probative damaging facts that
go to the very core of his case, facts that Dai also omitted
from his Form I-589 application for asylum, (2) his admission when pressed that his deceit was intentional,
As a judge of this court in senior status, I no longer have the
power to vote on calls for rehearing cases en banc or formally to join
a dissent from failure to rehear en banc. See 28 U.S.C. § 46(c); Fed.
R. App. P. 35(a). Following our court’s general orders, however, I
may participate in discussions of en banc proceedings. See Ninth
Circuit General Order 5.5(a).
**

112a
driven by his understanding that the concealed evidence
would damage his probability of success, (3) his inadequate explanations for the contradictions in his presentation, (4) his telling demeanor on cross examination,
and (5) the “real story” behind his departure from China
and his decision not to return with his wife and daughter. The IJ regarded these flaws as demonstrating a
“lack of forthrightness.”
Accordingly, the IJ concluded pursuant to the language of the Act that Dai’s
case was not “persuasive.”
Reviewing de novo whether Dai had adequately met
his burden of persuasion that he was eligible for asylum,
the Board of Immigration Appeals agreed that he had
not. To support its conclusion, the Board referenced
the same material flaws the IJ found as facts. Their
reasoned decision should end this case, but with all respect, the panel majority and now our court have converted this straightforward matter into a textbook example of elevating form over substance, taking a blue
pencil to the Act’s requirement that an applicant’s case
must be “persuasive” and inappropriately substituting
our judgment for the Board’s.
II

Here is Judge Griswold’s compelling decision. Reading it illustrates how wrong our court’s analysis is.
I have carefully considered the respondent’s testimony and evidence and for the following reasons, I
find that the respondent has failed to meet his burden
of proving eligibility for asylum.
The principal area of concern with regard to the respondent’s testimony arose during the course of his

113a
cross-examination. On cross-examination, the respondent was asked about various aspects of his interview with an Asylum Officer. The Department of
Homeland Security also submitted the notes of that
interview as Exhibit 5. The respondent was asked
specific questions regarding several aspects of his
testimony before the Asylum Officer. In the course
of cross-examination, the respondent was asked regarding his questions and answers as to whether his
wife and daughter travelled with him to the United
States. The respondent’s responses included the
question of whether the asylum officer had asked him
if his wife and daughter travelled anywhere other
than to Taiwan and Hong Kong. The respondent
conceded that he was asked this question and that he
replied yes, they had travelled to Taiwan and Hong
Kong. The respondent was asked whether the Asylum Officer inquired whether his wife and daughter
had travelled elsewhere. The respondent then testified before the Court that he was asked this question, “but I was nervous.” In this regard, I note that
the respondent did not directly answer the question;
instead leapt directly to an explanation for what his
answer may have been, namely that he was nervous.
The respondent was then asked specifically whether
the Asylum Officer asked him if his wife had travelled
to Australia in 2007. The respondent confirmed
that he had been asked this question, and he confirmed that the answer was in the affirmative. The
respondent also confirmed that the Asylum Officer
had asked him whether she had travelled anywhere
else. He confirmed that he had been so asked.
The respondent was then asked whether he answered
“no,” that she had not travelled anywhere else. The

114a
respondent answered that he believed so, that he had
so answered. The respondent was then asked, during the course of cross-examination, why he had not
said to the Asylum Officer that yes, she had travelled
to the United States. The respondent replied that
he had not thought of it. He stated that they did
come with him (meaning his wife and daughter) and
that he thought the Asylum Officer was asking him if
they had travelled anywhere other than the United
States. He explained that he did so because he assumed the U.S. Government had the records of their
travel to the United States. On further questioning,
the respondent eventually hesitated at some length
when asked to further explain why he did not disclose
spontaneously to the Asylum Officer that his wife and
daughter had come with him.
The respondent
paused at some length and I observed that the respondent appeared nervous and at a loss for words.
However, after a fairly lengthy pause, the respondent testified that he is afraid to say that his wife and
daughter came here and why they went back. The
respondent was asked whether he told the Asylum
Officer that he was afraid to answer directly. The
respondent initially testified that he forgot and did
not remember whether he said that. He again reiterated that he was very nervous. He was then
asked the question again as to whether he told the
Asylum Officer that he was afraid to answer why his
wife and daughter had gone back. He then conceded that maybe, yes, he had answered in that fashion. The respondent was asked whether the Asylum
Officer inquired why his wife and daughter went
back, and the respondent conceded that he had been

115a
so asked, and he further conceded that he replied because school in the United States costs a lot of money
(referring to the schooling for his daughter). The
respondent was then asked to confirm that the Asylum Officer eventually asked him to tell him the real
story as to why his family travelled to the United
States and returned to China. The respondent confirmed that he was asked this question and when
asked, whether he replied that it was because he
wanted a good environment for his child and because
his wife had a job and he did not and that that is why
he stayed here. He confirmed that he did, in fact,
say that. The respondent was further asked, during
the course of testimony in court, why his wife and
daughter returned to China. In this regard, the respondent testified that they came with him, but returned to China several weeks after arrival. He testified that they did so because his father-in-law was
elderly and needed attention, and because his daughter needed to graduate school in China.
The respondent further claimed that his wife had, in
fact, suffered past persecution in the form of a forced
abortion and the respondent confirmed that he
feared his wife and daughter would suffer future persecution. In this regard, the respondent qualified
his answer by saying that his wife was now on an
IUD, apparently thereby suggesting that the risk of
persecution is reduced. However, the respondent
did concede that the risk of future persecution also
pertains to his daughter. Indeed, in this regard, the
respondent testified that this is, at least in part, why
he applied for asylum.

116a
As to the contents of Exhibit 5, I give the notes full
weight, insofar as the respondent has confirmed the
contents of the questions and answers given during
the course of that interview. Furthermore, I note
that in the sections in which the respondent equivocated, stating that he was nervous and not sure that
he gave those precise answers, I nevertheless give the
Asylum Officer’s notes some substantial weight, in
that they are consistent with the respondent’s testimony in court. Specifically, I note that the Asylum
Officer’s notes state th at the respondent ultimately
indicated that he was afraid of giving straight answers regarding his daughter and wife’s trip to the
United States and return to China. And while the
respondent did not confirm this in court, he did give
a similar answer as to why he was testifying in this
regard. In other words, the respondent appears to
have stated, both before the Asylum Officer and in
court that he did not spontaneously disclose the
travel of his wife and daughter with him to the United
States and their return because he was nervous
about how this would be perceived by the Asylum Officer in connection with his claim. I further note
that the Asylum Officer’s notes are internally consistent with regard to references to earlier questions,
such as whether the respondent had stated that he
applied for a visa with anyone else. At page 2 of the
notes contained in Exhibit 5, the respondent was
asked whether he applied for his visa with anyone
else and the notes indicated that he stated that, “no,
I applied by myself.” Similarly, I note that the testimony before the Asylum Officer and the Court is
consistent with the omission in the respondent’s
Form I-589 application for asylum, of an answer to

117a
the question of the date of the previous arrival of his
wife, if she had previously been in the United States.
See Exhibit 2, page 2, part A.II, question 23. When
asked about this omission, the respondent expressed
surprise, stating that he told the preparer about their
trip and indicated that he thought it had been filled
out. Notwithstanding the respondent’s statement
in this regard, I do observe that the omission is consistent with his lack of forthrightness before the asylum office as to his wife and daughter’s travel with
him to the United States and their subsequent return
to China shortly thereafter.
In sum, the respondent’s testimony before the Court
and his testimony regarding the Asylum Officer
notes, as well as the notes themselves, clearly indicate that the respondent failed to spontaneously disclose that his wife and daughter came with him and
then returned to China. His testimony and the
notes also consistently demonstrate that the respondent paused at length, both before the Court and before the Asylum Officer, when asked about this topic.
His testimony and the Asylum Officer notes are also
consistent in indicating that he ultimately testified
that he was afraid to say that his wife came here and
was afraid of being asked about why she went back.
Furthermore, the respondent has conceded that he
was asked to “tell the real story” about his family’s
travel to the United States by the Asylum Officer,
and that he replied that he wanted a good environment for his child and his wife had a job, but he did
not, and that is why he stayed here.
In Loho v. Mukasey, 531 F.3d 1016, 1018-19 (9th Cir.
2008), the Ninth Circuit addressed the situation in

118a
which an asylum applicant has found safety in the
United States and then returns to the country claimed
of persecution before eventually finding asylum in
the United States. The Ninth Circuit held that the
applicant’s voluntary return to the country of claimed
persecution may be considered in assessing both
credibility and whether the respondent has a wellfounded fear of persecution in that country. Here,
while the respondent himself has not returned to
China, his wife and daughter did. Indeed they did
so shortly after arriving in the United States, and the
respondent confirmed that they did so because the
schooling is cheaper for his daughter in China, as well
as because his father-in-law is elderly and needed to
be cared for. The respondent also told the Asylum
Officer that the “real story” about whey [sic] his family returned was that his wife had a job and he did
not, and that is why he stayed here. This is consistent with respondent’s testimony before the Court
that he did not have a job at the time he came to the
United States. Furthermore, I note that the respondent’s claim of persecution is founded on the alleged forced abortion inflicted upon his wife. That
is the central element of his claim. The respondent
claims that he himself was persecuted through his resistance to that abortion. Nevertheless, the fact remains that the fundamental thrust of the respondent’s claim is that his wife was forced to have an abortion. In this regard, the respondent’s wife therefore
clearly has an equal, or stronger, claim to asylum
than the respondent himself, assuming the facts
which he claims are true. The respondent was
asked why his wife did not stay and apply for asylum
and he replied that he did not know they could apply

119a
for asylum at the time they departed. The respondent was then asked why he stayed here after they returned; he said because he was in a bad mood and he
wanted to get a job and a friend of mine is here.
While Loho v. Mukasey applies to the applicant himself returning to China, I find that the reasoning of
the Ninth Circuit in that case is fully applicable to the
respondent’s situation in that his wife, who is the primary object of the persecution in China, freely chose
to return to China. I do not find that the respondent’s explanations for her return to China while he
remained here are adequate. The respondent has
stated that he was in a bad mood and that he had
found a job and had a friend here. The respondent
has also indicated that his daughter’s education would
be cheaper in China than here, and he has also indicated that his wife wanted to go to take care of her
father. I do not find that these reasons are sufficiently substantial so as to outweigh the concerns
raised by his wife and daughter’s free choice to return to China after having allegedly fled that country
following his wife’s and his own persecution.
In view of the for[e]going, I find that the respondent
has failed to meet his burden of proving eligibility for
asylum under Section 208(a) of the Act.
(Emphasis added).
III

Assuming for the sake of argument only that the Immigration Judge’s findings of Dai’s (1) “lack of forthrightness,” (2) guilty demeanor, (3) inadequate explanations for his admittedly contradictory answers, and (4)
willful concealment of relevant information did not

120a
amount to an “explicit” adverse credibility determination, then Dai is statutorily entitled to a “rebuttable presumption of credibility on appeal”—to the Board. On
appeal to the Board, however, they dismissed this presumption, as was their statutory prerogative, concluding in the words of the Act that Dai’s case was not persuasive:
We review for clear error the findings of fact, including determinations of credibility, made by the Immigration Judge. We review de novo all other issues,
including whether the parties have met the relevant
burden of proof, and issues of discretion. The respondent filed his application for asylum after May
11, 2005, and thus review is governed by the REAL
ID Act of 2005.
We adopt and affirm the Immigration Judge’s decision in this case. The Immigration Judge correctly
denied the respondent’s applications for failure to
meet his burden of proof. The record reflects that
the respondent failed to disclose to both the [DHS]
asylum officer and the Immigration Judge that his
wife and daughter had traveled with him to the
United States and voluntarily returned to China
shortly after. The respondent further conceded that
he was not forthcoming about this information because he believed that the true reasons for their
return—that his wife had a job in China and needed
to care for her elderly father, and that their daughter
could attend school in China for less money than in
the United States—would be perceived as inconsistent with his claims of past and feared future persecution.

121a
The Immigration Judge correctly decided that the
voluntary return of the respondent’s wife and daughter to China, after allegedly fleeing following the persecution of the respondent and his wife, prevents the
respondent from meeting his burden of proving his
asylum claim. Contrary to the respondent’s argument on appeal, the Immigration Judge need not
have made an explicit adverse credibility finding to
nevertheless determine that the respondent did not
meet his burden of proving his asylum claim. The
respondent’s family voluntarily returning and his not
being truthful about it is detrimental to his claim
and is significant to his burden of proof.
(Emphasis added) (footnote and citations omitted).
IV

In Kho v. Keisler, 505 F.3d 50 (1st Cir. 2007), the
First Circuit understood the Act’s effect on the issue of
an applicant’s credibility. Not only did our sister circuit correctly comprehend the Act’s impact, but it considered and rejected our approach to this important subject.
Kho supplements his ‘disfavored group’ approach
with an argument that because the IJ did not make
an explicit finding concerning Kho’s credibility, his
testimony ‘must be accepted as true’ by this court.
Kho bases this proposed rule as well on a series of
Ninth Circuit cases. . . .
We have already rejected the proposition that aliens
are entitled to a presumption of credibility on review
in this court if there is no express credibility determination made by an IJ. . . .

122a
The REAL ID Act also provides no support for Kho’s
argument. . . .
Kho, 505 F.3d at 56-57.
The court further explained that the Act’s reference
to a “rebuttable presumption” applies only to an applicant’s appeal to the BIA, not to “reviewing courts of appeal.” Id. at 56.
Accordingly, not only does our court’s decision violate the directions of the Act, but it creates an intercircuit conflict with Kho.
V

Whether or not this petitioner attains asylum in our
country is of minor concern, but the significant damage
our court has done to the Act and to Congress’ attempt
to stop us from substituting our judgment for the Board’s
are matters that must be corrected. Thus, I disagree
with our decision not to rehear en banc this case.

123a
CALLAHAN, Circuit Judge, with whom BYBEE, BEA, M.
SMITH, IKUTA, BENNETT, R. NELSON, BADE, COLLINS,
LEE, Circuit Judges, join, dissenting from denial of rehearing en banc:
Under the REAL ID Act of 2005, an immigration
judge (IJ) has the task of evaluating an asylum application. Here, in denying en banc review, we have condoned a decision by a three-judge panel that takes the
extraordinary position of holding that, absent an explicit
adverse credibility ruling, an IJ must take as true an
asylum applicant’s testimony that supports a claim for
asylum, even in the face of other testimony from the applicant that would undermine an asylum claim. This
makes no sense and ignores the realities of factfinding.
Our decision restores our prior errant rule that Congress abrogated. As we have declined to correct this
erroneous decision ourselves, hopefully the Supreme
Court will do so.
Before Congress enacted the REAL ID Act, our
court had fashioned unique rules devised to restrict the
agency’s discretion in adjudicating asylum claims. The
REAL ID Act broadened the agency’s discretion. In
explaining the amendments, Congress singled out our
court for adopting rules that strayed from all other circuits and the Board of Immigration Appeals. In this
case, the divided panel ignored this history and revived
a rule that we previously said was “swept away” by the
REAL ID Act. Aden v. Holder, 589 F.3d 1040, 1045
(9th Cir. 2009).
The immigration judge here was presented with conflicting statements from the asylum applicant, Ming Dai,
about why he came to and sought to remain in the

124a
United States. The IJ did not make an express adverse credibility finding but instead found Dai’s testimony was not sufficiently persuasive to meet his burden
of proof. The panel majority erroneously concluded that,
absent an explicit, cogently-explained adverse credibility
finding, an IJ is required to accept the favorable portions of an asylum applicant’s testimony as the unassailable truth.
According to the panel, in weighing the persuasiveness of the asylum applicant’s testimony, an IJ must ignore any unfavorable testimony because such testimony
—which could impugn the applicant’s credibility—
“cannot be smuggled into the persuasiveness inquiry.”
Dai v. Sessions, 884 F.3d 858, 872 (9th Cir. 2018). The
panel’s holding allowed it to “expunge from the record
the blatant flaws in Dai’s performance involving demeanor, candor, and responsiveness,” Dai v. Barr,
916 F.3d 731, 747 (9th Cir. 2018) (Trott, J., dissenting),
thus tying the IJ’s hands in carrying out the statutory
role as trier of fact.
The panel’s holding is contrary to the statute, our
own precedent, and the rulings of our sister circuits.
In addition to overstepping our limited role in reviewing
the agency’s decision, the holding is also bad policy.
Just because testimony is credible (i.e., believable), it
doesn’t mean it must be wholly accepted as the truth.
A factfinder may resolve factual issues against a party
without expressly finding that party not credible. This
is a regular, non-controversial occurrence in everyday
litigation.
On close examination, the panel’s artful evasion of the
REAL ID Act is nothing short of an outright arrogation
of the agency’s statutory duty as trier of fact. After

125a
adopting its ill-advised rule, the panel took up the mantle of factfinder and pronounced that Dai’s testimony is
persuasive. In doing so, the panel “intrude[d] upon the
[factfinding] domain which Congress has exclusively entrusted to an administrative agency.” INS v. Ventura,
537 U.S. 12, 16 (2002) (quoting SEC v. Chenery Corp.,
318 U.S. 80, 88 (1943)). We are asking yet again to be
summarily reversed for violating the “ordinary remand
rule.” See Gonzales v. Thomas, 547 U.S. 183, 187
(2006); Ventura, 537 U.S. at 18.
I.
A.
Petitioner Ming Dai, a citizen of China, challenged
the IJ’s finding—adopted and affirmed by the BIA—
that Dai’s testimony was not persuasive in showing that
he is a refugee. Dai’s claim for asylum is premised on
events occurring in China in July 2009, when family
planning officials came to take his pregnant wife for an
abortion. Dai claimed he fought with officers, after
which he was detained for ten days and eventually fired
from his job. While Dai was detained, his wife was allegedly subjected to a forced abortion.
Dai stated in the affidavit accompanying his application
that he sought asylum because he wished to “bring [his]
wife and daughter to safety.” In fact, Dai’s wife and
daughter had entered the United States with him but
had voluntarily returned to China shortly thereafter.
Dai neglected to disclose this information in his application, affidavit, interview with the asylum officer, or on
direct examination before the IJ.
The IJ found Dai’s claim for asylum unpersuasive.
In the IJ’s view, “[t]he principal area of concern” was

126a
Dai’s testimony during cross-examination. The IJ noted
Dai’s evasive answers to questions about his interview
with the asylum officer. During cross-examination, Dai
was asked why he had not revealed that his wife and
daughter had come with him to the United States and
why they returned to China shortly thereafter. “[A]fter
a fairly lengthy pause,” and appearing to the IJ to be
“nervous and at a loss for words,” Dai stated that he was
afraid to speak about his wife and daughter. When
asked by the asylum officer what he was afraid of, Dai
said he was afraid the officer would ask why his wife and
daughter willingly went back to China. Dai was apparently concerned that revealing the facts about his wife
and daughter would undercut his claim that he wished
to bring them to safety. Dai eventually admitted that
the “real story” for why he stayed in the United States
when his family returned to China was because “he was
in a bad mood and he wanted to get a job and a friend of
mine is here.” In essence, the IJ credited Dai’s “real
story” that he came to the United States to seek employment, rather than his story that he came to flee persecution.
The BIA adopted and affirmed the IJ’s decision, concluding that the voluntary return of Dai’s family to
China and his failure to be forthcoming with that information was “detrimental to his claim” and “significant to
his burden of proof.”
B.
Dai sought review in our court. In his brief, Dai
presumed the agency made an adverse credibility finding, and he argued only that the IJ’s determination that
he failed to meet his burden of proof was not supported
by substantial evidence. The government, in response,

127a
argued Dai failed to show that the record compels a conclusion that he met his burden of proof.
A split panel granted Dai’s petition. The majority
stated that, under the REAL ID Act, an applicant’s testimony alone “is sufficient” 1 to establish eligibility for
asylum provided the “testimony is credible, is persuasive, and refers to specific facts sufficient to demonstrate that the applicant is a refugee.” Dai, 884 F.3d
at 867 (citing 8 U.S.C. § 1158(b)(1)(B)(ii)). Departing
from the issue as framed by the parties, 2 the majority
held that, because neither the IJ nor BIA made an explicit adverse credibility ruling, Dai must be “deemed
credible.” Dai, 884 F.3d at 868. The majority concluded that nothing in the REAL ID Act abrogated our
pre-REAL ID Act rule that an applicant must be
deemed credible in the absence of an explicit adverse
credibility determination. Id. at 868-69.
The panel majority then expanded the impact of that
holding by adopting a novel rule constraining an IJ’s
ability to weigh the evidence when no express adverse
credibility ruling has been made. The majority held
that, in weighing the persuasiveness of an applicant’s
claim, an IJ is precluded from considering evidence—

The statute actually says “may be sufficient,” not “is sufficient.”
See 8 U.S.C. § 1158(b)(1)(B)(ii).
2
As noted in Judge Trott’s dissent, because the government “responded only to the claims and arguments Dai included in his brief,”
it did not have “an opportunity to respond to the majority’s inventive
analysis, nor to the theory concocted by the majority on Dai’s behalf.” Dai, 916 F.3d at 733 (Trott, J., dissenting). Judge Trott predicted that “[b]oth sides will be surprised by my colleagues’ artful
opinion—Dai pleasantly, the Attorney General not so much.” Id.
1

128a
even the applicant’s own admissions—that might impugn the applicant’s credibility. Id. at 872 (“Credibility concerns that do not justify an adverse credibility
finding cannot be smuggled into the persuasiveness inquiry. . . . ”). That remarkable holding bears repeating: An applicant’s admissions (or other evidence)
that undermine the persuasiveness of an asylum claim
must be disregarded if that evidence also bears on the
applicant’s credibility.
This invented rule enabled the majority to reject the
agency’s reasons for finding Dai’s claim not persuasive.
Id. at 870-73. Having wiped from the record Dai’s unfavorable testimony, the majority assumed the role of
trier of fact and pronounced that “nothing [in the (nowcleansed) record] undermines the persuasiveness of
Dai’s credible testimony.” Id. at 871. The majority
thus held that Dai was eligible for asylum and entitled
to withholding of removal. Id. at 874. The majority
remanded with instructions to grant withholding of removal and to decide whether Dai should also be granted
asylum as a matter of discretion. Id.
In dissent, Judge Trott wrote that “[t]he practical effect of the majority’s rule is breathtaking: The lack of
a formal adverse credibility finding becomes a selective
positive credibility finding and dooms a fact-based determination by an IJ and the BIA that an applicant’s
case is not sufficiently persuasive to carry his burden of
proof.” Dai, 916 F.3d at 735 (Trott, J., dissenting).
Judge Trott argued that “[t]he IJ’s decision not to make
an explicit adverse credibility finding is a red herring
that throws our analysis off the scent and preordains a
result that is incompatible with the evidentiary record.”

129a
Id. at 731. Judge Trott asserted that the majority ignored “the IJ’s fact-based explanation for his decision”
and several material findings of fact, “each of which is
entitled to substantial deference.” Id.
II.
A.
Before the enactment of the REAL ID Act, our court
created what we characterized as a “deemed true” rule.
Ladha v. INS, 215 F.3d 889, 900 (9th Cir. 2000). Under
that rule, when “an alien credibly testifies to certain
facts, those facts are deemed true.” Id. The “deemed
true” rule developed as an extension of two other rules
—the rule that an applicant would be deemed credible
in the absence of an adverse credibility ruling and the
rule prohibiting factfinders from requiring corroborative evidence from credible applicants. 3 Id. at 899-900;
see id. at 899 (“ ‘[T]his court does not require corroborative evidence,’ Cordon-Garcia v. INS, 204 F.3d 985, 992
(9th Cir. 2000), from applicants for asylum and withholding of deportation who have testified credibly.”).

In some of our cases, we have not been careful in our phrasing,
using the expressions “deemed credible” and “deemed true” interchangeably. For example, the primary case that the panel majority
cited in support of the proposition that the “deemed-credible” rule
survives the REAL ID Act states that the testimony must be treated
as though it is “true.” Hu v. Holder, 652 F.3d 1011, 1013 n.1 (9th
Cir. 2011). Before the REAL ID Act and its introduction of a requirement for corroborative evidence and the weighing of credible
evidence, this imprecision of language arguably made no practical
difference. The new provisions of 8 U.S.C. § 1158(b)(1)(B) now require adjudicators to distinguish between credibility and truth.
3

130a
The “deemed true” rule and the rule against requiring corroborative evidence did not escape criticism. In
prior opinions, members of our court observed that
some of our rules concerning credibility and standard of
proof were out of line with the approach followed by
other circuits and contrary to the limited standard of review mandated by Congress. See, e.g., Quan v. Gonzales, 428 F.3d 883, 892 (9th Cir. 2005) (O’Scannlain, J.,
dissenting) (“I do not believe that an IJ’s decision should
be overturned merely because the reviewing panel disagrees with it or can point to a plausibly analogous case
from our abundant and inconsistent precedent.”); Jibril
v. Gonzales, 423 F.3d 1129, 1138 (9th Cir. 2005) (“Time
and again, however, we have promulgated rules that
tend to obscure th[e] clear standard [of review] and to
flummox immigration judges, who must contort what
should be a simple factual finding to satisfy our often irreconcilable precedents.”); Abovian v. INS, 257 F.3d
971, 980 (9th Cir. 2001) (Kozinski, J., dissenting from denial of rehearing en banc) (“[T]his case is hardly atypical
of our circuit’s immigration law jurisprudence. Rather, it is one more example of the nitpicking we engage
in as part of a systematic effort to dismantle the reasons
immigration judges give for their decisions.”).
To correct our misguided rules, Congress passed the
REAL ID Act. Congress made clear its intent to bring
us—the Ninth Circuit—in line with other circuits and
the BIA. See H.R. Rep. No. 109-72, at 167 (2005) (Conf.
Rep.), as reprinted in 2005 U.S.C.C.A.N. 240 (“[T]he
creation of a uniform standard for credibility is needed
to address a conflict on this issue between the Ninth Circuit on the one hand and other circuits and the BIA.”).
The REAL ID Act states that the applicant “may” sustain his burden through testimony alone, “but only if the

131a
applicant satisfies the trier of fact that the applicant’s
testimony is credible, is persuasive, and refers to specific facts sufficient to demonstrate that the applicant is
a refugee.” 8 U.S.C. § 1158(b)(1)(B)(ii). That provision also states that “the trier of fact may weigh the
credible testimony along with other evidence of record.”
Id. The REAL ID Act creates a “bias toward corroboration” that makes asylum litigation more like other
types of litigation in that the trier of fact need not accept
testimony as true even if it’s credible. Aden, 589 F.3d
at 1045. Lest there was any doubt that the REAL ID
Act abrogated our “presumed true” rule, we expressly
stated so in Aden: “Congress has thus swept away our
doctrine that ‘when an alien credibly testifies to certain
facts, those facts are deemed true.’ ” Id. (quoting
Ladha, 215 F.3d at 900).
Ignoring what we said in Aden, the panel majority
crafted a new rule that, in conjunction with the deemedcredible rule, operates to revive the congressionally disapproved “deemed true” rule. This revival occurred in
two steps. The panel first held that nothing in the
REAL ID Act “explicitly or implicitly repealed the rule
that in the absence of an adverse credibility finding by
the IJ or the BIA, the petitioner is deemed credible.”
Dai, 884 F.3d at 868. 4

Again, precision of language is important here. Even assuming
that when the agency makes no credibility finding, the petitioner’s
testimony is deemed credible, that is not enough. Credibility alone
doesn’t make a person persuasive or eligible for asylum, nor must
credible testimony be accepted as true. Aden, 589 F.3d at 1044
(“Credible testimony is not by itself enough.”); see also Sandie v.
Att’y Gen. of U.S., 562 F.3d 246, 252 (3d Cir. 2009) (“But the assumption that his testimony is credible does not imply that that testimony
4

132a
The panel’s second, decisive step in reviving our old
“deemed true” rule was to limit the evidence an IJ can
consider in weighing the persuasiveness of an applicant’s testimony. The panel held that if the agency
makes no adverse credibility finding, “[c]redibility concerns . . . cannot be smuggled into the persuasiveness inquiry.” Id. at 872. The panel reasoned that if
the agency makes no adverse credibility finding, any evidence that would cast doubt on the applicant’s credibility must be ignored when considering the persuasiveness of the applicant’s claim. The panel deployed its
holding to erase from the record Dai’s own admissions
that undermine his claim. For example, the IJ accepted as fact Dai’s admission that he failed to disclose
the truth about his wife’s and his daughter’s travels because he was nervous about how this would be perceived
by the asylum officer. The IJ also credited Dai’s admitted “real story” for why he stayed in the United
States when his wife and daughter returned home: “he
was in a bad mood and he wanted to get a job and a
friend of mine is here.” The panel’s decision bars the
IJ from considering this and other testimony that could
be (and was) construed as detrimental to Dai’s case. 5
is sufficient to meet his burden of proof. In fact, credible testimony
alone is not always sufficient to meet the burden of proof.”). An
applicant’s testimony may be sufficient to show asylum eligibility,
“but only if the applicant satisfies the trier of fact that the applicant’s
testimony is credible, is persuasive, and refers to specific facts sufficient to demonstrate that the applicant is a refugee.” 8 U.S.C.
§ 1158(b)(1)(B)(ii) (emphasis added).
5
In his dissent, Judge Trott identified other examples of Dai’s testimony that the IJ relied on in finding his claim unpersuasive. See
Dai, 916 F.3d at 732 (Trott, J., dissenting) (listing eight findings rendered by the IJ); id. at 747-48 (“My colleagues expunge from the

133a
The panel’s decision ties the hands of IJs who are
presented with conflicting evidence, effectively forcing
them to accept an applicant’s favorable testimony as the
whole truth and to disregard unfavorable evidence—
even when it is the applicant’s own testimony—unless
they affirmatively make an adverse credibility finding.
The panel’s two-fold holding thus transforms the lack of
an express adverse credibility ruling into an affirmative
conclusion that the applicant’s proffered reason for
seeking asylum is true.
The resuscitation of our old “deemed true” rule flouts
Congress’s purpose in enacting the REAL ID Act. 6
First, the panel’s holding violates the statute’s directive
that the agency is to conduct the factfinding and that our
court may disturb the agency’s decision only where “any
record the blatant flaws in Dai’s performance involving demeanor,
candor, and responsiveness. . . . They disregard inaccuracies,
inconsistencies, and implausibilities in his story, and his barefaced
attempt to cover up the truth about his wife’s and daughter’s travels
and situation.”).
6
The majority turns somersaults to dodge Congress’s explicit attempt to rein us in. The statute provides: “There is no presumption of credibility, however, if no adverse credibility determination
is explicitly made, the applicant or witness shall have a rebuttable
presumption of credibility on appeal.” 8 U.S.C. § 1158(b)(1)(B)(iii).
The majority, ignoring the phrase “[t]here is no presumption of
credibility,” apparently presumed it to apply only in immigration
court proceedings. The majority reasoned that the “rebuttable
presumption of credibility on appeal” does not apply in our court because this case is a petition for review not an appeal. Dai, 884 F.3d
at 869 (“A provision that applies ‘on appeal’ therefore does not apply
to our review, but solely to the BIA’s review on appeal from the IJ’s
decision.”). According to the majority’s logic, this gives us carte
blanche to adopt whatever rule we want on the evidence an IJ must
(and must not) credit.

134a
reasonable adjudicator would be compelled to conclude
to the contrary.” 8 U.S.C. § 1252(b)(4)(B). “[T]he law
is that ‘[t]o reverse the BIA finding we must find that
the evidence not only supports that conclusion, but compels it.’ ” Aden, 589 F.3d at 1046 (quoting INS v. EliasZacarias, 502 U.S. 478, 481 n.1 (1992)). The majority’s
holding cannot be squared with the limited nature of our
review of the agency’s decision.
Second, the majority’s revival of the “deemed true”
rule nullifies the statutory provision that, “[i]n determining whether the applicant has met the applicant’s
burden, the trier of fact may weigh the credible testimony along with other evidence of record.” 8 U.S.C.
§ 1158(b)(1)(B)(ii). We have held that this provision
means that an “IJ need not accept [credible] testimony
as true.” Aden, 589 F.3d 1044. If credible testimony
must be accepted as true, there would be nothing for the
trier of fact to “weigh.” See Doe v. Holder, 651 F.3d
824, 830 (8th Cir. 2011) (“Congress thus rejected a rule
that ‘credible’ testimony necessarily means that the
facts asserted in that testimony must be accepted as
true.” (citing Aden, 589 F.3d at 1045)). 7

To be clear, the panel majority held that absent an adverse credibility ruling, the trier of fact must disregard any evidence that
would call into question the applicant’s credibility. See Dai, 884
F.3d at 872 (“Credibility concerns that do not justify an adverse
credibility finding cannot be smuggled into the persuasiveness inquiry so as to undermine the finding of credibility we are required
to afford Dai’s testimony.”). There is no meaningful difference between this holding and a suggestion that credible testimony must be
accepted as true.
7

135a
B.
In addition to contravening the language and intent
of the REAL ID Act, the panel’s decision squarely conflicts with our own precedent and every other circuit to
address the issue.
The panel’s decision is contrary to Aden’s clear
acknowledgement that the REAL ID Act abrogated our
“deemed true” rule. The decision is also at odds with
Singh v. Holder, 753 F.3d 826 (9th Cir. 2014). In
Singh, we held that the agency did not err in discounting
the petitioner’s credible evidence that the police were
looking for him, when weighed against country reports
that stated that the police no longer targeted Sikh activists like the petitioner. Singh, 753 F.3d at 836. We
recognized that “there is a difference between an adverse credibility determination, on the one hand, and a
decision concerning how to weigh conflicting evidence,
on the other hand.” Id. We emphasized that, even in
the absence of a credibility ruling, the immigration
judge was required to weigh the persuasiveness of the
testimony against the record as a whole. Id.
In Doe, the Eighth Circuit held that an applicant’s inability to provide important details and key dates—
information the immigration judge identified as “damaging to [Doe’s] credibility,” but without making an “explicit” adverse credibility finding—was sufficient to support the BIA’s conclusion that his testimony was unpersuasive. Doe, 651 F.3d at 829-30 (alteration in original). The court relied in part on our decision in Aden
for the proposition that testimony may be “credible”
without being persuasive, and thus need not be “accepted as true.” Id. at 830.

136a
Similarly, the First Circuit has rejected the notion
that a reviewing court is bound “to accept a petitioner’s
statements as fact whenever an IJ simply has not made
an express adverse credibility determination.” Kho v.
Keisler, 505 F.3d 50, 56 (1st Cir. 2007). The Tenth Circuit likewise held that the agency was free to “discount”
the applicant’s testimony based on “gaps” in his story,
even though there was no adverse credibility ruling.
Gutierrez-Orozco v. Lynch, 810 F.3d 1243, 1246 (10th
Cir. 2016) (citing Aden, 589 F.3d at 1044-45).
The panel’s holding splits with Aden and places us
again at a table of one when it comes to interpreting the
standards applicable to the agency’s determination of
asylum eligibility.
C.
The panel majority’s rule also ignores the common
sense reality that triers of fact may—and frequently
do—decide factual issues against a party without affirmatively finding that party not credible. Opposing parties who present conflicting factual accounts might both
be credible even if only one party’s version is true. 8
And even if a witness’s testimony is treated as “honest
or ‘credible,’ ” the “inability to provide important details
and key dates” may render “the testimony unpersuasive
in establishing a likelihood of torture.” Doe, 651 F.3d
at 830.

As we stated in Aden, “[a]pparently honest people may not always be telling the truth, apparently dishonest people may be telling
the absolute truth, and truthful people may be honestly mistaken
or relying on unreliable evidence or inference themselves.” Aden,
589 F.3d at 1045.
8

137a
Indeed, we regularly require that juries decide between competing versions of the “facts” and we do not suggest that one perspective can be discounted only if the witness is not believable (i.e., not credible). The REAL ID
Act recognizes this reality when it commands the trier of
fact to “weigh the credible testimony along with other evidence of record.” 8 U.S.C. § 1158(b)(1)(B)(ii). A rule
that bars an IJ from questioning the persuasiveness of
a witness’s testimony unless the witness is affirmatively
found to be not credible ignores the realities of factfinding.
The panel’s holding here defies common sense for another reason. The evidence that the IJ and the BIA
found to weigh against asylum eligibility was Dai’s own
testimony. As Judge Trott pointed out, the agency
thus credited Dai’s admissions that tended to undercut
his claim. It makes no sense to say that the IJ is powerless to credit unfavorable testimony given by an applicant unless the IJ expressly finds the applicant not credible.
This case is an instance of our court “promulgat[ing]
rules that tend to obscure [the proper] standard and to
flummox immigration judges.” Jibril, 423 F.3d at
1138. By essentially forcing IJs to make an express adverse credibility finding whenever they do not accept an
applicant’s proffered reasons as the whole truth, the
panel’s holding calls into question virtually every IJ decision denying a claim for asylum that lacks an explicit
adverse credibility finding. Cf. Morgan v. Holder,
634 F.3d 53, 57 (1st Cir. 2011) (declining to require a
“gratuitous credibility determination” when the IJ’s decision was premised on the petitioner’s “failure to carry
his burden of proof ”). With all of the cases we see that

138a
are adjudicated at the asylum eligibility stage, the impact of the panel’s holding will be far-reaching.
D.
The panel’s revival of the “deemed true” rule effectively strips the agency of its factfinding role, allowing
us to take that role for ourselves. Indeed, that is exactly what the panel did here. After “wip[ing] the record clean of everything identified by the IJ and the BIA
as problematic,” see Dai, 916 F.3d at 748 (Trott, J., dissenting), the majority stepped into the void created by
its new rule and weighed for itself the persuasiveness of
Dai’s testimony. “[T]aking into account the record as
a whole,” the majority concluded, “nothing undermines
the persuasiveness of Dai’s credible testimony.” Dai,
884 F.3d at 871. 9 That is not our role.
In addition to creating a rule that conflicts with the
statute and precedent, the panel compounded its error
by failing to remand to allow the agency the first shot at
applying the majority’s new rule against “smuggl[ing]”
credibility concerns “into the persuasiveness inquiry,”
see Dai, 884 F3d. at 872. The Supreme Court has summarily reversed us on multiple occasions for making this
very error. See, e.g., Thomas, 547 U.S. at 187; Ventura, 537 U.S. at 18.
In Ventura, a panel of our court took it upon itself to
consider (and reject) the government’s factual argument
that had been accepted by the IJ but not ruled on by the
When the panel majority quoted the statute’s requirement of
persuasiveness, it left out the part that an asylum applicant must
“satisf [y] the trier of fact that the applicant’s testimony is . . .
persuasive,” 8 U.S.C. § 1158(b)(1)(B)(ii) (emphasis added). See
Dai, 884 F.3d at 867.
9

139a
BIA. Ventura, 537 U.S. at 13-14. The Supreme Court
concluded that “well-established principles of administrative law” required a remand to the agency:
Within broad limits the law entrusts the agency to
make the basic asylum eligibility decision here in
question. In such circumstances a ‘judicial judgment cannot be made to do service for an administrative judgment.’ Nor can an ‘appellate court . . .
intrude upon the domain which Congress has exclusively entrusted to an administrative agency.’ ”
Id. at 16 (citations omitted) (quoting Chenery Corp.,
318 U.S. at 88). In summarily reversing us, the Court
stated that we “committed clear error,” “seriously disregarded the agency’s legally mandated role,” and “created potentially far-reaching legal precedent
. . .
without giving the BIA the opportunity to address the
matter in the first instance in light of its own expertise.”
Id. at 17.
The clear, unanimous reversal in Ventura should
have been enough, but, as Judge Trott put it, “old ways
die hard.” Dai, 916 F.3d at 737 (Trott, J., dissenting).
Just two years later, we repeated our error in Thomas,
only this time we were sitting en banc when we adopted
a new rule and applied it to the case without allowing
the agency to consider the question. Thomas, 547 U.S.
at 184. The Supreme Court agreed with the Solicitor
General that not only was our failure to remand erroneous, our error was “obvious in light of Ventura.” Id. at
185.
Setting aside for the moment the problems with the
majority’s new rule, the panel should have remanded to

140a
allow the agency an opportunity to determine Dai’s eligibility for asylum within the new constraints imposed
by the panel’s decision.
III.
The panel’s insistence that an IJ must accept an applicant’s favorable testimony as the whole truth, unless
the IJ makes an explicit adverse credibility finding, is
contrary to our limited scope of review under the REAL
ID Act, contrary to precedent (from both our court and
other circuits), contrary to reality, and just plain wrong.
And in directing the agency to grant withholding of removal and treat Dai as eligible for asylum, rather than
allowing the agency to apply the panel’s new rule, the
panel disregarded the Supreme Court’s repeated admonishment against our seizing the role statutorily
given to the agency.
I respectfully dissent from the denial of rehearing en
banc.
O’SCANNLAIN and TROTT, Senior Circuit Judges, respecting the denial of rehearing en banc:
We agree with the views expressed by Judge Callahan in her dissent from the denial of rehearing en banc.
COLLINS, Circuit Judge, with whom BYBEE, BEA,
IKUTA, BENNETT, R. NELSON, and BADE, Circuit
Judges, join, dissenting from the denial of rehearing en
banc:
I agree with Judge Callahan that the panel majority’s
opinion effectively revives, for a potentially wide swath
of cases, this court’s discredited prior rule that when an

141a
alien seeking asylum is either found or deemed to have
testified credibly to certain facts, those facts will be conclusively deemed to be true. As Judge Callahan persuasively explains, the panel majority’s effective revival
of this previously disavowed “deemed-true” rule contravenes controlling statutory language, the precedent of
this court, the decisions of other circuits, and common
sense. I therefore join in full her dissent from the order denying rehearing en banc.
In my view, however, the problems with the panel
majority’s opinion run even deeper, thereby greatly
augmenting the potential damage that may flow from its
flawed decision. Specifically, the panel majority commits a further serious legal error, and reinforces a circuit split, in holding that the REAL ID Act does not abrogate a second rule that we have applied in asylum
cases—namely, the rule that unless the agency has
made an explicit finding that the applicant’s testimony
is not credible, this court will conclusively presume that
testimony to be credible. As this case well illustrates,
we have inflexibly applied this conclusive presumption
as, in effect, a “Simon says” rule: even where (as here)
the record overwhelmingly confirms that the agency actually disbelieved critical portions of the applicant’s testimony, we will nonetheless conclusively treat that testimony as credible if the agency did not make an explicit
adverse credibility determination. The panel majority’s reaffirmation of this unwarranted “deemedcredible” rule thus perpetuates a regime in which—unlike other circuits—this court misreads the evidentiary
record in asylum cases through the truth-distorting lens
of counterfactual conclusive presumptions. In doing
so, the panel majority defies Congress’s elimination of

142a
the deemed-credible rule in the REAL ID Act, which expressly replaces that rule’s conclusive presumption of
credibility with (at most) a “rebuttable presumption of
credibility.” 8 U.S.C. § 1158(b)(1)(B)(iii) (emphasis
added). But the panel majority here slips the Act’s
bonds, and we have abetted that escape by failing to take
this case en banc. I respectfully dissent.
I.
In reviewing whether substantial evidence supports
the agency’s factual findings in asylum cases, this court
has long employed a variety of “rules that tend to obscure” what should be a clear and deferential standard
of review. Jibril v. Gonzales, 423 F.3d 1129, 1138 (9th
Cir. 2005). Among those rules are a pair of presumptions about how to read the record in asylum cases—
namely, our deemed-credible rule and our deemed-true
rule. Under our traditional deemed-credible rule, both
this court and the Board of Immigration Appeals
(“BIA”) were required to apply a conclusive presumption that an applicant was credible unless the Immigration Judge (“IJ”) made an explicit adverse credibility
finding. See, e.g., Dai v. Sessions, 884 F.3d 858, 868
(9th Cir. 2018) (“Prior to the REAL ID Act, we held that
in the absence of an explicit adverse credibility finding
by the IJ or the BIA we are required to treat the petitioner’s testimony as credible.”); She v. Holder, 629 F.3d
958, 964 (9th Cir. 2010) (“Absent an adverse credibility
finding, the BIA is required to ‘presume the petitioner’s
Under our further
testimony to be credible.’ ”).
deemed-true rule, the facts recited in testimony found
to be credible—or presumed to be credible by virtue of
our deemed-credible rule—would then in turn be taken
as true. See, e.g., Kataria v. INS, 232 F.3d 1107, 1114

143a
(9th Cir. 2000) (“In the absence of an explicit adverse
credibility finding, we must assume that Kataria’s factual contentions are true.”); Yazitchian v. INS, 207 F.3d
1164, 1168 (9th Cir. 2000) (“Because the immigration
judge found the Yazitchians’ testimony credible, and the
BIA did not make a contrary finding, we must accept as
undisputed the facts as petitioners testified to them.”).
By requiring the application of potentially counterfactual conclusive presumptions, these rules create an
obvious risk of seriously distorting appellate review of
the factual record. Thus, under our deemed-credible
rule, no matter how clear it might be from the overall
record that the IJ in fact disbelieved portions of the petitioner’s testimony, that obvious disbelief must be ignored if the IJ did not explicitly state that the IJ disbelieved that testimony. In turn, under our deemed-true
rule, the facts recited in that now-deemed-credible testimony then have to be taken as true.
This case well illustrates the truth-distorting effect
of applying these conclusive presumptions. As both
the BIA and the IJ explained, Dai’s claim that his wife’s
forced abortion in China caused him to have a wellfounded fear of persecution (thereby rendering him eligible for asylum) was severely undercut by the fact that
his wife and daughter had not stayed with him in the
United States but had voluntarily returned to China—a
critical fact that Dai had initially attempted to conceal.
Dai v. Barr, 916 F.3d 731, 738-42, 746-47 (9th Cir. 2018)
(Trott, J., dissenting) (reproducing relevant portions of
the IJ’s and BIA’s decisions). 1 As Judge Trott’s panel
At the time Judge Trott filed his amended panel dissent, the case
caption had changed to reflect the corresponding change in Attorney
1

144a
dissent explains in detail, the IJ made eight specific
findings concerning Dai’s statements about his wife’s
and daughter’s voluntary return from the United States
and about Dai’s motivations for staying in this country,
and those detailed findings are flatly incompatible with
the view that the IJ credited all of Dai’s statements.
Id. at 732. Because the record amply confirms that the
IJ obviously (even if not explicitly) disbelieved certain
of Dai’s statements about his family’s return, the BIA
properly construed the IJ’s findings as establishing that
Dai had “ ‘not be[en] truthful’ ” about his “ ‘family voluntarily returning.’ ” Id. at 747 (quoting BIA decision)
(emphasis added by Judge Trott). Put another way, a
review of the record confirms that any presumption that
the IJ found Dai’s core statements to be credible has
been overwhelmingly rebutted. Nonetheless, because
the IJ did not explicitly find Dai’s testimony not to be
credible, the panel majority invokes a counterfactual
conclusive presumption of credibility—and in doing so,
it “expunge[s] from the record the blatant flaws in Dai’s
performance involving demeanor, candor, and responsiveness” and “disregard[s] inaccuracies, inconsistencies, and implausibilities in his story, and his barefaced
attempt to cover up the truth about his wife’s and daughter’s travels and situation.” Id. Moreover, by holding
that “[c]redibility concerns that do not justify an adverse credibility finding cannot be smuggled into the
persuasiveness inquiry so as to undermine the finding of
credibility” required by the deemed-credible rule, see
884 F.3d at 872, the panel majority effectively requires

General since the earlier filing of the panel opinion.
App. P. 43(c)(2).

See Fed. R.

145a
that this deemed-credible testimony must also be
deemed true. See Judge Callahan’s Dissent at 30.
The REAL ID Act sought to eliminate our use of such
truth-distorting conclusive presumptions. Indeed, we
have previously recognized that the REAL ID Act indisputably “swept away” our deemed-true rule, Aden v.
Holder, 589 F.3d 1040, 1045 (9th Cir. 2009), and the
panel majority’s opinion does not expressly dispute that
point. Instead, as Judge Callahan explains, the panel
majority effectively revives the deemed-true rule, as a
practical matter, by improperly “limit[ing] the evidence
an IJ can consider” in determining whether an alien’s
credible testimony is sufficiently persuasive, in light of
the record as a whole, to carry the alien’s burden of
proof. See Judge Callahan’s Dissent at 28; see also
8 U.S.C. § 1158(b)(1)(B)(ii) (asylum applicant’s testimony may be sufficient to carry burden of proof if it “is
credible, is persuasive, and refers to specific facts sufficient to demonstrate that the applicant is a refugee”)
(emphasis added).
As to the deemed-credible rule, the panel majority itself acknowledges that the REAL ID Act frees the BIA
from having to follow that rule’s conclusive presumption, “so that the BIA [now] must only afford ‘a rebuttable presumption of credibility’ when the IJ does not
make an adverse credibility finding.” Dai, 884 F.3d
at 868 n.8 (citation omitted); see also 8 U.S.C.
§ 1158(b)(1)(B)(iii) (“if no adverse credibility determination is explicitly made, the applicant or witness shall
have a rebuttable presumption of credibility on appeal”).
Nonetheless, the panel majority insists that the REAL
ID Act preserves the deemed-credible rule’s conclusive
presumption in this court. 884 F.3d at 868-69. As a

146a
result, the panel majority reasoned that if the IJ does
not make an explicit adverse credibility determination
and the BIA does not explicitly determine that the resulting presumption of credibility on appeal has been rebutted, then this court must conclusively presume the
petitioner’s testimony to be credible. Id. at 869-70.
Concluding that “neither the IJ nor the BIA made an adverse credibility determination in Dai’s case,” the panel
majority held that the deemed-credible rule applies and
that this court therefore “must treat his testimony as
credible.” Id. at 870.
In my view, the panel majority’s invocation of the
deemed-credible rule rests on two critical legal errors,
and we should have taken this case en banc to correct
and clarify the governing principles in this vital area of
the law.
II.
First, even if the panel majority were correct in concluding that “neither the IJ nor the BIA made an adverse credibility determination,” Dai, 884 F.3d at 870;
but see infra at 48-51, the REAL ID Act expressly prohibits this court from then applying a conclusive presumption of credibility. Instead, in reviewing the record, we would at most apply a rebuttable presumption of
credibility—and here the facts found by the IJ overwhelmingly rebut any presumption that the IJ believed
Dai’s statements concerning his family’s return to
China. See Dai, 916 F.3d at 747 (Trott, J., dissenting)
(“Simply because the IJ did not say ‘I find Dai not credible’ but opted instead to expose the glaring factual deficiencies in Dai’s presentation and to explain in specific
detail and at length why Dai had not persuasively carried his burden,” the majority wrongly holds that “we

147a
must selectively embrace [his testimony] as persuasive.
. . . ”).
A.
Section 208(b)(1)(B) of the Immigration and Nationality Act (“INA”), as added by section 101(a)(3) of the
REAL ID Act of 2005, Pub. L. 109-13, Div. B, 119 Stat.
302, 303 (2005), directly addresses the questions of
whether and when a presumption of credibility should
be applied in reviewing an application for asylum. Specifically, subsection 208(b)(1)(B)(iii) provides, in relevant part, as follows:
There is no presumption of credibility, however, if no
adverse credibility determination is explicitly made,
the applicant or witness shall have a rebuttable presumption of credibility on appeal.
8 U.S.C. § 1158(b)(1)(B)(iii). There is an obvious scrivener’s error in this run-on sentence (the first comma should
have been a semi-colon), but the effect of its “however”
clause is nonetheless clear: it abrogates our deemedcredible rule’s conclusive presumption of credibility and
replaces it with only a “rebuttable presumption of credibility.” Id. (emphasis added). As noted earlier, see
supra at 38, under our pre-REAL ID Act case law, “in
the absence of an explicit adverse credibility finding” by
the IJ, both the BIA and this court were “required to
treat the petitioner’s testimony as credible.” Dai,
884 F.3d at 868. But after the REAL ID Act’s amendments, the IJ’s failure to make an explicit adverse credibility determination gives rise only to a rebuttable presumption that the IJ found the applicant’s testimony to
be credible. Thus, if a review of the record otherwise

148a
makes clear that (despite the lack of an express credibility determination) the IJ did not believe certain aspects
of the applicant’s statements, the “presumption of credibility on appeal” is rebutted, and the BIA and this court
no longer need to close their eyes to that fact and no
longer need to pretend that the IJ found the testimony
credible.
The panel majority conceded that this statutory language abrogates our deemed-credible rule and replaces
it with a “ ‘rebuttable presumption of credibility on
appeal,’ ” Dai, 884 F.3d at 868 (quoting 8 U.S.C.
§ 1158(b)(1)(B)(iii)), but the majority holds that this provision “applies only to appeals to the BIA, not to petitions for review in our court,” id. (emphasis added); see
also id. at 868 n.8. That is true, the panel majority concludes, because the rebuttable presumption applies by
its terms only “on appeal,” 8 U.S.C. § 1158(b)(1)(B)(iii),
and (unlike the BIA) we exercise review in immigration
cases by way of a “petition for review” under section
242(a)(5) of the INA, 8 U.S.C. § 1252(a)(5), and not by
way of an “appeal.” 884 F.3d at 869 (noting the formal
differences between a “petition for review” and an “appeal”). Because, according to the panel majority, the
BIA here failed to invoke the REAL ID Act’s rebuttable
presumption to determine that any aspect of Dai’s testimony was not credible, but see infra at 48-51, this court
is required to adhere to our deemed-credible rule and to
conclusively presume that Dai’s testimony is credible.
This argument fails, because the panel majority’s
sharp distinction between a “petition for review” and an
“appeal” is refuted by the very statutory provision on
which the majority relies. Section 242 of the INA does
in fact state that our review of removal orders is by

149a
means of a “petition for review,” 8 U.S.C. § 1252(a)(5),
but elsewhere in that very same section, the resulting
proceeding in this court is expressly referred to as an
“appeal.” See 8 U.S.C. § 1252(b)(3)(C) (stating that, if
the alien fails to file a brief in support of the “petition
for judicial review,” then “the court shall dismiss the appeal”) (emphasis added). Given that the judicial-review provision on which the panel majority relies itself
expressly refers to a “petition for review” as giving rise
to an “appeal,” there is no textual basis for the panel majority’s conclusion that the reference to an “appeal” in
section 208(b)(1)(B)(iii) excludes a “petition for review.”
See Pereira v. Sessions, 138 S. Ct. 2105, 2115 (2018) (reaffirming, and applying to the INA, the “ ‘normal rule of
statutory construction that identical words used in different parts of the same act are intended to have the
same meaning’ ”) (citation omitted). Moreover, applying section 208(b)(1)(B)(iii)’s “rebuttable presumption of
credibility on appeal” to both the BIA and the courts of
appeals is consistent with the ordinary meaning of the
phrase “on appeal,” which refers to the process of appellate review, without regard to whether such review is
formally denominated as an “appeal.” See Dai, 916 F.3d
at 735 (Trott, J., dissenting) (“[T]he issue is one of function, not of form or labels.”). Congress’s explicit abrogation of the deemed-credible rule thus extends to this
court.
Contrary to the panel majority’s view, the abrogation
of the deemed-credible rule in this court, and its replacement with a rebuttable presumption of credibility, would
not intrude on the agency’s factfinding role. See Dai,
884 F.3d at 874 & n.14. As applied on appeal, the
REAL ID Act’s rebuttable presumption provides a rule
about how to read the record of the IJ’s factfinding: if

150a
no express adverse credibility determination was made
by the IJ, we should presume that the IJ found the applicant’s statements credible unless (as here) the findings as a whole nonetheless confirm that certain statements were disbelieved by the IJ. The rebuttable presumption is thus not a license for the BIA or this court
to engage in factfinding. Cf. 8 C.F.R. § 1003.1(d)(3)(iv)
(“Except for taking administrative notice of commonly
known facts such as current events or the contents of
official documents, the Board will not engage in factfinding in the course of deciding appeals.”). Instead, it is
an instruction to stop reading IJ decisions through the
distorted lens of our deemed-credible rule. In fact, it
is the panel majority’s adherence to the deemed-credible rule’s irrebuttable presumption of credibility that
usurps the agency’s authority. As this case well illustrates, the effect of that rule is to require the Court automatically to accept as credible statements that the IJ
plainly disbelieved. See 916 F.3d at 747 (Trott, J., dissenting).
B.
But even if the panel majority were correct that the
REAL ID Act’s “rebuttable presumption” of credibility
does not apply to petitions for review in this court, that
would not have the consequence of preserving the
deemed-credible rule. On the contrary, it would have
the opposite effect: it would mean that no presumption
of credibility applies in this court.
The panel majority overlooks the full language of the
last sentence of section 208(b)(1)(B)(iii), which (1) establishes a general rule that “[t]here is no presumption of
credibility” at all, and (2) then carves out an exception
under which a rebuttable presumption of credibility will

151a
apply “on appeal” if “no adverse credibility determination is explicitly made.” 8 U.S.C. § 1158(b)(1)(B)(iii).
Indeed, this sentence of the REAL ID Act previously
contained only the initial language eliminating entirely
any presumption of credibility, see 151 Cong. Rec. H53637 (daily ed. Feb. 10, 2005) (reproducing text of H.R.
418, as considered by the House); the exception to that
general rule was later added by a House-Senate conference committee before final passage, see H.R. Conf.
Rep. No. 109-72, at 73-74 (2005); see also id. at 168, reprinted in 2005 U.S.C.C.A.N. 240, 293. Accordingly, if
the panel majority is correct that the “rebuttable presumption” exception does not apply in this court, then
the result would be that the default general rule applies
instead—i.e., that “[t]here is no presumption of credibility” in this court. That would abrogate the deemedcredible rule completely, and it would mean that this
court would not use any presumption of credibility (rebuttable or irrebuttable) in conducting its otherwise deferential review of the agency’s decision. See Huang v.
Holder, 744 F.3d 1149, 1153 (9th Cir. 2014).
Notably, such a reading of section 208(b)(1)(B)(iii)
would bring our approach to review in line with that of
the First Circuit, which has “rejected the proposition
that aliens are entitled to a presumption of credibility on
review in this court if there is no express credibility determination made by an IJ.” Kho v. Keisler, 505 F.3d
50, 56 (1st Cir. 2007); see also Zeru v. Gonzales, 503 F.3d
59, 73 (1st Cir. 2007) (“There is no presumption that an
alien seeking refugee status is credible. Nor is there
an assumption that if the IJ has not made an express
finding of non-credibility, the alien’s testimony must be
taken as credible.”). Although Kho agrees with the

152a
panel majority’s conclusion that the REAL ID Act’s rebuttable presumption of credibility does not apply in the
courts of appeals, see 505 F.3d at 56—a conclusion I
think is wrong for the reasons stated above—the First
Circuit reached that conclusion only in the course of rejecting the petitioner’s contention that the REAL ID
Act required the First Circuit to replace its rule of no
presumption of credibility with a rebuttable presumption. See id. at 56-57. The resulting First Circuit
position—that no presumption of credibility applies—
conflicts with our continued adherence to the deemedcredible rule, thereby confirming a circuit split. Moreover, unlike our deemed-credible rule, the First Circuit’s no-presumption rule is at least consistent with the
default rule that would apply under the REAL ID Act if
the First Circuit and the panel majority were correct in
holding that the rebuttable-presumption exception does
not apply in the courts of appeals.
See 8 U.S.C.
§ 1158(b)(1)(B)(iii) (“There is no presumption of credibility. . . . ”).
III.
Second, the panel majority committed a wholly separate legal error in declining to give effect to the BIA’s
express conclusion that, given the IJ’s detailed findings,
Dai had not been truthful concerning his family’s return
to China.
While agreeing that the IJ had not made an “explicit
adverse credibility finding,” the BIA here went on to
note that the IJ’s detailed findings established that Dai
had not been “truthful” about his “family voluntarily returning” to China. Dai, 916 F.3d at 747 (Trott, J., dissenting) (reproducing BIA decision). In thus correctly

153a
recognizing that the IJ’s findings precluded any suggestion that the IJ found these aspects of Dai’s statements
credible, the BIA did not engage in its own factfinding,
but instead properly read the record of the IJ’s findings
in accord with the applicable rebuttable presumption of
credibility. 8 U.S.C. § 1158(b)(1)(B)(iii); cf. 8 C.F.R.
§ 1003.1(d)(3)(iv) (BIA does not engage in independent
factfinding). 2 Although the BIA did not expressly invoke that rebuttable presumption, its analysis in construing the IJ’s findings reflects precisely what the
REAL ID Act authorizes the BIA to do. In turn, the
resulting express adverse credibility determination that
is properly recited in the BIA’s decision should have
precluded the panel majority from invoking the deemedThroughout its opinion, the panel majority uses imprecise language that could be misread to suggest that, under the REAL ID
Act, the BIA has independent authority to make an adverse “finding” of credibility that the IJ did not make. See, e.g., Dai, 884 F.3d
at 863 (“We think it not too much to ask of IJs and the BIA that they
make an explicit adverse credibility finding”) (emphasis added); id.
at 865 (“The BIA acknowledged that the IJ did not make an adverse
credibility finding and also did not make one itself.”) (emphasis
added); id. at 867 (noting that the BIA “also made no adverse credibility finding”) (emphasis added); id. at 869 (deemed-credible rule
applies “when the BIA has on appeal neither affirmed an adverse
credibility finding made by the IJ nor made its own finding after
deeming the presumption of credibility rebutted”) (emphasis
added). Given that only the IJ engages in factual finding, and not
the BIA, see 8 C.F.R. § 1003.1(d)(3)(iv), I construe these comments
by the panel majority to instead be referring only to the BIA’s explicit authority under the REAL ID Act to determine that the record
rebuts the presumption that the IJ found the applicant credible. To
avoid any suggestion that the BIA is itself engaging in independent
factfinding, I will refer in this dissent to the BIA’s “determination”
concerning what the IJ’s findings show about the applicant’s credibility.
2

154a
credible rule even on that rule’s own terms. Cf. Tijani
v. Holder, 628 F.3d 1071, 1080 (9th Cir. 2010) (so long as
the finding is “explicit,” an “adverse credibility finding
does not require the recitation of a particular formula”).
The panel majority nonetheless refused to give effect
to the BIA’s explicit determination that the record established that Dai had not been truthful, and it therefore
proceeded to apply the deemed-credible rule. The
panel majority gave several reasons for doing so, but all
of them are flawed.
First, the panel majority wrongly dismissed the
BIA’s determination as the “ ‘sort of passing statement
[that] does not constitute an adverse credibility finding.’ ” Dai, 884 F.3d at 867 (quoting Kaur v. Holder,
561 F.3d 957, 962-63 (9th Cir. 2009)) (emphasis added).
As Judge Trott’s dissent makes clear, the BIA’s express
adverse credibility determination on this point was not
a “passing” one—it related directly to the central issue
of why Dai sought to remain in the United States, and it
refuted his claim that he had a well-founded fear of persecution if he returned to China. See Dai, 916 F.3d at
747-48 (Trott, J., dissenting). For the same reasons,
the panel majority is equally wrong in its assertion that
Dai’s untruthfulness related only to a “tangential point.”
Dai, 884 F.3d at 873.
The panel majority’s citation of Kaur only highlights
its error on this score. In Kaur, we held that the BIA
erred when it invoked the IJ’s vague and passing comment that “there are certain instances where this court
does not find the Applicants’ testimony to be credible”
in order to overturn the IJ’s explicit “affirmative credibility finding” as to one of the two Applicants—i.e.,
Kaur. 561 F.3d at 962-63; see also id. at 962 (noting

155a
that the IJ had found that Kaur was “a convincing witness” with a “credible demeanor” and whose “testimony
was detailed, consistent and plausible”). As we explained, the IJ’s “passing” and “selected reference” was
“not even specific to Kaur” and could not properly be
read to “undermine or detract” from the specific and detailed “positive credibility finding” as to Kaur. Id. at
963; see also id. (“From this truncated reference, one
would be hard pressed to identify any basis for finding a
lack of credibility as the IJ identified none.”). Here, in
sharp contrast to Kaur, (1) the BIA did not overturn an
express finding of credibility by the IJ; and (2) the BIA
made a specific determination that the IJ’s findings established that Dai was not credible as to a particular
point.
Second, the panel majority alternatively stated that
the BIA’s determination that Dai had “lied about one
particular fact” could be disregarded because it did not
amount to a “general adverse credibility finding.” Dai,
884 F.3d at 867 (emphasis added). That is plainly incorrect, and the implications of such a rule would be
quite troubling. The normal rule in any adjudication is
that a trier of fact may believe or disbelieve a witness’s
testimony in whole or in part, see, e.g., Li v. Holder,
738 F.3d 1160, 1163 (9th Cir. 2013), and there is no basis
for adopting, in the immigration context, the distinctive
(and illogical) rule that credibility must be determined
on a “general” basis. Cf. Toufighi v. Mukasey, 538 F.3d
988, 994-95 (9th Cir. 2008) (although, as the applicant
noted, “the IJ found him generally credible,” this court
concluded “that the IJ did make an express adverse
credibility determination” as to the specific issue of his
“claim that he converted to Christianity”). In support
of its position, the panel majority pointed to authority

156a
holding that a vague and tentative statement “ ‘that a petitioner is “not entirely credible” is not enough’ to constitute an adverse credibility finding,” Dai, 884 F.3d at
867 (quoting Aguilera-Cota v. INS, 914 F.2d 1375, 1383
(9th Cir. 1990)) (emphasis added), but here the BIA’s
adverse credibility determination was explicit, direct,
and specific. Accordingly, nothing in Aguilera-Cota supports the panel majority’s novel suggestion that a partial finding of untruthfulness is inadequate, and that
only a “general adverse credibility finding” will do.
(And if Aguilera-Cota had adopted that view, then we
should overrule that case en banc as well.)
Moreover, by failing to give effect to the BIA’s explicit determination that the record revealed Dai’s partial lack of truthfulness, the panel majority effectively
created yet another flawed “Simon says” rule, in addition to our deemed-credible rule. Under the panel majority’s decision, the BIA’s failure to expressly state that
it was invoking the REAL ID Act’s rebuttable presumption in this case means that this court should act as if the
BIA had not done so. The panel majority erred by yet
again devising counterfactual presumptions that distort
our reading of the administrative record on appeal.
* * *
Given that we have eschewed a magic-words approach to explicit credibility determinations, the BIA’s
express statement that Dai was not “truthful” was a permissible application of the REAL ID Act’s rebuttable
presumption of credibility, and that statement is sufficiently explicit to preclude application of the deemedcredible rule on its own terms. But more importantly,
the REAL ID Act expressly abrogates the deemed-

157a
credible rule entirely and replaces it with, at most, a rebuttable presumption of credibility. And here, any
presumption that the IJ actually believed Dai’s statements about his family’s voluntary return has been amply rebutted. Our persistence in applying an irrebuttable presumption that is at odds with the statute and at
odds with a common-sense reading of this record is
deeply troubling and warrants en banc review.
I respectfully dissent from the denial of rehearing en
banc.

158a
APPENDIX D
U.S. Department of Justice

Executive Office for Immigration Review
Board of Immigration Appeals
Office of the Clerk
5107 Leesburg Pike, Suite 2000
Falls Church, Virginia 20530
Su, David Z., Esq.
Law Office of David Z. Su.
100 N. Citrus Street., Suite 615
West Covina, CA 91791
DHS/ICE Office of Chief Counsel—SFR
P.O. Box 26449
San Francisco, CA 94126-6449
Name:

DAI, MING A

205-555-836
Date of this notice: 2/24/2015

Enclosed is a copy of the Boards decision and order in
the above-referenced case.
Sincerely,
/s/

DONNA CARR
DONNA CARR
Chief Clerk

159a
Enclosure
Panel Members:
Malphrus, Garry D.
Creppy, Michael J.
Mullane, Hugh G.
Userteam:

Docket

160a
U.S. Department of Justice

Executive Office for Immigration Review
Board of Immigration Appeals
Office of the Clerk
5107 Leesburg Pike, Suite 2000
Falls Church, Virginia 20530

DAI, MING
34582 CALCUTTA DRIVE
FREMONT, CA 94555-0000
DHS/ICE Office of Chief Counsel—SFR
P.O. Box 26449
San Francisco, CA 94126-6449
Name:

DAI, MING

A 205-555-836
Date of this notice: 2/24/2015

Enclosed is a copy of the Board’s decision in the abovereferenced case. This copy is being provided to you as a
courtesy. Your attorney or representative has been
served with this decision pursuant to 8 C.F.R. § 1292.5(a).
If the attached decision orders that you be removed from
the United States or affirms an Immigration Judge’s decision ordering that you be removed, any petition for review of the attached decision must be filed with and received by the appropriate court of appeals within 30
days of the date of the decision.

161a
Sincerely,
/s/

DONNA CARR
DONNA CARR
Chief Clerk

Enclosure
Panel Members:
Malphrus, Garry D.
Creppy, Michael J.
Mullane, Hugh G.

Userteam

162a
U.S. Department of Justice

Executive Office for
Immigration Review

Decision of the Board
of Immigration Appeals

Falls Church, Virginia 20530
Date:
File:
In re:

[Feb. 24, 2015]

A205 555 836 — San Francisco, CA
MING DAI

IN REMOVAL PROCEEDINGS
APPEAL
ON BEHALF OF RESPONDENT: David Z. Su, Esquire
CHARGE:
Notice:

Sec. 237(a)(1)(B), I&N Act [8 U.S.C.
§ 1227(a)(1)(B)] — In the United
States in violation of law

APPLICATION: Asylum; withholding of removal;
Convention Against Torture
The respondent appeals from the Immigration
Judge’s February 22, 2013, decision denying his applications for asylum, withholding of removal, and protection
under the Convention Against Torture (“CAT”). Sections 208(b)(1)(A), 241(b)(3)(A) of the Immigration and
Nationality Act, 8 U.S.C. §§ 1158(b)(1)(A), 1231(b)(3)(A);
8 C.F.R. §§ 1208.13, 1208.16-1208.18. We will dismiss
the respondent’s appeal.
We review for clear error the findings of fact, including determinations of credibility, made by the Immigration Judge. 8 C.F.R. § 1003.1(d)(3)(i). We review de
novo all other issues, including whether the parties have

163a
met the relevant burden of proof, and issues of discretion. 8 C.F.R. § 1003.1(d)(3)(ii). The respondent filed
his application for asylum after May 11, 2005, and thus
review is governed by the REAL ID Act of 2005.
We adopt and affirm the Immigration Judge’s decision in this case. The Immigration Judge correctly denied the respondent’s applications for failure to meet his
burden of proof (I.J. at 4-10). 8 C.F.R. §§ 1208.13(b),
1208.16(b). See Loho v. Mukasey, 531 F.3d 1016, 1018
(9th Cir. 2008). The record reflects that the respondent failed to disclose to both the Department of Homeland Security (“DHS”) asylum officer and the Immigration Judge that his wife and daughter had traveled with
him to the United States and voluntarily returned to
China shortly after (I.J. at 4-9; Exh. 5 at 4, 9; Tr. at 6973). The respondent further conceded that he was not
forthcoming about this information because he believed
that the true reasons for their return—that his wife had
a job in China and needed to care for her elderly father,
and that their daughter could attend school in China for
less money than in the United States—would be perceived as inconsistent with his claims of past and feared
future persecution (I.J. at 6-9; Tr. at 73, 81; Exh. 5 at 9). 1
The immigration Judge correctly decided that the
voluntary return of the respondent’s wife and daughter

Contrary to the respondent’s argument on appeal, there is no evidence that his testimony before the DHS asylum officer or the Immigration Judge was not accurately translated (Respondent’s Brief
at 7; I.J. at 7-8; Tr. at 75-76, 82). Further, the respondent’s contention that his wife and daughter returned to China before he became
aware of the possibility of asylum is not supported by the record (Respondent’s Brief at 6-7; I.J. at 9-10; Exh. 5 at 9; Tr. at 80-81).
1

164a
to China, after allegedly fleeing following the persecution of the respondent and his wife, prevents the respondent from meeting his burden of proving his asylum
claim (I.J. at 9-10). See Loho v. Mukasey, supra, at
1018; 8 C.F.R. § 1208.13(b). Contrary to the respondent’s argument on appeal, the Immigration Judge need
not have made an explicit adverse credibility finding to
nevertheless determine that the respondent did not
meet his burden of proving his asylum claim (Respondent’s Brief at 6). See Loho v. Mukasey, supra, at 1018;
8 C.F.R. § 1208.13(b). The respondent’s family voluntarily returning and his not being truthful about it is detrimental to his claim and is significant to his burden of
proof. See id.
As the respondent did not meet his burden of proof
for asylum, it follows that he did not meet the higher
standards of proof required for withholding of removal
(I.J. at 10). Section 241(b)(3)(A) of the Act; 8 C.F.R.
§ 1208.16(b); INS v. Stevic, 467 U.S. 407, 429-30 (1984).
We also uphold the Immigration Judge’s denial of the
respondent’s claim for protection under the CAT (I.J. at
10-11). The record does not reflect that the respondent
is more likely than not to be tortured upon return to
China by or with the consent or acquiescence of the Chinese government. 8 C.F.R. §§ 1208.16(c), 1208.18(a)(1);
Zheng v. Ashcroft, 332 F.3d 1186, 1196 (9th Cir. 2003).
For these reasons, we will dismiss the respondent’s
appeal.
ORDER:

The respondent’s appeal dismissed.
/s/

ILLEGIBLE
FOR THE BOARD

165a
APPENDIX E
UNITED STATES DEPARTMENT OF JUSTICE
EXECUTIVE OFFICE FOR IMMIGRATION REVIEW
UNITED STATES IMMIGRATION COURT
SAN FRANCISCO, CALIFORNIA

File No. A205-555-836
IN THE MATTER OF MING DAI, RESPONDENT
Feb. 22, 2013
IN REMOVAL PROCEEDINGS

CHARGES:

237(a)(1)(B) of the Act — Overstay

APPLICATIONS: Asylum, withholding of removal under Section 241(b)(3), and protection under the Convention Against Torture.
ON BEHALF OF RESPONDENT: BENJAMIN HALL
ON BEHALF OF DHS:

M.J. HANNETT

ORAL DECISION OF THE IMMIGRATION JUDGE
The respondent is an adult, married male, native and
citizen of China. The United States Department of
Homeland Security has brought these removal proceeding against the respondent under the authority contained in the Immigration and Nationality Act. The
proceedings were commenced with the filing of the Notice to Appear with the Immigration Court See Exhibit 1 The respondent, through counsel, has admitted

166a
the allegations and conceded removability. I accordingly find, by clear and convincing evidence, that the respondent is removable on the charge contained in the
Notice to Appear.
The respondent applied for relief from removal in the
form of asylum, withholding of removal, and protection
under the Convention Against Torture The respondent conceded that he is statutorily ineligible for voluntary departure under the Section 240B of the Act.
The respondent’s Form I-589, application for asylum,
is contained in the record as part of Exhibit 2, which was
referred to the Court from the asylum office, which declined to grant his application. The Court also will be
taking into account not only the respondent’s evidence,
submitted with his application in Exhibit 2, but also the
additional exhibits filed by the respondent and the Department of Homeland Security.
See Exhibits 2
through 5. These include individual documents relating to the respondent, as well as background evidence
and the record of an interview with the respondent held
at the asylum office, see Exhibit 5. Furthermore, the
Court will take into account the testimony that the respondent himself gave before the Court in these proceedings.
A respondent seeking asylum under Section 208 of
the Act must demonstrate that he is a “refugee” within
the meaning of Section 101(a)(42)(A) of the Act. A refugee is someone who has either suffered past persecution or has a well-founded fear of future persecution on
account of race, religion, nationality, membership in a
particular social group, or political opinion. See Section
101(a)(42)(A) of the Act, 8 C.F.R. Section 1208.13(b).
The respondent must demonstrate that his fear is both

167a
subjectively genuine and objectively reasonable. See
De Valle v. INS, 902 F.2d., 787 (9th Cir. 1990). The objective component requires a showing by credible, direct, and specific evidence in the record of facts to support a reasonable fear that he faces persecution. See
Diaz-Escobar v. INS, 782 F.2d, 1488 (9th Cir. 1986),
Matter of Mogharrabi, 19 I&N Dec. 459 (BIA 1987).
To qualify for withholding of removal under Section
241(b)(3) of the Act, the respondent must show a “clear
probability” that his life or freedom would be threatened
in a designated country on account of the same five
grounds. See INS v. Stevic, 467 U.S. 407 (1984). This
means that the respondent must establish that it is more
likely than not that he would be subject to persecution
in the event of his return to China. The Supreme Court
held in INS v. Cardoza-Fonseca, 480 U.S. 421 (1987) that
the “well-founded fear” standard for asylum is more
generous than the “clear probability” standard for withholding of removal.
To establish eligibility for protection under the Convention Against Torture, the respondent must prove
that it is “more likely than not” that he would be tortured for any reason in his return to China, and that
such torture would be with the acquiescence of the government of China. See 8 C.F.R. Section 1208.16(c)(2).
In assessing whether the respondent has met this burden of proof, the Court will consider all evidence relevant to the possibility of future torture, as provided at 8
C.F.R. Section 1208.16(c)(3).
The respondent’s application for asylum is governed
by the amendments made to the Immigration and Nationality Act by the REAL ID Act in 2005. With regard to credibility, the Real ID Act has clarified the

168a
standards that the Court is to apply. See Aden v.
Holder, 589 F.3d 734 (9th Cir. 2009), Shrestha v. Holder,
590 F.3d 1034 (9th Cir. 2010), Parussimora v. Mukasey,
555 F.3rd 734 (9th Cir. 2009), Matter of J-Y-C-, 24 I&N
Dec. 260 (BIA 2007). The Real ID has clarified that in
order to assess credibility, the Court must take into account the totality of the circumstances and all of the relevant factors, including an assessment of demeanor,
candor, responsiveness of the applicant, inherent plausibility of the applicant’s account, consistency between
the applicant’s written and oral statements, the internal
consistency of each statement, the consistency of statements with other evidence of record, any inaccuracies
or falsehoods in such statements, or any other relevant
factor.
See Section 208(b)(1)(B)(3) and Section
241(b)(3)(c) of the Immigration and Nationality Act.
The respondent’s claim may be summarized as follows. The respondent and his wife had a daughter in
2000. During the course of a routine medical exam in
April of 2009, it was discovered that the respondent’s wife
was pregnant. The respondent and his wife wanted to
have that second child, but local family planning officials
came to the respondent’s home on July 13, 2009 and demanded that the respondent’s wife go to the hospital for
an abortion. They were accompanied by police officers.
The respondent tried to block them taking his wife out of
the home, and as a result, he was beaten and pushed to the
ground and handcuffed. The police punched him and
took him to the police station, where he was detained for
10 days. He suffered injuries, including a dislocated
shoulder and broken ribs. The respondent learned, after he came out of detention, that his wife had been
forced to have an abortion. Furthermore, after his release the respondent was fired from his job and his wife

169a
was demoted at her job. In addition, the respondent
believes that his daughter was denied admission to a
better middle school and was thereby forced to attend a
somewhat inferior middle school. The respondent decided to flee China and came to the United States on a
visa, which he procured with the help of an agent. He
arrived here on January 27, 2012 with a non-immigrant
B-2 visitor visa. Respondent filed his application for
asylum on September 10, 2012. He was interviewed regarding that application, but the asylum office declined
to grant the respondent asylum and he was placed in removal proceedings, where he renewed his application
before this Court.
I have carefully considered the respondent’s testimony and evidence and for the following reasons, I find
that the respondent has failed to meet his burden of
proving eligibility for asylum.
The principal area of concern with regard to the respondent’s testimony arose during the course of his crossexamination. On cross-examination, the respondent was
asked about various aspects of his interview with an
Asylum Officer. The Department of Homeland Security also submitted the notes of that interview as Exhibit
5. The respondent was asked specific questions regarding several aspects of his testimony before the Asylum Officer. In the course of cross-examination, the
respondent was asked regarding his questions and answers as to whether his wife and daughter travelled with
him to the United States. The respondent’s responses
included the question of whether the asylum officer had
asked him if his wife and daughter travelled anywhere
other than to Taiwan and Hong Kong. The respondent

170a
conceded that he was asked this question and that he replied yes, they had travelled to Taiwan and Hong Kong.
The respondent was asked whether the Asylum Officer
inquired whether his wife and daughter had travelled
elsewhere. The respondent then testified before the
Court that he was asked this question, “but I was nervous.” In this regard, I note that the respondent did not
directly answer the question; instead leapt directly to an
explanation for what his answer may have been, namely
that he was nervous. The respondent was then asked
specifically whether the Asylum Officer asked him if his
wife had travelled to Australia in 2007. The respondent confirmed that he had been asked this question, and
he confirmed that the answer was in the affirmative.
The respondent also confirmed that the Asylum Officer
had asked him whether she had travelled anywhere else.
He confirmed that he had been so asked. The respondent was then asked whether he answered “no,” that she
had not travelled anywhere else. The respondent answered that he believed so, that he had so answered.
The respondent was then asked, during the course of
cross-examination, why he had not said to the Asylum
Officer that yes, she had travelled to the United States.
The respondent replied that he had not thought of it.
He stated that they did come with him (meaning his wife
and daughter) and that he thought the Asylum Officer
was asking him if they had travelled anywhere other
than the United States. He explained that he did so
because he assumed the U.S. Government had the records of their travel to the United States. On further
questioning, the respondent eventually hesitated at
some length when asked to further explain why he did
not disclose spontaneously to the Asylum Officer that

171a
his wife and daughter had come with him. The respondent paused at some length and I observed that the
respondent appeared nervous and at a loss for words.
However, after a fairly lengthy pause, the respondent
testified that he is afraid to say that his wife and daughter came here and why they went back. The respondent was asked whether he told the Asylum Officer that
he was afraid to answer directly. The respondent initially testified that he forgot and did not remember
whether he said that. He again reiterated that he was
very nervous. He was then asked the question again as
to whether he told the Asylum Officer that he was afraid
to answer why his wife and daughter had gone back.
He then conceded that maybe, yes, he had answered in
that fashion. The respondent was asked whether the
Asylum Officer inquired why his wife and daughter went
back, and the respondent conceded that he had been so
asked, and he further conceded that he replied because
school in the United States cost a lot of money (referring
to the schooling for his daughter). The respondent was
then asked to confirm that the Asylum Officer eventually asked him to tell him the real story as to why his
family travelled to the United States and returned to
China. The respondent confirmed that he was asked
this question, and when asked, whether he replied that
it was because he wanted a good environment for his
child and because his wife had a job and he did not, and
that that is why he stayed here,. hHe confirmed that he
did, in fact, say that. The respondent was further
asked, during the course of testimony in court, why his
wife and daughter returned to China. In this regard,
the respondent testified that they came with him, but
returned to China several weeks after arrival He tes-

172a
tified that they did so because his father-in-law was elderly and needed attention, and because his daughter
needed to graduate from school in China.
The respondent further claimed that his wife had, in
fact, suffered past persecution in the form of a forced
abortion and the respondent confirmed that he feared
his wife and daughter would suffer future persecution.
In this regard, the respondent qualified his answer by
saying that his wife was now on an IUD, apparently
thereby suggesting that the risk of persecution is reduced. However, the respondent did concede that the
risk of future persecution also pertains to his daughter.
Indeed, in this regard, the respondent testified that this
is, at least in part, why he applied for asylum.
As to the contents of Exhibit 5, I give the notes full
weight, insofar as the respondent has confirmed the contents of the questions and answers given during the
course of that interview. Furthermore, I note that in
the sections in which the respondent equivocated, stating that he was nervous and not sure that he gave those
precise answers, I nevertheless give the Asylum Officer’s notes some substantial weight, in that they are
consistent with the respondent’s testimony in court.
Specifically, I note that the Asylum Officer’s notes state
that the respondent ultimately indicated that he was
afraid of giving straight answers regarding his daughter
and wife’s trip to the United States and return to China.
And while the respondent did not confirm this in court,
he did give a similar answer as to why he was testifying
in this regard. In other words, the respondent appears
to have stated, both before the Asylum Officer and in
court that he did not spontaneously disclose the travel
of his wife and daughter with him to the United States

173a
and their return because he was nervous about how this
would be perceived by the Asylum Officer in connection
with his claim. I further note that the Asylum Officer’s
notes are internally consistent with regard to references
to earlier questions, such as whether the respondent had
stated that he applied for a visa with anyone else. At
page 2 of the notes contained in Exhibit 5, the respondent was asked whether he applied for his visa with anyone else and the notes indicated that he stated that, “no,
I applied by myself.” Similarly, I note that the testimony before the Asylum Officer and the Court is consistent with the omission in the respondent’s Form I-589
application for asylum, of an answer to the question of
date of the previous arrival of his wife, if she had previously been in the United States. See Exhibit 2, page 2,
part A.II, question 23. When asked about this omission, the respondent expressed surprise, stating that he
told the preparer about their trip and indicated that he
thought it had been filled out. Notwithstanding the respondent’s statement in this regard, I do observe that
the omission is consistent with his lack of forthrightness
before the asylum office as to his wife and daughter’s
travel with him to the United States and their subsequent return to China shortly thereafter.
In sum, the respondent’s testimony before the Court
and his testimony regarding the Asylum Officer notes,
as well as the notes themselves, clearly indicate that the
respondent failed to spontaneously disclose that his wife
and daughter came with him and then returned to
China. His testimony and the notes also consistently
demonstrate that the respondent paused at length, both
before the Court and before the Asylum Officer, when
asked about this topic. His testimony and the Asylum

174a
Officer notes are also consistent in indicating that he ultimately testified that he was afraid to say that his wife
came here and was afraid of being asked about why she
went back. Furthermore, the respondent has conceded that he was asked to “tell the real story” about his
family’s travel to the United States by the Asylum Officer, and that he replied that he wanted a good environment for his child, and his wife had a job, but he did not,
and that is why he stayed here.
In Loho v. Mukasey, 521 F.3d 1016, 1018-19 (9th Cir.
2008), the Ninth Circuit addressed the situation in which
an asylum applicant has found safety in the United
States and then returns to the country claimed of persecution before eventually finding asylum in the United
States. The Ninth Circuit held that the applicant’s voluntary return to the country of claimed persecution may
be considered in assessing both credibility and whether
the respondent has a well-founded fear of persecution in
that country. Here, while the respondent himself has
not returned to China, his wife and daughter did. Indeed they did so shortly after arriving in the United
States, and the respondent confirmed that they did so
because the schooling is cheaper for his daughter in
China, as well as because his father-in-law is elderly and
needed to be cared for. The respondent also told the
Asylum Officer that the “real story” about whey his family returned was that his wife had a job and he did not,
and that is why he stayed here. This is consistent with
respondent’s testimony before the Court that he did not
have a job at the time he came to the United States.
Furthermore, I note that the respondent’s claim of persecution is founded on the alleged forced abortion inflicted upon his wife. That is the central element of his

175a
claim. The respondent claims that he himself was persecuted through his resistance to that abortion. Nevertheless, the fact remains that the fundamental thrust
of the respondent’s claim is that his wife was forced to
have an abortion. In this regard, the respondent’s wife
therefore clearly has an equal, or stronger, claim to asylum than the respondent himself, assuming the facts
which he claims are true. The respondent was asked
why his wife did not stay and apply for asylum and he
replied that he did not know they could apply for asylum
at the time they departed. The respondent was then
asked why he stayed here after they returned; he said
because he was in a bad mood and he wanted to get a job
and “a friend of mine is here.”
While Loho v. Mukasey applies to the applicant himself returning to China, I find that the reasoning of the
Ninth Circuit in that case is fully applicable to the respondent’s situation in that his wife, who is the primary
object of the persecution in China, freely chose to return
to China. I do not find that the respondent’s explanations for her return to China while he remained here are
adequate The respondent has stated that he was in a
bad mood and that he had found a job and had a friend
here. The respondent has also indicated that his daughter’s education would be cheaper in China than here, and
he has also indicated that his wife wanted to go to take
care of her father. I do not find that these reasons are
sufficiently substantial so as to outweigh the concerns
raised by his wife and daughter’s free choice to return
to China after having allegedly fled that country following his wife’s and his own persecution.

176a
In view of the forgoing, I find that the respondent has
failed to meet his burden of proving eligibility for asylum under Section 208(a) of the Act.
Given that the respondent has failed to meet this burden of proof for asylum, he has necessarily failed to meet
the higher burden for withholding of removal. That
application must therefore also be denied.
With regard to protection under the Convention
Against Torture, I likewise, find that the respondent has
failed to meet his burden of demonstrating that under
all of these circumstances presented, it is more likely
than not that the government of China will seek to torture him, or that parties acting with the acquiescence of
the government of China will do so. In making this
finding, I take into account the interpretation of the
Ninth Circuit Court of Appeals that acquiescence includes merely “turning a blind eye” to such conduct.
In making my assessment regarding the request for
protection under the Convention Against Torture, I
have not only taken into account the testimony and evidence discussed above, but I have reviewed the entire
record of the proceedings and find no additional basis
warranting a grant for such a request.
In view of the forgoing, the following orders will be
entered.
ORDERS
IT IS HEREBY ORDERED that the respondent’s
application for asylum be denied.
IT IS FURTHER ORDERED that the respondent’s
application for withholding of removal under Section
241(b)(3) of the Act be denied.

177a
IT IS FURTHER ORDERED that the respondent’s
request for protection under the Convention Against
Torture be denied.
IT IS FURTHER ORDERED that the respondent
be removed on the charge contained in the Notice to Appear to the People’s Republic of China, on the charge
contained in the Notice to Appear.
Please see the next page for electronic signature

STEPHEN S. GRISWOLD
Immigration Judge
//s//
Immigration Judge STEPHEN S. GRISWOLD
griswols on May 9, 2013 at 4:29 PM GMT

178a
APPENDIX F

1.

8 U.S.C. 1158 provides:

Asylum
(a)

Authority to apply for asylum
(1) In general

Any alien who is physically present in the United
States or who arrives in the United States (whether
or not at a designated port of arrival and including an
alien who is brought to the United States after having
been interdicted in international or United States
waters), irrespective of such alien’s status, may apply
for asylum in accordance with this section or, where
applicable, section 1225(b) of this title.
(2) Exceptions
(A)

Safe third country

Paragraph (1) shall not apply to an alien if the
Attorney General determines that the alien may
be removed, pursuant to a bilateral or multilateral
agreement, to a country (other than the country of
the alien’s nationality or, in the case of an alien
having no nationality, the country of the alien’s
last habitual residence) in which the alien’s life or
freedom would not be threatened on account of
race, religion, nationality, membership in a particular social group, or political opinion, and where
the alien would have access to a full and fair procedure for determining a claim to asylum or equivalent temporary protection, unless the Attorney
General finds that it is in the public interest for
the alien to receive asylum in the United States.

179a
(B)

Time limit

Subject to subparagraph (D), paragraph (1)
shall not apply to an alien unless the alien demonstrates by clear and convincing evidence that the
application has been filed within 1 year after the
date of the alien’s arrival in the United States.
(C)

Previous asylum applications

Subject to subparagraph (D), paragraph (1)
shall not apply to an alien if the alien has previously applied for asylum and had such application
denied.
(D)

Changed circumstances

An application for asylum of an alien may be
considered, notwithstanding subparagraphs (B)
and (C), if the alien demonstrates to the satisfaction of the Attorney General either the existence
of changed circumstances which materially affect
the applicant’s eligibility for asylum or extraordinary circumstances relating to the delay in filing
an application within the period specified in subparagraph (B).
(E)

Applicability

Subparagraphs (A) and (B) shall not apply to
an unaccompanied alien child (as defined in section 279(g) of title 6).
(3) Limitation on judicial review

No court shall have jurisdiction to review any determination of the Attorney General under paragraph (2).

180a
(b)

Conditions for granting asylum
(1) In general
(A)

Eligibility

The Secretary of Homeland Security or the Attorney General may grant asylum to an alien who
has applied for asylum in accordance with the requirements and procedures established by the
Secretary of Homeland Security or the Attorney
General under this section if the Secretary of
Homeland Security or the Attorney General determines that such alien is a refugee within the
meaning of section 1101(a)(42)(A) of this title.
(B)

Burden of proof

(i)

In general

The burden of proof is on the applicant to
establish that the applicant is a refugee, within
the meaning of section 1101(a)(42)(A) of this title. To establish that the applicant is a refugee within the meaning of such section, the applicant must establish that race, religion, nationality, membership in a particular social group,
or political opinion was or will be at least one
central reason for persecuting the applicant.
(ii)

Sustaining burden

The testimony of the applicant may be sufficient to sustain the applicant’s burden without
corroboration, but only if the applicant satisfies
the trier of fact that the applicant’s testimony
is credible, is persuasive, and refers to specific
facts sufficient to demonstrate that the applicant is a refugee. In determining whether the

181a
applicant has met the applicant’s burden, the
trier of fact may weigh the credible testimony
along with other evidence of record. Where
the trier of fact determines that the applicant
should provide evidence that corroborates otherwise credible testimony, such evidence must
be provided unless the applicant does not have
the evidence and cannot reasonably obtain the
evidence.
(iii) Credibility determination

Considering the totality of the circumstances,
and all relevant factors, a trier of fact may base
a credibility determination on the demeanor,
candor, or responsiveness of the applicant or
witness, the inherent plausibility of the applicant’s or witness’s account, the consistency between the applicant’s or witness’s written and
oral statements (whenever made and whether
or not under oath, and considering the circumstances under which the statements were made),
the internal consistency of each such statement,
the consistency of such statements with other
evidence of record (including the reports of the
Department of State on country conditions),
and any inaccuracies or falsehoods in such statements, without regard to whether an inconsistency, inaccuracy, or falsehood goes to the
heart of the applicant’s claim, or any other relevant factor.
There is no presumption of
credibility, however, if no adverse credibility
determination is explicitly made, the applicant
or witness shall have a rebuttable presumption
of credibility on appeal.

182a
(2) Exceptions
(A)

In general

Paragraph (1) shall not apply to an alien if the
Attorney General determines that—
(i) the alien ordered, incited, assisted, or
otherwise participated in the persecution of
any person on account of race, religion, nationality, membership in a particular social group,
or political opinion;
(ii) the alien, having been convicted by a final judgment of a particularly serious crime,
constitutes a danger to the community of the
United States;
(iii) there are serious reasons for believing
that the alien has committed a serious nonpolitical crime outside the United States prior to
the arrival of the alien in the United States;
(iv) there are reasonable grounds for regarding the alien as a danger to the security of
the United States;
(v) the alien is described in subclause (I),
(II), (III), (IV), or (VI) of section 1182(a)(3)(B)(i)
of this title or section 1227(a)(4)(B) of this title
(relating to terrorist activity), unless, in the
case only of an alien described in subclause (IV)
of section 1182(a)(3)(B)(i) of this title, the Attorney General determines, in the Attorney
General’s discretion, that there are not reasonable grounds for regarding the alien as a danger to the security of the United States; or

183a
(vi) the alien was firmly resettled in another country prior to arriving in the United
States.
(B)

Special rules

(i)

Conviction of aggravated felony

For purposes of clause (ii) of subparagraph
(A), an alien who has been convicted of an aggravated felony shall be considered to have
been convicted of a particularly serious crime.
(ii)

Offenses

The Attorney General may designate by
regulation offenses that will be considered to
be a crime described in clause (ii) or (iii) of subparagraph (A).
(C)

Additional limitations

The Attorney General may by regulation establish additional limitations and conditions, consistent with this section, under which an alien shall
be ineligible for asylum under paragraph (1).
(D)

No judicial review

There shall be no judicial review of a determination of the Attorney General under subparagraph (A)(v).
(3) Treatment of spouse and children
(A)

In general

A spouse or child (as defined in section
1101(b)(1)(A), (B), (C), (D), or (E) of this title) of
an alien who is granted asylum under this subsec-

184a
tion may, if not otherwise eligible for asylum under this section, be granted the same status as the
alien if accompanying, or following to join, such alien.
(B)

Continued classification of certain aliens as
children

An unmarried alien who seeks to accompany, or
follow to join, a parent granted asylum under this
subsection, and who was under 21 years of age on
the date on which such parent applied for asylum
under this section, shall continue to be classified
as a child for purposes of this paragraph and section 1159(b)(3) of this title, if the alien attained 21
years of age after such application was filed but
while it was pending.
(C)

Initial jurisdiction

An asylum officer (as defined in section
1225(b)(1)(E) of this title) shall have initial jurisdiction over any asylum application filed by an unaccompanied alien child (as defined in section
279(g) of title 6), regardless of whether filed in accordance with this section or section 1225(b) of
this title.
(c)

Asylum status
(1) In general

In the case of an alien granted asylum under subsection (b), the Attorney General—
(A) shall not remove or return the alien to the
alien’s country of nationality or, in the case of a
person having no nationality, the country of the alien’s last habitual residence;

185a
(B) shall authorize the alien to engage in employment in the United States and provide the alien with appropriate endorsement of that authorization; and
(C) may allow the alien to travel abroad with
the prior consent of the Attorney General.
(2) Termination of asylum

Asylum granted under subsection (b) does not
convey a right to remain permanently in the United
States, and may be terminated if the Attorney General determines that—
(A) the alien no longer meets the conditions
described in subsection (b)(1) of this section owing
to a fundamental change in circumstances;
(B) the alien meets a condition described in
subsection (b)(2) of this section;
(C) the alien may be removed, pursuant to a
bilateral or multilateral agreement, to a country
(other than the country of the alien’s nationality
or, in the case of an alien having no nationality, the
country of the alien’s last habitual residence) in
which the alien’s life or freedom would not be
threatened on account of race, religion, nationality, membership in a particular social group, or political opinion, and where the alien is eligible to receive asylum or equivalent temporary protection;
(D) the alien has voluntarily availed himself
or herself of the protection of the alien’s country
of nationality or, in the case of an alien having no
nationality, the alien’s country of last habitual res-

186a
idence, by returning to such country with permanent resident status or the reasonable possibility
of obtaining such status with the same rights and
obligations pertaining to other permanent residents of that country; or
(E) the alien has acquired a new nationality
and enjoys the protection of the country of his or
her new nationality.
(3) Removal when asylum is terminated

An alien described in paragraph (2) is subject to
any applicable grounds of inadmissibility or deportability under section 1 1182(a) and 1227(a) of this title,
and the alien’s removal or return shall be directed by
the Attorney General in accordance with sections
1229a and 1231 of this title.
(d)

Asylum procedure
(1) Applications

The Attorney General shall establish a procedure
for the consideration of asylum applications filed under subsection (a) of this section. The Attorney
General may require applicants to submit fingerprints and a photograph at such time and in such
manner to be determined by regulation by the Attorney General.
(2) Employment

An applicant for asylum is not entitled to employment authorization, but such authorization may be
provided under regulation by the Attorney General.

1

So in original.

Probably should be “sections”.

187a
An applicant who is not otherwise eligible for employment authorization shall not be granted such authorization prior to 180 days after the date of filing of the
application for asylum.
(3) Fees

The Attorney General may impose fees for the
consideration of an application for asylum, for employment authorization under this section, and for
adjustment of status under section 1159(b) of this title. Such fees shall not exceed the Attorney General’s costs in adjudicating the applications. The
Attorney General may provide for the assessment
and payment of such fees over a period of time or by
installments. Nothing in this paragraph shall be
construed to require the Attorney General to charge
fees for adjudication services provided to asylum applicants, or to limit the authority of the Attorney
General to set adjudication and naturalization fees in
accordance with section 1356(m) of this title.
(4) Notice of privilege of counsel and consequences of
frivolous application

At the time of filing an application for asylum, the
Attorney General shall—
(A) advise the alien of the privilege of being
represented by counsel and of the consequences,
under paragraph (6), of knowingly filing a frivolous application for asylum; and
(B) provide the alien a list of persons (updated not less often than quarterly) who have indicated their availability to represent aliens in
asylum proceedings on a pro bono basis.

188a
(5) Consideration of asylum applications
(A)

Procedures

The procedure established under paragraph (1)
shall provide that—
(i) asylum cannot be granted until the identity of the applicant has been checked against all
appropriate records or databases maintained
by the Attorney General and by the Secretary
of State, including the Automated Visa Lookout
System, to determine any grounds on which the
alien may be inadmissible to or deportable from
the United States, or ineligible to apply for or
be granted asylum;
(ii) in the absence of exceptional circumstances, the initial interview or hearing on the
asylum application shall commence not later
than 45 days after the date an application is
filed;
(iii) in the absence of exceptional circumstances, final administrative adjudication of the
asylum application, not including administrative appeal, shall be completed within 180 days
after the date an application is filed;
(iv) any administrative appeal shall be filed
within 30 days of a decision granting or denying
asylum, or within 30 days of the completion of
removal proceedings before an immigration
judge under section 1229a of this title, whichever is later; and
(v) in the case of an applicant for asylum
who fails without prior authorization or in the

189a
absence of exceptional circumstances to appear
for an interview or hearing, including a hearing
under section 1229a of this title, the application
may be dismissed or the applicant may be otherwise sanctioned for such failure.
(B)

Additional regulatory conditions

The Attorney General may provide by regulation for any other conditions or limitations on the
consideration of an application for asylum not inconsistent with this chapter.
(6) Frivolous applications

If the Attorney General determines that an alien
has knowingly made a frivolous application for asylum and the alien has received the notice under paragraph (4)(A), the alien shall be permanently ineligible for any benefits under this chapter, effective as of
the date of a final determination on such application.
(7) No private right of action

Nothing in this subsection shall be construed to
create any substantive or procedural right or benefit
that is legally enforceable by any party against the
United States or its agencies or officers or any other
person.
(e)

Commonwealth of the Northern Mariana Islands

The provisions of this section and section 1159(b) of
this title shall apply to persons physically present in the
Commonwealth of the Northern Mariana Islands or arriving in the Commonwealth (whether or not at a designated port of arrival and including persons who are

190a
brought to the Commonwealth after having been interdicted in international or United States waters) only on
or after January 1, 2014.
2.

8 U.S.C. 1229a provides:

Removal proceedings
(a)

Proceeding
(1) In general

An immigration judge shall conduct proceedings
for deciding the inadmissibility or deportability of an
alien.
(2) Charges

An alien placed in proceedings under this section
may be charged with any applicable ground of inadmissibility under section 1182(a) of this title or any
applicable ground of deportability under section
1227(a) of this title.
(3) Exclusive procedures

Unless otherwise specified in this chapter, a proceeding under this section shall be the sole and exclusive procedure for determining whether an alien may
be admitted to the United States or, if the alien has
been so admitted, removed from the United States.
Nothing in this section shall affect proceedings conducted pursuant to section 1228 of this title.

191a
(b)

Conduct of proceeding
(1) Authority of immigration judge

The immigration judge shall administer oaths, receive evidence, and interrogate, examine, and crossexamine the alien and any witnesses. The immigration judge may issue subpoenas for the attendance of
witnesses and presentation of evidence. The immigration judge shall have authority (under regulations
prescribed by the Attorney General) to sanction by
civil money penalty any action (or inaction) in contempt of the judge’s proper exercise of authority under this chapter.
(2) Form of proceeding
(A)

In general

The proceeding may take place—
(i)

in person,

(ii) where agreed to by the parties, in the
absence of the alien,
(iii) through video conference, or
(iv) subject to subparagraph (B), through
telephone conference.
(B)

Consent required in certain cases

An evidentiary hearing on the merits may only
be conducted through a telephone conference with
the consent of the alien involved after the alien has
been advised of the right to proceed in person or
through video conference.

192a
(3) Presence of alien

If it is impracticable by reason of an alien’s mental
incompetency for the alien to be present at the proceeding, the Attorney General shall prescribe safeguards to protect the rights and privileges of the alien.
(4) Alien’s rights in proceeding

In proceedings under this section, under regulations of the Attorney General—
(A) the alien shall have the privilege of being
represented, at no expense to the Government, by
counsel of the alien’s choosing who is authorized
to practice in such proceedings,
(B) the alien shall have a reasonable opportunity to examine the evidence against the alien,
to present evidence on the alien’s own behalf, and
to cross-examine witnesses presented by the Government but these rights shall not entitle the alien
to examine such national security information as
the Government may proffer in opposition to the
alien’s admission to the United States or to an application by the alien for discretionary relief under
this chapter, and
(C) a complete record shall be kept of all testimony and evidence produced at the proceeding.
(5) Consequences of failure to appear
(A)

In general

Any alien who, after written notice required under paragraph (1) or (2) of section 1229(a) of this title has been provided to the alien or the alien’s

193a
counsel of record, does not attend a proceeding
under this section, shall be ordered removed in absentia if the Service establishes by clear, unequivocal, and convincing evidence that the written notice was so provided and that the alien is removable (as defined in subsection (e)(2)). The written
notice by the Attorney General shall be considered sufficient for purposes of this subparagraph
if provided at the most recent address provided
under section 1229(a)(1)(F) of this title.
(B)

No notice if failure to provide address information

No written notice shall be required under subparagraph (A) if the alien has failed to provide the
address required under section 1229(a)(1)(F) of
this title.
(C)

Rescission of order

Such an order may be rescinded only—
(i) upon a motion to reopen filed within
180 days after the date of the order of removal
if the alien demonstrates that the failure to appear was because of exceptional circumstances
(as defined in subsection (e)(1)), or
(ii) upon a motion to reopen filed at any
time if the alien demonstrates that the alien did
not receive notice in accordance with paragraph (1) or (2) of section 1229(a) of this title or
the alien demonstrates that the alien was in
Federal or State custody and the failure to appear was through no fault of the alien.

194a
The filing of the motion to reopen described in
clause (i) or (ii) shall stay the removal of the alien
pending disposition of the motion by the immigration judge.
(D)

Effect on judicial review

Any petition for review under section 1252 of
this title of an order entered in absentia under this
paragraph shall (except in cases described in section 1252(b)(5) of this title) be confined to (i) the
validity of the notice provided to the alien, (ii) the
reasons for the alien’s not attending the proceeding, and (iii) whether or not the alien is removable.
(E)

Additional application to certain aliens in
contiguous territory

The preceding provisions of this paragraph
shall apply to all aliens placed in proceedings under this section, including any alien who remains
in a contiguous foreign territory pursuant to section 1225(b)(2)(C) of this title.
(6) Treatment of frivolous behavior

The Attorney General shall, by regulation—
(A) define in a proceeding before an immigration judge or before an appellate administrative body under this subchapter, frivolous behavior for which attorneys may be sanctioned,
(B) specify the circumstances under which an
administrative appeal of a decision or ruling will
be considered frivolous and will be summarily dismissed, and

195a
(C) impose appropriate sanctions (which may
include suspension and disbarment) in the case of
frivolous behavior.
Nothing in this paragraph shall be construed as limiting the authority of the Attorney General to take
actions with respect to inappropriate behavior.
(7) Limitation on discretionary relief for failure to
appear

Any alien against whom a final order of removal is
entered in absentia under this subsection and who, at
the time of the notice described in paragraph (1) or
(2) of section 1229(a) of this title, was provided oral
notice, either in the alien’s native language or in another language the alien understands, of the time and
place of the proceedings and of the consequences under this paragraph of failing, other than because of
exceptional circumstances (as defined in subsection
(e)(1) of this section) to attend a proceeding under
this section, shall not be eligible for relief under section 1229b, 1229c, 1255, 1258, or 1259 of this title for
a period of 10 years after the date of the entry of the
final order of removal.
(c)

Decision and burden of proof
(1) Decision
(A)

In general

At the conclusion of the proceeding the immigration judge shall decide whether an alien is removable from the United States. The determination of the immigration judge shall be based
only on the evidence produced at the hearing.

196a
(B)

Certain medical decisions

If a medical officer or civil surgeon or board of
medical officers has certified under section 1222(b)
of this title that an alien has a disease, illness, or
addiction which would make the alien inadmissible
under paragraph (1) of section 1182(a) of this title,
the decision of the immigration judge shall be
based solely upon such certification.
(2) Burden on alien

In the proceeding the alien has the burden of
establishing—
(A) if the alien is an applicant for admission,
that the alien is clearly and beyond doubt entitled
to be admitted and is not inadmissible under section 1182 of this title; or
(B) by clear and convincing evidence, that
the alien is lawfully present in the United States
pursuant to a prior admission.
In meeting the burden of proof under subparagraph
(B), the alien shall have access to the alien’s visa or
other entry document, if any, and any other records
and documents, not considered by the Attorney General to be confidential, pertaining to the alien’s admission or presence in the United States.
(3) Burden on service in cases of deportable aliens
(A)

In general

In the proceeding the Service has the burden
of establishing by clear and convincing evidence
that, in the case of an alien who has been admitted
to the United States, the alien is deportable. No

197a
decision on deportability shall be valid unless it is
based upon reasonable, substantial, and probative
evidence.
(B)

Proof of convictions

In any proceeding under this chapter, any of
the following documents or records (or a certified
copy of such an official document or record) shall
constitute proof of a criminal conviction:
(i) An official record of judgment and conviction.
(ii) An official record of plea, verdict, and
sentence.
(iii) A docket entry from court records that
indicates the existence of the conviction.
(iv) Official minutes of a court proceeding
or a transcript of a court hearing in which the
court takes notice of the existence of the conviction.
(v) An abstract of a record of conviction
prepared by the court in which the conviction
was entered, or by a State official associated
with the State’s repository of criminal justice
records, that indicates the charge or section of
law violated, the disposition of the case, the existence and date of conviction, and the sentence.
(vi) Any document or record prepared by,
or under the direction of, the court in which the
conviction was entered that indicates the existence of a conviction.

198a
(vii) Any document or record attesting to
the conviction that is maintained by an official
of a State or Federal penal institution, which is
the basis for that institution’s authority to assume custody of the individual named in the
record.
(C)

Electronic records

In any proceeding under this chapter, any record of conviction or abstract that has been submitted by electronic means to the Service from a
State or court shall be admissible as evidence to
prove a criminal conviction if it is—
(i) certified by a State official associated
with the State’s repository of criminal justice
records as an official record from its repository
or by a court official from the court in which the
conviction was entered as an official record
from its repository, and
(ii) certified in writing by a Service official
as having been received electronically from the
State’s record repository or the court’s record
repository.
A certification under clause (i) may be by means
of a computer-generated signature and statement
of authenticity.
(4) Applications for relief from removal
(A)

In general

An alien applying for relief or protection from
removal has the burden of proof to establish that
the alien—

199a
(i) satisfies the applicable eligibility requirements; and
(ii) with respect to any form of relief that
is granted in the exercise of discretion, that the
alien merits a favorable exercise of discretion.
(B)

Sustaining burden

The applicant must comply with the applicable
requirements to submit information or documentation in support of the applicant’s application for
relief or protection as provided by law or by regulation or in the instructions for the application
form. In evaluating the testimony of the applicant or other witness in support of the application,
the immigration judge will determine whether or
not the testimony is credible, is persuasive, and
refers to specific facts sufficient to demonstrate
that the applicant has satisfied the applicant’s
burden of proof. In determining whether the applicant has met such burden, the immigration
judge shall weigh the credible testimony along
with other evidence of record. Where the immigration judge determines that the applicant should
provide evidence which corroborates otherwise
credible testimony, such evidence must be provided unless the applicant demonstrates that the
applicant does not have the evidence and cannot
reasonably obtain the evidence.
(C)

Credibility determination

Considering the totality of the circumstances,
and all relevant factors, the immigration judge may
base a credibility determination on the demeanor,

200a
candor, or responsiveness of the applicant or witness, the inherent plausibility of the applicant’s or
witness’s account, the consistency between the applicant’s or witness’s written and oral statements
(whenever made and whether or not under oath,
and considering the circumstances under which the
statements were made), the internal consistency of
each such statement, the consistency of such
statements with other evidence of record (including the reports of the Department of State on country conditions), and any inaccuracies or falsehoods
in such statements, without regard to whether an
inconsistency, inaccuracy, or falsehood goes to the
heart of the applicant’s claim, or any other relevant factor. There is no presumption of credibility, however, if no adverse credibility determination is explicitly made, the applicant or witness
shall have a rebuttable presumption of credibility
on appeal.
(5) Notice

If the immigration judge decides that the alien is
removable and orders the alien to be removed, the
judge shall inform the alien of the right to appeal that
decision and of the consequences for failure to depart
under the order of removal, including civil and criminal penalties.
(6) Motions to reconsider
(A)

In general

The alien may file one motion to reconsider a decision that the alien is removable from the United
States.

201a
(B)

Deadline

The motion must be filed within 30 days of the
date of entry of a final administrative order of removal.
(C)

Contents

The motion shall specify the errors of law or
fact in the previous order and shall be supported
by pertinent authority.
(7) Motions to reopen
(A)

In general

An alien may file one motion to reopen proceedings under this section, except that this limitation
shall not apply so as to prevent the filing of one motion to reopen described in subparagraph (C)(iv).
(B)

Contents

The motion to reopen shall state the new facts
that will be proven at a hearing to be held if the
motion is granted, and shall be supported by affidavits or other evidentiary material.
(C)
(i)

Deadline
In general

Except as provided in this subparagraph,
the motion to reopen shall be filed within 90
days of the date of entry of a final administrative order of removal.
(ii) Asylum

There is no time limit on the filing of a motion to reopen if the basis of the motion is to

202a
apply for relief under sections1 1158 or 1231(b)(3)
of this title and is based on changed country
conditions arising in the country of nationality
or the country to which removal has been ordered, if such evidence is material and was not
available and would not have been discovered
or presented at the previous proceeding.
(iii) Failure to appear

The filing of a motion to reopen an order entered pursuant to subsection (b)(5) of this section is subject to the deadline specified in subparagraph (C) of such subsection.
(iv) Special rule for battered spouses, children,
and parents

Any limitation under this section on the deadlines for filing such motions shall not apply—
(I)
if the basis for the motion is to apply for relief under clause (iii) or (iv) of section 1154(a)(1)(A) of this title, clause (ii) or
(iii) of section 1154(a)(1)(B) of this title,,1 section 1229b(b) of this title, or section 1254(a)(3)
of this title (as in effect on March 31, 1997);
(II) if the motion is accompanied by a
cancellation of removal application to be filed
with the Attorney General or by a copy of the
self-petition that has been or will be filed with
the Immigration and Naturalization Service
upon the granting of the motion to reopen;

1

So in original.

203a
(III) if the motion to reopen is filed
within 1 year of the entry of the final order
of removal, except that the Attorney General may, in the Attorney General’s discretion, waive this time limitation in the case of
an alien who demonstrates extraordinary
circumstances or extreme hardship to the
alien’s child; and
(IV) if the alien is physically present in
the United States at the time of filing the
motion.
The filing of a motion to reopen under this
clause shall only stay the removal of a qualified
alien (as defined in section 1641(c)(1)(B) of this
title2 pending the final disposition of the motion, including exhaustion of all appeals if the
motion establishes that the alien is a qualified
alien.
(d)

Stipulated removal

The Attorney General shall provide by regulation for
the entry by an immigration judge of an order of removal stipulated to by the alien (or the alien’s representative) and the Service. A stipulated order shall
constitute a conclusive determination of the alien’s removability from the United States.
(e)

Definitions

In this section and section 1229b of this title:

2

So in original.

A closing parenthesis probably should appear.

204a
(1)

Exceptional circumstances

The term “exceptional circumstances” refers to exceptional circumstances (such as battery or extreme
cruelty to the alien or any child or parent of the alien,
serious illness of the alien, or serious illness or death
of the spouse, child, or parent of the alien, but not including less compelling circumstances) beyond the
control of the alien.
(2)

Removable

The term “removable” means—
(A) in the case of an alien not admitted to the
United States, that the alien is inadmissible under
section 1182 of this title, or
(B) in the case of an alien admitted to the
United States, that the alien is deportable under
section 1227 of this title.
3.

8 U.S.C. 1231 provide:

Detention and removal of aliens ordered removed
(a)

Detention, release, and removal of aliens ordered removed
(1) Removal period
(A)

In general

Except as otherwise provided in this section,
when an alien is ordered removed, the Attorney
General shall remove the alien from the United
States within a period of 90 days (in this section
referred to as the “removal period”).

205a
(B)

Beginning of period

The removal period begins on the latest of the
following:
(i) The date the order of removal becomes
administratively final.
(ii) If the removal order is judicially reviewed and if a court orders a stay of the removal of the alien, the date of the court’s final
order.
(iii) If the alien is detained or confined (except under an immigration process), the date
the alien is released from detention or confinement.
(C)

Suspension of period

The removal period shall be extended beyond a
period of 90 days and the alien may remain in detention during such extended period if the alien
fails or refuses to make timely application in good
faith for travel or other documents necessary to
the alien’s departure or conspires or acts to prevent the alien’s removal subject to an order of removal.
(2) Detention

During the removal period, the Attorney General
shall detain the alien. Under no circumstance during the removal period shall the Attorney General release an alien who has been found inadmissible under
section 1182(a)(2) or 1182(a)(3)(B) of this title or deportable under section 1227(a)(2) or 1227(a)(4)(B) of
this title.

206a
(3) Supervision after 90-day period

If the alien does not leave or is not removed within
the removal period, the alien, pending removal, shall
be subject to supervision under regulations prescribed by the Attorney General. The regulations
shall include provisions requiring the alien—
(A) to appear before an immigration officer
periodically for identification;
(B) to submit, if necessary, to a medical and
psychiatric examination at the expense of the
United States Government;
(C) to give information under oath about the
alien’s nationality, circumstances, habits, associations, and activities, and other information the Attorney General considers appropriate; and
(D) to obey reasonable written restrictions
on the alien’s conduct or activities that the Attorney General prescribes for the alien.
(4) Aliens imprisoned, arrested, or on parole, supervised release, or probation
(A)

In general

Except as provided in section 259(a)1 of title 42
and paragraph (2),2 the Attorney General may not
remove an alien who is sentenced to imprisonment
until the alien is released from imprisonment.

1
2

See References in Text note below.
So in original. Probably should be “subparagraph (B).”.

207a
Parole, supervised release, probation, or possibility of arrest or further imprisonment is not a reason to defer removal.
(B)

Exception for removal of nonviolent offenders prior to completion of sentence of imprisonment

The Attorney General is authorized to remove
an alien in accordance with applicable procedures
under this chapter before the alien has completed
a sentence of imprisonment—
(i) in the case of an alien in the custody of
the Attorney General, if the Attorney General
determines that (I) the alien is confined pursuant to a final conviction for a nonviolent offense
(other than an offense related to smuggling or
harboring of aliens or an offense described in
section 1101(a)(43)(B), (C), (E), (I), or (L) of
this title3 and (II) the removal of the alien is appropriate and in the best interest of the United
States; or
(ii) in the case of an alien in the custody of
a State (or a political subdivision of a State), if
the chief State official exercising authority
with respect to the incarceration of the alien
determines that (I) the alien is confined pursuant to a final conviction for a nonviolent offense
(other than an offense described in section
1101(a)(43)(C) or (E) of this title), (II) the removal is appropriate and in the best interest of
the State, and (III) submits a written request
So in original.
thesis.
3

Probably should be followed by a closing paren-

208a
to the Attorney General that such alien be so
removed.
(C)

Notice

Any alien removed pursuant to this paragraph
shall be notified of the penalties under the laws of
the United States relating to the reentry of deported aliens, particularly the expanded penalties
for aliens removed under subparagraph (B).
(D)

No private right

No cause or claim may be asserted under this
paragraph against any official of the United States
or of any State to compel the release, removal, or
consideration for release or removal of any alien.
(5) Reinstatement of removal orders against aliens
illegally reentering

If the Attorney General finds that an alien has
reentered the United States illegally after having been
removed or having departed voluntarily, under an order of removal, the prior order of removal is reinstated from its original date and is not subject to being reopened or reviewed, the alien is not eligible and
may not apply for any relief under this chapter, and
the alien shall be removed under the prior order at
any time after the reentry.
(6) Inadmissible or criminal aliens

An alien ordered removed who is inadmissible under section 1182 of this title, removable under section
1227(a)(1)(C), 1227(a)(2), or 1227(a)(4) of this title or
who has been determined by the Attorney General to
be a risk to the community or unlikely to comply with

209a
the order of removal, may be detained beyond the removal period and, if released, shall be subject to the
terms of supervision in paragraph (3).
(7) Employment authorization

No alien ordered removed shall be eligible to receive authorization to be employed in the United
States unless the Attorney General makes a specific
finding that—
(A) the alien cannot be removed due to the refusal of all countries designated by the alien or under
this section to receive the alien, or
(B) the removal of the alien is otherwise impracticable or contrary to the public interest.
(b)

Countries to which aliens may be removed
(1) Aliens arriving at the United States

Subject to paragraph (3)—
(A)

In general

Except as provided by subparagraphs (B) and
(C), an alien who arrives at the United States and
with respect to whom proceedings under section
1229a of this title were initiated at the time of such
alien’s arrival shall be removed to the country in
which the alien boarded the vessel or aircraft on
which the alien arrived in the United States.
(B)

Travel from contiguous territory

If the alien boarded the vessel or aircraft on
which the alien arrived in the United States in a
foreign territory contiguous to the United States,

210a
an island adjacent to the United States, or an island adjacent to a foreign territory contiguous to
the United States, and the alien is not a native, citizen, subject, or national of, or does not reside in,
the territory or island, removal shall be to the
country in which the alien boarded the vessel that
transported the alien to the territory or island.
(C)

Alternative countries

If the government of the country designated in
subparagraph (A) or (B) is unwilling to accept the
alien into that country’s territory, removal shall
be to any of the following countries, as directed by
the Attorney General:
(i) The country of which the alien is a citizen, subject, or national.
(ii) The country in which the alien was
born.
(iii) The country in which the alien has a
residence.
(iv) A country with a government that will
accept the alien into the country’s territory if
removal to each country described in a previous
clause of this subparagraph is impracticable,
inadvisable, or impossible.
(2) Other aliens

Subject to paragraph (3)—
(A)

Selection of country by alien

Except as otherwise provided in this paragraph—

211a
(i) any alien not described in paragraph
(1) who has been ordered removed may designate one country to which the alien wants to be
removed, and
(ii) the Attorney General shall remove the
alien to the country the alien so designates.
(B)

Limitation on designation

An alien may designate under subparagraph
(A)(i) a foreign territory contiguous to the United
States, an adjacent island, or an island adjacent to
a foreign territory contiguous to the United States
as the place to which the alien is to be removed
only if the alien is a native, citizen, subject, or national of, or has resided in, that designated territory or island.
(C)

Disregarding designation

The Attorney General may disregard a designation under subparagraph (A)(i) if—
(i) the alien fails to designate a country
promptly;
(ii) the government of the country does not
inform the Attorney General finally, within 30
days after the date the Attorney General first
inquires, whether the government will accept
the alien into the country;
(iii) the government of the country is not
willing to accept the alien into the country; or
(iv) the Attorney General decides that removing the alien to the country is prejudicial to
the United States.

212a
(D)

Alternative country

If an alien is not removed to a country designated under subparagraph (A)(i), the Attorney
General shall remove the alien to a country of
which the alien is a subject, national, or citizen unless the government of the country—
(i) does not inform the Attorney General
or the alien finally, within 30 days after the date
the Attorney General first inquires or within
another period of time the Attorney General
decides is reasonable, whether the government
will accept the alien into the country; or
(ii) is not willing to accept the alien into the
country.
(E)

Additional removal countries

If an alien is not removed to a country under
the previous subparagraphs of this paragraph, the
Attorney General shall remove the alien to any of
the following countries:
(i) The country from which the alien was
admitted to the United States.
(ii) The country in which is located the foreign port from which the alien left for the
United States or for a foreign territory contiguous to the United States.
(iii) A country in which the alien resided before the alien entered the country from which
the alien entered the United States.
(iv) The country in which the alien was
born.

213a
(v) The country that had sovereignty over
the alien’s birthplace when the alien was born.
(vi) The country in which the alien’s birthplace is located when the alien is ordered removed.
(vii) If impracticable, inadvisable, or impossible to remove the alien to each country described in a previous clause of this subparagraph, another country whose government will
accept the alien into that country.
(F)

Removal country when United States is at
war

When the United States is at war and the Attorney General decides that it is impracticable, inadvisable, inconvenient, or impossible to remove
an alien under this subsection because of the war,
the Attorney General may remove the alien—
(i) to the country that is host to a government in exile of the country of which the alien
is a citizen or subject if the government of the
host country will permit the alien’s entry; or
(ii) if the recognized government of the
country of which the alien is a citizen or subject
is not in exile, to a country, or a political or territorial subdivision of a country, that is very
near the country of which the alien is a citizen
or subject, or, with the consent of the government of the country of which the alien is a citizen or subject, to another country.

214a
(3) Restriction on removal to a country where alien’s
life or freedom would be threatened
(A)

In general

Notwithstanding paragraphs (1) and (2), the
Attorney General may not remove an alien to a
country if the Attorney General decides that the
alien’s life or freedom would be threatened in that
country because of the alien’s race, religion, nationality, membership in a particular social group,
or political opinion.
(B)

Exception

Subparagraph (A) does not apply to an alien deportable under section 1227(a)(4)(D) of this title or
if the Attorney General decides that—
(i) the alien ordered, incited, assisted, or
otherwise participated in the persecution of an
individual because of the individual’s race, religion, nationality, membership in a particular
social group, or political opinion;
(ii) the alien, having been convicted by a final judgment of a particularly serious crime is
a danger to the community of the United
States;
(iii) there are serious reasons to believe
that the alien committed a serious nonpolitical
crime outside the United States before the alien arrived in the United States; or
(iv) there are reasonable grounds to believe that the alien is a danger to the security
of the United States.

215a
For purposes of clause (ii), an alien who has been
convicted of an aggravated felony (or felonies) for
which the alien has been sentenced to an aggregate term of imprisonment of at least 5 years shall
be considered to have committed a particularly serious crime. The previous sentence shall not preclude the Attorney General from determining
that, notwithstanding the length of sentence imposed, an alien has been convicted of a particularly
serious crime. For purposes of clause (iv), an alien who is described in section 1227(a)(4)(B) of this
title shall be considered to be an alien with respect
to whom there are reasonable grounds for regarding as a danger to the security of the United
States.
(C)

Sustaining burden of proof; credibility determinations

In determining whether an alien has demonstrated that the alien’s life or freedom would be
threatened for a reason described in subparagraph
(A), the trier of fact shall determine whether the alien has sustained the alien’s burden of proof, and
shall make credibility determinations, in the manner described in clauses (ii) and (iii) of section
1158(b)(1)(B) of this title.
(c)

Removal of aliens arriving at port of entry
(1) Vessels and aircraft

An alien arriving at a port of entry of the United
States who is ordered removed either without a hearing under section 1225(b)(1) or 1225(c) of this title or
pursuant to proceedings under section 1229a of this
title initiated at the time of such alien’s arrival shall

216a
be removed immediately on a vessel or aircraft owned
by the owner of the vessel or aircraft on which the
alien arrived in the United States, unless—
(A) it is impracticable to remove the alien on
one of those vessels or aircraft within a reasonable
time, or
(B)

the alien is a stowaway—

(i) who has been ordered removed in accordance with section 1225(a)(1) of this title,
(ii) who has requested asylum, and
(iii) whose application has not been adjudicated or whose asylum application has been denied but who has not exhausted all appeal
rights.
(2) Stay of removal
(A)

In general

The Attorney General may stay the removal of
an alien under this subsection if the Attorney General decides that—
(i) immediate removal is not practicable
or proper; or
(ii) the alien is needed to testify in the
prosecution of a person for a violation of a law
of the United States or of any State.
(B)

Payment of detention costs

During the period an alien is detained because
of a stay of removal under subparagraph (A)(ii),

217a
the Attorney General may pay from the appropriation “Immigration and Naturalization Service—
Salaries and Expenses”—
(i)
and

the cost of maintenance of the alien;

(ii) a witness fee of $1 a day.
(C)

Release during stay

The Attorney General may release an alien
whose removal is stayed under subparagraph
(A)(ii) on—
(i) the alien’s filing a bond of at least $500
with security approved by the Attorney General;
(ii) condition that the alien appear when
required as a witness and for removal; and
(iii) other conditions the Attorney General
may prescribe.
(3) Costs of detention and maintenance pending
removal
(A)

In general

Except as provided in subparagraph (B) and
subsection (d),4 of this section, an owner of a vessel or aircraft bringing an alien to the United
States shall pay the costs of detaining and maintaining the alien—
(i) while the alien is detained under subsection (d)(1) of this section, and
4

So in original.

Probably should be subsection “(e)”.

218a
(ii) in the case of an alien who is a stowaway, while the alien is being detained pursuant to—
(I)
subsection (d)(2)(A) or (d)(2)(B)(i)
of this section,
(II) subsection (d)(2)(B)(ii) or (iii) of
this section for the period of time reasonably
necessary for the owner to arrange for repatriation or removal of the stowaway, including obtaining necessary travel documents, but not to extend beyond the date on
which it is ascertained that such travel documents cannot be obtained from the country
to which the stowaway is to be returned, or
(III) section 1225(b)(1)(B)(ii) of this title, for a period not to exceed 15 days (excluding Saturdays, Sundays, and holidays)
commencing on the first such day which begins on the earlier of 72 hours after the time
of the initial presentation of the stowaway
for inspection or at the time the stowaway is
determined to have a credible fear of persecution.
(B)

Nonapplication

Subparagraph (A) shall not apply if—
(i)

the alien is a crewmember;

(ii)

the alien has an immigrant visa;

(iii) the alien has a nonimmigrant visa or
other documentation authorizing the alien to
apply for temporary admission to the United
States and applies for admission not later than

219a
120 days after the date the visa or documentation was issued;
(iv) the alien has a reentry permit and applies for admission not later than 120 days after
the date of the alien’s last inspection and admission;
(v)(I) the alien has a nonimmigrant visa or
other documentation authorizing the alien to
apply for temporary admission to the United
States or a reentry permit;
(II) the alien applies for admission more
than 120 days after the date the visa or documentation was issued or after the date of the
last inspection and admission under the reentry permit; and
(III) the owner of the vessel or aircraft satisfies the Attorney General that the existence
of the condition relating to inadmissibility could
not have been discovered by exercising reasonable care before the alien boarded the vessel or
aircraft; or
(vi) the individual claims to be a national
of the United States and has a United States
passport.
(d)

Requirements of persons providing transportation
(1) Removal at time of arrival

An owner, agent, master, commanding officer,
person in charge, purser, or consignee of a vessel or
aircraft bringing an alien (except an alien crewmember) to the United States shall—

220a
(A) receive an alien back on the vessel or aircraft or another vessel or aircraft owned or operated by the same interests if the alien is ordered
removed under this part; and
(B) take the alien to the foreign country to
which the alien is ordered removed.
(2) Alien stowaways

An owner, agent, master, commanding officer,
charterer, or consignee of a vessel or aircraft arriving
in the United States with an alien stowaway—
(A) shall detain the alien on board the vessel
or aircraft, or at such place as the Attorney General shall designate, until completion of the inspection of the alien by an immigration officer;
(B) may not permit the stowaway to land in
the United States, except pursuant to regulations
of the Attorney General temporarily—
(i)

for medical treatment,

(ii) for detention of the stowaway by the
Attorney General, or
(iii) for departure or removal of the stowaway; and
(C) if ordered by an immigration officer,
shall remove the stowaway on the vessel or aircraft or on another vessel or aircraft.
The Attorney General shall grant a timely request to
remove the stowaway under subparagraph (C) on a
vessel or aircraft other than that on which the stowaway arrived if the requester has obtained any travel
documents necessary for departure or repatriation of

221a
the stowaway and removal of the stowaway will not
be unreasonably delayed.
(3) Removal upon order

An owner, agent, master, commanding officer,
person in charge, purser, or consignee of a vessel, aircraft, or other transportation line shall comply with
an order of the Attorney General to take on board,
guard safely, and transport to the destination specified any alien ordered to be removed under this chapter.
(e)

Payment of expenses of removal
(1) Costs of removal at time of arrival

In the case of an alien who is a stowaway or who is
ordered removed either without a hearing under section 1225(a)(1)5 or 1225(c) of this title or pursuant to
proceedings under section 1229a of this title initiated
at the time of such alien’s arrival, the owner of the
vessel or aircraft (if any) on which the alien arrived
in the United States shall pay the transportation cost
of removing the alien. If removal is on a vessel or
aircraft not owned by the owner of the vessel or aircraft on which the alien arrived in the United States,
the Attorney General may—
(A) pay the cost from the appropriation “Immigration and Naturalization Service—Salaries
and Expenses”; and
(B) recover the amount of the cost in a civil
action from the owner, agent, or consignee of the

5

So in original.

Probably should be “1225(b)(1)”.

222a
vessel or aircraft (if any) on which the alien arrived in the United States.
(2) Costs of removal to port of removal for aliens
admitted or permitted to land

In the case of an alien who has been admitted or
permitted to land and is ordered removed, the cost (if
any) of removal of the alien to the port of removal
shall be at the expense of the appropriation for the
enforcement of this chapter.
(3) Costs of removal from port of removal for aliens
admitted or permitted to land
(A)

Through appropriation

Except as provided in subparagraph (B), in the
case of an alien who has been admitted or permitted to land and is ordered removed, the cost (if
any) of removal of the alien from the port of removal shall be at the expense of the appropriation
for the enforcement of this chapter.
(B)
(i)

Through owner
In general

In the case of an alien described in clause
(ii), the cost of removal of the alien from the
port of removal may be charged to any owner
of the vessel, aircraft, or other transportation
line by which the alien came to the United
States.
(ii) Aliens described

An alien described in this clause is an alien
who—

223a
(I) is admitted to the United States (other
than lawfully admitted for permanent residence) and is ordered removed within 5 years
of the date of admission based on a ground that
existed before or at the time of admission, or
(II) is an alien crewman permitted to land
temporarily under section 1282 of this title and
is ordered removed within 5 years of the date
of landing.
(C)

Costs of removal of certain aliens granted
voluntary departure

In the case of an alien who has been granted
voluntary departure under section 1229c of this title and who is financially unable to depart at the
alien’s own expense and whose removal the Attorney General deems to be in the best interest of the
United States, the expense of such removal may
be paid from the appropriation for the enforcement of this chapter.
(f )

Aliens requiring personal care during removal
(1) In general

If the Attorney General believes that an alien being removed requires personal care because of the alien’s mental or physical condition, the Attorney General may employ a suitable person for that purpose
who shall accompany and care for the alien until the
alien arrives at the final destination.
(2) Costs

The costs of providing the service described in
paragraph (1) shall be defrayed in the same manner

224a
as the expense of removing the accompanied alien is
defrayed under this section.
(g)

Places of detention
(1) In general

The Attorney General shall arrange for appropriate places of detention for aliens detained pending removal or a decision on removal. When United States
Government facilities are unavailable or facilities
adapted or suitably located for detention are unavailable for rental, the Attorney General may expend
from the appropriation “Immigration and Naturalization Service—Salaries and Expenses”, without regard to section 6101 of title 41, amounts necessary to
acquire land and to acquire, build, remodel, repair,
and operate facilities (including living quarters for
immigration officers if not otherwise available) necessary for detention.
(2) Detention facilities of the Immigration and
Naturalization Service

Prior to initiating any project for the construction
of any new detention facility for the Service, the
Commissioner shall consider the availability for purchase or lease of any existing prison, jail, detention
center, or other comparable facility suitable for such
use.
(h)

Statutory construction

Nothing in this section shall be construed to create
any substantive or procedural right or benefit that is legally enforceable by any party against the United States
or its agencies or officers or any other person.

225a
(i)

Incarceration

(1) If the chief executive officer of a State (or, if appropriate, a political subdivision of the State) exercising
authority with respect to the incarceration of an undocumented criminal alien submits a written request to the
Attorney General, the Attorney General shall, as determined by the Attorney General—
(A) enter into a contractual arrangement which
provides for compensation to the State or a political
subdivision of the State, as may be appropriate, with
respect to the incarceration of the undocumented
criminal alien; or
(B) take the undocumented criminal alien into
the custody of the Federal Government and incarcerate the alien.
(2) Compensation under paragraph (1)(A) shall be
the average cost of incarceration of a prisoner in the relevant State as determined by the Attorney General.
(3) For purposes of this subsection, the term “undocumented criminal alien” means an alien who—
(A) has been convicted of a felony or two or
more misdemeanors; and
(B)(i) entered the United States without inspection or at any time or place other than as designated
by the Attorney General;
(ii) was the subject of exclusion or deportation
proceedings at the time he or she was taken into custody by the State or a political subdivision of the
State; or

226a
(iii) was admitted as a nonimmigrant and at the
time he or she was taken into custody by the State or
a political subdivision of the State has failed to maintain the nonimmigrant status in which the alien was
admitted or to which it was changed under section
1258 of this title, or to comply with the conditions of
any such status.
(4)(A) In carrying out paragraph (1), the Attorney
General shall give priority to the Federal incarceration
of undocumented criminal aliens who have committed
aggravated felonies.
(B) The Attorney General shall ensure that undocumented criminal aliens incarcerated in Federal facilities pursuant to this subsection are held in facilities
which provide a level of security appropriate to the
crimes for which they were convicted.
(5) There are authorized to be appropriated to carry
out this subsection—
(A)

$750,000,000 for fiscal year 2006;

(B)

$850,000,000 for fiscal year 2007; and

(C) $950,000,000 for each of the fiscal years 2008
through 2011.
(6) Amounts appropriated pursuant to the authorization of appropriations in paragraph (5) that are distributed to a State or political subdivision of a State, including a municipality, may be used only for correctional
purposes.

227a
4.

8 U.S.C. 1252 provides:

Judicial review of orders of removal
(a)

Applicable provisions
(1) General orders of removal

Judicial review of a final order of removal (other
than an order of removal without a hearing pursuant
to section 1225(b)(1) of this title) is governed only by
chapter 158 of title 28, except as provided in subsection (b) of this section and except that the court may
not order the taking of additional evidence under section 2347(c) of such title.
(2) Matters not subject to judicial review
(A)

Review relating to section 1225(b)(1)

Notwithstanding any other provision of law
(statutory or nonstatutory), including section 2241
of title 28, or any other habeas corpus provision,
and sections 1361 and 1651 of such title, no court
shall have jurisdiction to review—
(i)
except as provided in subsection (e) of
this section, any individual determination or to
entertain any other cause or claim arising from
or relating to the implementation or operation
of an order of removal pursuant to section
1225(b)(1) of this title,
(ii) except as provided in subsection (e) of
this section, a decision by the Attorney General
to invoke the provisions of such section,
(iii) the application of such section to individual aliens, including the determination made
under section 1225(b)(1)(B) of this title, or

228a
(iv) except as provided in subsection (e),
procedures and policies adopted by the Attorney General to implement the provisions of section 1225(b)(1) of this title.
(B)

Denials of discretionary relief

Notwithstanding any other provision of law
(statutory or nonstatutory), including section 2241
of title 28, or any other habeas corpus provision,
and sections 1361 and 1651 of such title, and except as provided in subparagraph (D), and regardless of whether the judgment, decision, or action
is made in removal proceedings, no court shall
have jurisdiction to review—
(i)
any judgment regarding the granting
of relief under section 1182(h), 1182(i), 1229b,
1229c, or 1255 of this title, or
(ii) any other decision or action of the Attorney General or the Secretary of Homeland
Security the authority for which is specified under this subchapter to be in the discretion of
the Attorney General or the Secretary of
Homeland Security, other than the granting of
relief under section 1158(a) of this title.
(C)

Orders against criminal aliens

Notwithstanding any other provision of law
(statutory or nonstatutory), including section 2241
of title 28, or any other habeas corpus provision,
and sections 1361 and 1651 of such title, and except as provided in subparagraph (D), no court
shall have jurisdiction to review any final order of
removal against an alien who is removable by rea-

229a
son of having committed a criminal offense covered in section 1182(a)(2) or 1227(a)(2)(A)(iii), (B),
(C), or (D) of this title, or any offense covered by
section 1227(a)(2)(A)(ii) of this title for which both
predicate offenses are, without regard to their
date of commission, otherwise covered by section
1227(a)(2)(A)(i) of this title.
(D)

Judicial review of certain legal claims

Nothing in subparagraph (B) or (C), or in any
other provision of this chapter (other than this
section) which limits or eliminates judicial review,
shall be construed as precluding review of constitutional claims or questions of law raised upon a
petition for review filed with an appropriate court
of appeals in accordance with this section.
(3) Treatment of certain decisions

No alien shall have a right to appeal from a decision of an immigration judge which is based solely on
a certification described in section 1229a(c)(1)(B) of
this title.
(4) Claims under the United Nations Convention

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title
28, or any other habeas corpus provision, and sections 1361 and 1651 of such title, a petition for review
filed with an appropriate court of appeals in accordance with this section shall be the sole and exclusive
means for judicial review of any cause or claim under
the United Nations Convention Against Torture and
Other Forms of Cruel, Inhuman, or Degrading Treatment or Punishment, except as provided in subsection (e) of this section.

230a
(5) Exclusive means of review

Notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title
28, or any other habeas corpus provision, and sections 1361 and 1651 of such title, a petition for review
filed with an appropriate court of appeals in accordance with this section shall be the sole and exclusive
means for judicial review of an order of removal entered or issued under any provision of this chapter,
except as provided in subsection (e) of this section.
For purposes of this chapter, in every provision that
limits or eliminates judicial review or jurisdiction to
review, the terms “judicial review” and “jurisdiction
to review” include habeas corpus review pursuant to
section 2241 of title 28, or any other habeas corpus
provision, sections 1361 and 1651 of such title, and review pursuant to any other provision of law (statutory or nonstatutory).
(b)

Requirements for review of orders of removal

With respect to review of an order of removal under
subsection (a)(1), the following requirements apply:
(1) Deadline

The petition for review must be filed not later than
30 days after the date of the final order of removal.
(2) Venue and forms

The petition for review shall be filed with the court
of appeals for the judicial circuit in which the immigration judge completed the proceedings. The record and briefs do not have to be printed. The court
of appeals shall review the proceeding on a typewritten record and on typewritten briefs.

231a
(3) Service
(A)

In general

The respondent is the Attorney General. The
petition shall be served on the Attorney General
and on the officer or employee of the Service in
charge of the Service district in which the final order of removal under section 1229a of this title was
entered.
(B)

Stay of order

Service of the petition on the officer or employee does not stay the removal of an alien pending the court’s decision on the petition, unless the
court orders otherwise.
(C)

Alien’s brief

The alien shall serve and file a brief in connection with a petition for judicial review not later
than 40 days after the date on which the administrative record is available, and may serve and file
a reply brief not later than 14 days after service of
the brief of the Attorney General, and the court
may not extend these deadlines except upon motion for good cause shown. If an alien fails to file
a brief within the time provided in this paragraph,
the court shall dismiss the appeal unless a manifest injustice would result.
(4) Scope and standard for review

Except as provided in paragraph (5)(B)—
(A) the court of appeals shall decide the petition only on the administrative record on which
the order of removal is based,

232a
(B) the administrative findings of fact are conclusive unless any reasonable adjudicator would be
compelled to conclude to the contrary,
(C) a decision that an alien is not eligible for
admission to the United States is conclusive unless manifestly contrary to law, and
(D) the Attorney General’s discretionary
judgment whether to grant relief under section
1158(a) of this title shall be conclusive unless manifestly contrary to the law and an abuse of discretion.
No court shall reverse a determination made by a
trier of fact with respect to the availability of corroborating evidence, as described in section 1158(b)(1)(B),
1229a(c)(4)(B), or 1231(b)(3)(C) of this title, unless
the court finds, pursuant to subsection (b)(4)(B), that
a reasonable trier of fact is compelled to conclude
that such corroborating evidence is unavailable.
(5) Treatment of nationality claims
(A)

Court determination if no issue of fact

If the petitioner claims to be a national of the
United States and the court of appeals finds from
the pleadings and affidavits that no genuine issue
of material fact about the petitioner’s nationality
is presented, the court shall decide the nationality
claim.
(B)

Transfer if issue of fact

If the petitioner claims to be a national of the
United States and the court of appeals finds that
a genuine issue of material fact about the petitioner’s nationality is presented, the court shall

233a
transfer the proceeding to the district court of the
United States for the judicial district in which the
petitioner resides for a new hearing on the nationality claim and a decision on that claim as if an action had been brought in the district court under
section 2201 of title 28.
(C)

Limitation on determination

The petitioner may have such nationality claim
decided only as provided in this paragraph.
(6) Consolidation with review of motions to reopen or
reconsider

When a petitioner seeks review of an order under
this section, any review sought of a motion to reopen
or reconsider the order shall be consolidated with the
review of the order.
(7) Challenge to validity of orders in certain criminal
proceedings
(A)

In general

If the validity of an order of removal has not
been judicially decided, a defendant in a criminal
proceeding charged with violating section 1253(a)
of this title may challenge the validity of the order
in the criminal proceeding only by filing a separate
motion before trial. The district court, without a
jury, shall decide the motion before trial.
(B)

Claims of United States nationality

If the defendant claims in the motion to be a
national of the United States and the district court
finds that—

234a
(i) no genuine issue of material fact about
the defendant’s nationality is presented, the
court shall decide the motion only on the administrative record on which the removal order
is based and the administrative findings of fact
are conclusive if supported by reasonable, substantial, and probative evidence on the record
considered as a whole; or
(ii) a genuine issue of material fact about
the defendant’s nationality is presented, the
court shall hold a new hearing on the nationality claim and decide that claim as if an action
had been brought under section 2201 of title 28.
The defendant may have such nationality claim decided only as provided in this subparagraph.
(C)

Consequence of invalidation

If the district court rules that the removal order is invalid, the court shall dismiss the indictment for violation of section 1253(a) of this title.
The United States Government may appeal the
dismissal to the court of appeals for the appropriate circuit within 30 days after the date of the dismissal.
(D)

Limitation on filing petitions for review

The defendant in a criminal proceeding under
section 1253(a) of this title may not file a petition
for review under subsection (a) of this section during the criminal proceeding.
(8) Construction

This subsection—

235a
(A) does not prevent the Attorney General,
after a final order of removal has been issued,
from detaining the alien under section 1231(a) of
this title;
(B) does not relieve the alien from complying
with section 1231(a)(4) of this title and section
1253(g)1 of this title; and
(C) does not require the Attorney General to
defer removal of the alien.
(9) Consolidation of questions for judicial review

Judicial review of all questions of law and fact, including interpretation and application of constitutional and statutory provisions, arising from any action taken or proceeding brought to remove an alien
from the United States under this subchapter shall
be available only in judicial review of a final order under this section. Except as otherwise provided in
this section, no court shall have jurisdiction, by habeas corpus under section 2241 of title 28 or any other
habeas corpus provision, by section 1361 or 1651 of
such title, or by any other provision of law (statutory
or nonstatutory), to review such an order or such
questions of law or fact.
(c)

Requirements for petition

A petition for review or for habeas corpus of an order
of removal—
(1)

shall attach a copy of such order, and

(2) shall state whether a court has upheld the validity of the order, and, if so, shall state the name of
1

See References in Text note below.

236a
the court, the date of the court’s ruling, and the kind
of proceeding.
(d)

Review of final orders

A court may review a final order of removal only if—
(1) the alien has exhausted all administrative
remedies available to the alien as of right, and
(2) another court has not decided the validity of
the order, unless the reviewing court finds that the
petition presents grounds that could not have been
presented in the prior judicial proceeding or that the
remedy provided by the prior proceeding was inadequate or ineffective to test the validity of the order.
(e)

Judicial review of orders under section 1225(b)(1)
(1) Limitations on relief

Without regard to the nature of the action or claim
and without regard to the identity of the party or parties bringing the action, no court may—
(A) enter declaratory, injunctive, or other
equitable relief in any action pertaining to an order to exclude an alien in accordance with section
1225(b)(1) of this title except as specifically authorized in a subsequent paragraph of this subsection, or
(B) certify a class under Rule 23 of the Federal Rules of Civil Procedure in any action for
which judicial review is authorized under a subsequent paragraph of this subsection.

237a
(2) Habeas corpus proceedings

Judicial review of any determination made under
section 1225(b)(1) of this title is available in habeas
corpus proceedings, but shall be limited to determinations of—
(A)

whether the petitioner is an alien,

(B) whether the petitioner was ordered removed under such section, and
(C) whether the petitioner can prove by a
preponderance of the evidence that the petitioner
is an alien lawfully admitted for permanent residence, has been admitted as a refugee under section 1157 of this title, or has been granted asylum
under section 1158 of this title, such status not
having been terminated, and is entitled to such
further inquiry as prescribed by the Attorney
General pursuant to section 1225(b)(1)(C) of this
title.
(3) Challenges on validity of the system
(A)

In general

Judicial review of determinations under section
1225(b) of this title and its implementation is available in an action instituted in the United States
District Court for the District of Columbia, but
shall be limited to determinations of—
(i) whether such section, or any regulation
issued to implement such section, is constitutional; or

238a
(ii) whether such a regulation, or a written
policy directive, written policy guideline, or written procedure issued by or under the authority
of the Attorney General to implement such section, is not consistent with applicable provisions of this subchapter or is otherwise in violation of law.
(B)

Deadlines for bringing actions

Any action instituted under this paragraph
must be filed no later than 60 days after the date the
challenged section, regulation, directive, guideline,
or procedure described in clause (i) or (ii) of subparagraph (A) is first implemented.
(C)

Notice of appeal

A notice of appeal of an order issued by the District Court under this paragraph may be filed not
later than 30 days after the date of issuance of
such order.
(D)

Expeditious consideration of cases

It shall be the duty of the District Court, the
Court of Appeals, and the Supreme Court of the
United States to advance on the docket and to expedite to the greatest possible extent the disposition of any case considered under this paragraph.
(4) Decision

In any case where the court determines that the
petitioner—
(A) is an alien who was not ordered removed
under section 1225(b)(1) of this title, or

239a
(B) has demonstrated by a preponderance of
the evidence that the alien is an alien lawfully admitted for permanent residence, has been admitted as a refugee under section 1157 of this title, or
has been granted asylum under section 1158 of
this title, the court may order no remedy or relief
other than to require that the petitioner be provided a hearing in accordance with section 1229a
of this title. Any alien who is provided a hearing
under section 1229a of this title pursuant to this
paragraph may thereafter obtain judicial review
of any resulting final order of removal pursuant to
subsection (a)(1).
(5) Scope of inquiry

In determining whether an alien has been ordered
removed under section 1225(b)(1) of this title, the
court’s inquiry shall be limited to whether such an order in fact was issued and whether it relates to the
petitioner. There shall be no review of whether the
alien is actually inadmissible or entitled to any relief
from removal.
(f )

Limit on injunctive relief
(1) In general

Regardless of the nature of the action or claim or
of the identity of the party or parties bringing the action, no court (other than the Supreme Court) shall
have jurisdiction or authority to enjoin or restrain
the operation of the provisions of part IV of this subchapter, as amended by the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, other

240a
than with respect to the application of such provisions to an individual alien against whom proceedings
under such part have been initiated.
(2) Particular cases

Notwithstanding any other provision of law, no
court shall enjoin the removal of any alien pursuant
to a final order under this section unless the alien
shows by clear and convincing evidence that the entry or execution of such order is prohibited as a matter of law.
(g)

Exclusive jurisdiction

Except as provided in this section and notwithstanding any other provision of law (statutory or nonstatutory), including section 2241 of title 28, or any other habeas corpus provision, and sections 1361 and 1651 of
such title, no court shall have jurisdiction to hear any
cause or claim by or on behalf of any alien arising from
the decision or action by the Attorney General to commence proceedings, adjudicate cases, or execute removal orders against any alien under this chapter.

